<html>
<title> - [H.A.S.C. No. 112-104]FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-104]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

          BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                           FEBRUARY 28, 2012



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                      U.S. GOVERNMENT PRINTING OFFICE

 73-430                    WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="781f0817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>  






                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               CHELLIE PINGREE, Maine
ROB WITTMAN, Virginia                LARRY KISSELL, North Carolina
DUNCAN HUNTER, California            MARTIN HEINRICH, New Mexico
JOHN C. FLEMING, M.D., Louisiana     BILL OWENS, New York
MIKE COFFMAN, Colorado               JOHN R. GARAMENDI, California
TOM ROONEY, Florida                  MARK S. CRITZ, Pennsylvania
TODD RUSSELL PLATTS, Pennsylvania    TIM RYAN, Ohio
SCOTT RIGELL, Virginia               C.A. DUTCH RUPPERSBERGER, Maryland
CHRIS GIBSON, New York               HANK JOHNSON, Georgia
VICKY HARTZLER, Missouri             BETTY SUTTON, Ohio
JOE HECK, Nevada                     COLLEEN HANABUSA, Hawaii
BOBBY SCHILLING, Illinois            KATHLEEN C. HOCHUL, New York
JON RUNYAN, New Jersey               JACKIE SPEIER, California
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
                 Doug Roach, Professional Staff Member
                  Doug Bush, Professional Staff Member
                    Lauren Hauhn, Research Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, February 28, 2012, Fiscal Year 2013 National Defense 
  Authorization Budget Request from the Department of the Air 
  Force..........................................................     1

Appendix:

Tuesday, February 28, 2012.......................................    53
                              ----------                              

                       TUESDAY, FEBRUARY 28, 2012
FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Donley, Hon. Michael B., Secretary of the Air Force..............     3
Schwartz, Gen Norton A., USAF, Chief of Staff, U.S. Air Force....     6

                                APPENDIX

Prepared Statements:

    Donley, Hon. Michael B., joint with Gen Norton A. Schwartz...    60
    McKeon, Hon. Howard P. ``Buck''..............................    57
    Smith, Hon. Adam.............................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Smith....................................................    95

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   111
    Mr. Conaway..................................................   120
    Mr. Courtney.................................................   118
    Mr. Critz....................................................   122
    Mr. Forbes...................................................   101
    Mr. Griffin..................................................   137
    Dr. Heck.....................................................   127
    Mr. Hunter...................................................   121
    Mr. Johnson..................................................   126
    Mr. Langevin.................................................   102
    Mr. Loebsack.................................................   119
    Mr. McIntyre.................................................   100
    Mr. McKeon...................................................    99
    Mr. Miller...................................................   101
    Mrs. Roby....................................................   153
    Mr. Runyan...................................................   133
    Mr. Ruppersberger............................................   125
    Mr. Schilling................................................   131
    Mr. Scott....................................................   135
    Mr. Shuster..................................................   120
    Mr. Smith....................................................    99
    Mr. Turner...................................................   103
    Mr. Wittman..................................................   121
 
FISCAL YEAR 2013 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                      DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Tuesday, February 28, 2012.
    The committee met, pursuant to call, at 10:04 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. Thank you for joining 
us today as we consider the President's fiscal year 2013 Budget 
Request for the Department of the Air Force.
    Secretary Donley, General Schwartz, it is good to have you 
back again before the committee today, at least for us. I hope 
you enjoy your time here.
    We are fortunate to have experienced leadership on our Air 
Force in this challenging period. We appreciate all that you do 
and we are truly grateful to have leaders like you in service 
to our Nation. When you took your respective positions, you 
probably didn't fully appreciate the leadership challenges that 
you would confront.
    The Air Force has been engaged in combat operations 
supporting the Joint Forces for the past 20 years, beginning 
with the Gulf war in 1991 and continuing thereafter through 
enforcement of the Iraq no-fly zones; combat operations in the 
Balkans, Iraq, and Afghanistan; the related logistics support 
missions; and worldwide humanitarian support missions. And of 
course the Air Force has continued the 24/7, 365-day-a-year 
nuclear-deterrence mission.
    Everyone should fully understand that our vital interests 
have not changed since last year. The threats to those 
interests have not decreased, and they are not likely to 
diminish over the next 5 years. What has changed is that the 
President directed at least $400 billion in cuts to our 
military, which were reflected in the Budget Control Act.
    Despite the suggestion by some that the strategy evolved 
independent of the President's fiscal guidance, each of the 
military services is making force-structure and equipment-
modernization recommendations to Congress based purely on the 
budget and not based on the world security environment.
    For example, there are 54 aircrafts in the Air Force budget 
request. If procurement continues at this rate, and assuming an 
aircraft lifespan of 25 years, the resulting force structure is 
1,350 aircraft; one-quarter the size of the current force. I do 
not believe 1,350 total Air Force aircraft--bombers, fighters, 
airlifts, search-and-rescue, rotorcraft, and trainers--is in 
the national security interest of this country. And this is 
without the potential of sequestration.
    Furthermore, the budget request does little to mitigate the 
consequences of aging force structure resulting from the 
procurement holiday of the 1990s. Operation and Maintenance 
accounts are not increasing to sustain and extend these aging 
platforms. Other budget-driven choices include the requested 
increase in TRICARE fees for retirees. Congress addressed this 
issue at length last year and enacted what I considered a 
reasonable approach for managing cost.
    The Department's proposal would increase the fees by 96 
percent to 345 percent over a 5-year period which, in my 
opinion, is unreasonable. With that said, I am pleased to see 
the priorities for strategic airlift, a new bomber, and an 
airborne tanker have been preserved. As well, the Air Force has 
deliberately elected to ensure the percentage of the Air 
Force's combat and mobility forces that are on Active Duty will 
increase after the implementation of the force structure 
changes.
    This is appropriate from a risk perspective, but I believe 
it is important for the Air Force leadership to continue this 
public discussion to better ensure that Guard and Reserve 
personnel fully accept that they have received and will receive 
equitable and fair treatment in this transition process.
    Thank you very much again for being here. Representative 
Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 57.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you Mr. Chairman.
    And I thank Secretary Donley and General Schwartz for 
being, once again, before this committee, and for their great 
leadership of the Air Force and their service to our country. 
It is terrific to have such able people in charge of such an 
important task. We appreciate you being here.
    The Air Force has been critical to all of our missions in 
the recent past--in Iraq, in Afghanistan, in the Balkans, as 
the chairman mentioned--and also, you know, providing critical 
lift capacity for humanitarian response in Haiti and Japan and 
many other places. The strength of our Air Force is one of the 
great strengths of our national security and the strengths of 
our entire Nation, and we do appreciate that leadership.
    This is a very challenging time, as the chairman mentioned. 
The needs are still great. We are still fighting in 
Afghanistan. We still face threats on a number of fronts and 
needs globally. At the same time, the budget picture is not 
good. We are running a significant deficit and we have 
challenges to figure out how to make that work within the 
budget. We have had that debate, and I am sure we will continue 
to have the debate on the committee about whether or not 
strategy or budget should drive what we do in the national-
security realm; and of course my position is both.
    We are always, no matter what you are doing, constrained by 
the budget to a certain extent. And we would not pretend that 
nobody thought for a second about the budget when putting 
together the strategy. But I do think that the gentlemen before 
us and everyone over at the Pentagon and the White House did 
put together a strategy looking at our national security needs 
first to figure out what needs to be met, and then figuring out 
how to match that strategy to the budget constraints that we 
have. And I want to compliment both of these gentlemen for 
doing a great job of that--for, I think, realistically looking 
at our choices going forward.
    I mean, the bottom line is, over the course of the last 10 
years in the Air Force and elsewhere, we have started more 
projects than we could ever possibly have the money to finish; 
in part, because some of them have wound up costing far more 
than we thought they would. But that forces difficult choices, 
frankly, almost no matter the budget environment. I think those 
choices have been made wisely in the Air Force budget that has 
been put forth. And we have a good strategy and I think we have 
a budget to match it, but there will be challenges.
    And I think this hearing is a perfectly appropriate form to 
have the gentlemen before us explain how they met some of those 
challenges; how they see some of the tougher aspects of it 
coming to pass over the course in the next several years. And I 
look forward to their comments. And, again, I thank them for 
their leadership in very, very difficult times. I look forward 
to the testimony, and I yield back.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 59.]
    The Chairman. Thank you.
    Mr. Secretary.

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY OF THE AIR FORCE

    Secretary Donley. Thank you Mr. Chairman, Ranking Member 
Smith and Members of the committee.
    It is a pleasure to be here representing more than 690,000 
Active Duty Guard, Reserve, and civilian airmen. I am also 
honored to be here today with my teammate, who is now the dean 
of the Joint Chiefs of Staff, and one of our Nation's finest 
public servants, General ``Norty'' Schwartz.
    For fiscal year 2013, the United States Air Force requests 
$110.1 billion in our baseline budget and $11.5 billion in the 
Overseas Contingency Operation supplemental appropriation to 
support our work.
    This budget request represents the culmination of many hard 
decisions taken to align our fiscal year 2013 budget submission 
with the new strategic guidance, and with the cuts required by 
the Budget Control Act over the next 10 years. Finding the 
proper balance between force structure, readiness, and 
modernization is our guiding principle. In short, we determine 
that the Air Force's best course of action is to trade size for 
quality. We will become smaller in order to protect a high-
quality and ready force; one that will continue to modernize 
and grow more capable in the future.
    The capabilities resident in the Air Force mission set are 
fundamental to the priorities outlined in the new strategic 
guidance. And in assessing how to adjust the Air Force programs 
and budgets in the future, we have taken care to protect the 
distinctive capabilities our Air Force brings to the table: 
Control of airspace and cyberspace, global intelligence, 
surveillance and reconnaissance, rapid global mobility, and 
global strike; all enabled by effective command and control.
    The Air Force and our joint interagency and coalition 
teammates and partners rely on these capabilities. And though 
we will be smaller, we intend to be a superb force at any size, 
maintaining the agility and the flexibility that is inherent in 
our air-power capabilities, and ready to engage a full range of 
contingencies and threats.
    This budget protects the Air Force's top priorities. We 
protect the size of the bomber force. We are ramping up our 
remotely piloted aircraft force to a goal of 65 combat air 
patrols, with the ability to surge to 85 CAPS [combat air 
patrols].
    We protect our Special Operations Forces' capabilities; 
largely protect space programs and our cyber capabilities. But 
as we get smaller, it is not possible to protect everything. 
Our proposed force structure changes include the reduction of 
286 aircraft over the Future Years Defense Plan, including 123 
fighters, 133 mobility aircraft, and 30 ISR [intelligence, 
surveillance, and reconnaissance] platforms. Many of these 
changes correspond to adjustments in the overall size of the 
Armed Forces, especially the Army and the Marine Corps ground 
forces, which is the case for the proposed reduction in A-10s 
[Thunderbolt II close air support jets].
    Our smaller force structure has also led us to favor 
divesting smaller niche fleets such as the C-27J [Spartan 
medium-sized airlifter], and emphasizing multirole capabilities 
that will provide operational flexibility across the spectrum 
of conflict, demonstrated by our C-130s [Hercules strategic 
airlifters] and by our choices in fighter-force structure, 
which include a smaller A-10 fleet and plans for F-16 [Fighting 
Falcon multirole jet fighter] service-life extension. We also 
emphasize common configurations which can be seen in the 
adjustments to the C-5 [Galaxy heavy intercontinental-range 
strategic airlifter] force structure and the C-17 [Globemaster 
III strategic airlifter] mobility fleets; and in ongoing 
efforts to seek common configuration within the F-22 [Raptor 
fifth-generation stealth fighter jet] and F-15C [Eagle tactical 
fighter jet] fleets.
    Because force structure changes have a ripple effect on 
manpower, our budget proposals call for a reduction of 9,900 
Air Force military personnel. By component, this amounts to 
reductions of 3,900 in Active Duty; 5,100 in Air National 
Guard; and 900 Air Reserve personnel. And the Chief and I are 
joined today by the Chief of the Air Force Reserve, Charlie 
Stenner, and the Director of the Air National Guard, Lieutenant 
General Bud Wyatt.
    Fighter mobility and other force-structure changes have 
been strategy-driven, based on changed requirements. And 
consistent with that strategy, especially where Air National 
Guard units are affected, we have proposed to remission units 
where feasible.
    We have carefully balanced our Active and Reserve Component 
changes to make sure that we can meet the demanding operational 
tempos, including both surge and rotational requirements that 
are part of the current and projected strategic environment. As 
our force gets smaller, all of our components gets smaller 
together, and will become even more closely integrated.
    We remain fully committed to our total force capability, 
and have proposed several initiatives to strengthen integration 
of effort, including increasing the number of Active Reserve 
Component associations from 100 to 115.
    Our intention is to protect readiness at any force level; 
because if we are going to be smaller, we have to be prepared. 
To that end, we put funds in critical areas such as flying 
hours and weapon system sustainment.
    We also support the Air National Guard readiness reset, 
which balances manpower across the States from lower-demand 
units to new high-demand intelligence, surveillance, and 
reconnaissance missions, and increases readiness in 39 units. 
We are committed to ensuring that our military forces do not go 
hollow. And readiness bears close watching as we move forward.
    Modernization is our most significant concern, especially 
as our fleets age and new technologies drive new investment 
needs. In this year's budget proposal, we slow modernizations 
as we protect programs that are critical to future 
capabilities. We also restructure or terminate some major 
programs to protect key priorities.
    Protected modernization priorities include the long-range 
strike bomber, the KC-46 refueling tanker; and key space 
programs such as the space-based infrared and advanced 
extremely high-frequency satellites; and follow-on global-
positioning-system work; and advanced ISR.
    We remain fully committed to the F-35 [Lightning II fifth-
generation stealth fighter] Joint Strike Fighter, which is the 
future of the fighter force. But we reduced the rate of 
procurement for a few years because, in our judgment, Lockheed 
Martin is not ready to ramp up to full-rate production. Due to 
recent delays in the F-35 program, we have also proposed to 
proceed with an F-16 service-life-extension program.
    Among the programs slated for termination are the Global 
Hawk RQ4 [surveillance unmanned aerial vehicle] Block 30 
Aircraft because, among other reasons, we could not justify the 
cost to improve the Block 30 sensors to achieve capability that 
already exists in the U-2 [``Dragon Lady'' high-altitude 
reconnaissance aircraft]. We also terminated the Defense 
Weather Satellite System, a termination initiated by Congress, 
but one that we can accept for now because the program is early 
to need.
    As noted earlier, we decided to divest the C-27J, but we 
have a good alternative to this aircraft with the multirole C-
130, which has demonstrated its ability to provide the direct 
support mission in Iraq and Afghanistan. And we remain 
committed to providing this support to the Army. In other 
cases, we eliminated programs that were judged to be 
nonessential in the current budget environment such as the 
light mobility aircraft and the light attack and armed 
reconnaissance aircraft.
    Through a more disciplined use of resources, our Air Force 
continues to ring savings out of overhead; to squeeze 
discretionary spending; and find more efficient ways of doing 
business. In fiscal year 2012, we committed to $33.3 billion in 
efficiencies across the FYDP. In this year's budget, we have 
identified about $3.4 billion in additional efficiencies and 
another $3.2 billion in programmatic adjustments to add on top 
of that $33.3 billion.
    In keeping with our enduring obligation to take care of our 
people, we will keep faith with airmen and their families. 
Doing right by our service members is key to our ability to 
recruit and retain a high-quality force.
    Nevertheless, the impact of increasing personnel costs 
continues to be a serious concern. Therefore, we support the 
military-compensation program reforms in the President's Budget 
which include a modest pay raise, proposals to control health-
care costs and calls for a commission to recommend reforms in 
retired pay. We must continue to seek and develop reforms to 
ensure the long-term sustainability of the benefits our men and 
women in uniform have earned.
    Identifying $487 billion in defense cuts to comply with the 
current requirements of the Budget Control Act has been 
difficult. Our Air Force will get smaller, but we are confident 
that we can build and sustain a quality force that is ready for 
the contingencies ahead, and that will improve in capability 
over time. However, further cuts through sequestration or other 
means will put at risk our ability to execute the new strategy.
    To get this far, we have made tough decisions to align 
structure and balance our forces in a way that can meet the new 
strategic guidance. If substantially more reductions are 
imposed on DOD [Department of Defense], we will have to revisit 
the new strategy. We cannot afford the risk of a hollow force.
    Mr. Chairman, General Schwartz and I feel deeply that our 
leadership team has inherited the finest Air Force in the 
world. It is our obligation to keep it that way so that our 
joint and coalition partners know they can count on the United 
States Air Force to deliver the capabilities that we need to 
meet the security challenges ahead, and so that our future 
airmen remained confident as we are today that they are serving 
in the world's finest Air Force. That is our obligation going 
forward, and we are going to meet it.
    We remain grateful for the continued support and service of 
this committee and we look forward to discussing our proposed 
budget.
    Thank you, sir.
    [The joint prepared statement of Secretary Donley and 
General Schwartz can be found in the Appendix on page 60.]
    The Chairman. Thank you, Mr. Secretary.
    General.

 STATEMENT OF GEN NORTON A. SCHWARTZ, CHIEF OF STAFF, U.S. AIR 
                             FORCE

    General Schwartz. Thank you Mr. Secretary and Mr. Chairman, 
Congressman Smith, and Members of the committee.
    I am privileged to be here today with Secretary Donley, 
representing the men and women of the United States Air Force.
    When we appeared before you last year to discuss our budget 
request, America's airmen were serving in Iraq and Afghanistan 
alongside their joint and coalition teammates. Little did 
anyone know at that time that we were on the verge of surging 
into two additional theaters of operation ranging more than 
5,500 miles apart; engaging in operations spanning the entire 
spectrum of activities.
    But when multiple disasters struck in Japan on March 11th, 
and when the United Nations Security Council passed Resolution 
1973 6 days later, the men and women of the United States Air 
Force and the Armed Forces were ready to respond; and respond 
they did.
    The ability to address the concurrent surge requirements 
while we remained fully engaged on two fronts in the United 
States Central Command area of responsibility was most 
assuredly not trivial. Such a capability and the capacity to 
address potential similar scenarios remains important to our 
success in the future security environment.
    But in light of our fiscal circumstances both presently and 
for the foreseeable future, helping to ensure America's success 
in these and other contingencies requires carefully tailored 
preparedness of our Air Force and the Armed Forces.
    The budget request we have forwarded to you, fully 
appreciating the Department's role in helping to stabilize the 
Nation's extraordinary fiscal condition, supports our airmen in 
our continuing efforts to structure the Force for maximum 
versatility with minimum risk across the range of operations.
    So using our very own version of March Madness last year, 
as an example, this spectrum includes humanitarian relief 
operations in places like Japan, where more than 13,000 
personnel were called to action to increase much needed 
airfield capacity; to conduct search-and-rescue operations; to 
provide airborne wide-angle views of the devastation for 
overall situation awareness; and to provide rapid and tailored 
airlift capability delivering some 5 million pounds of cargo. 
The operational continuum also includes airpower-intensive 
combat operations such as Libya, where airmen surged to 
contribute more than 65 percent of all coalition sorties; 
notably, 99 percent of the lift, 79 percent of the in-flight 
refueling, 50 percent of the airborne reconnaissance, and 40 
percent of the strike missions.
    And our Nation's full spectrum requirements that rely on 
Air Force capabilities include everything else from 
counterinsurgency to counterterrorism; to our regular 
operations; to safe and reliable operation and maintenance and 
security of two of the Nation's three legs of the strategic 
deterrent.
    In all of these mission areas, our airmen are committed to 
the task of leveraging air-and-space power with all of its 
inherent versatility, tailor-ability and rapidity. Ultimately, 
Air Force capabilities present to the President and the 
national leadership a range of strategic options to meet 
priorities of the new defense strategic guidance such as 
projecting power in anti-access and area-denial environments; 
preventing the spread of weapons of mass destruction; 
conducting space and cyber operations; and maintaining the 
preponderance of the Nation's nuclear deterrent.
    The wide array of Air Force capabilities which will remain 
vital to our Nation's diplomatic, economic, and military 
interests fall into four general categories--air and-space 
control; global intelligence, surveillance, and reconnaissance; 
rapid global mobility; and global strike.
    As part of the defense strategic guidance, we are 
structuring our force to be more agile and responsive even as 
we accept some risk with the smaller force.
    While still maintaining quality, we will divest nearly 230 
fighter, mobility, and ISR aircraft in fiscal 2013 toward a 
total of 286 aircraft retirements over the program period. We 
project that these targeted divestitures will save some $8.7 
billion.
    And when applied to our modernization strategy, as 
Secretary Donley discussed, as well as to all important 
operations and maintenance sustainment accounts, our guiding 
principles in these careful and responsible reductions were to 
favor multirole systems over those with more niche capabilities 
so that we could maximize versatility; and to retire entire 
aircraft types where possible, that we could potentially 
eliminate the entire support infrastructure, thereby, achieving 
greater efficiency.
    But where retirement of entire fleets was not feasible, we 
evaluated options for eliminating aircraft that were the least 
capable or the most expensive to operate.
    For the assets that we will retain--that is 54 combat-coded 
fighter squadrons, 275 airlifters, 453 tankers, and a robust 
mix of remotely piloted, U-2, E-3 [Sentry airborne warning and 
control system (AWACS) aircraft], EA, and other ISR systems--we 
are emphasizing common configurations for fewer support-and-
sustainment requirements. And therefore, we would be positioned 
to achieve greater efficiency in delivering the core 
capabilities I addressed earlier.
    The defense strategic guidance articulates our plan to 
execute a $487 billion defense-spending reduction over 10 
years. And although we have no illusion--no illusion at all--
about the road ahead being easy, we have confidence in our 
ability to manage this tight fiscal circumstance.
    I must echo, however, Secretary Donley's concern that 
across-the-board cuts driven by sequestration would 
dramatically change the complexion of our thoroughly 
deliberated defense strategy.
    We would effectively be sent back to the drawing board 
because indiscriminate salami-slicing of the budget would 
nullify the carefully considered and responsible reductions 
that preserve our readiness, our effectiveness; notwithstanding 
the fiscal constraints in a smaller force.
    The comprehensive nature of our fiscal year 2013 budget 
request includes a holistic interstate approach to Air National 
Guard and Air Force Reserve force structure. From both an 
operational-effectiveness and fiscal-responsibility 
perspective, we prefer this strategy over a more piecemeal 
State-by-State approach.
    Our proposed efforts will correct several manpower 
disconnects, rebalance forces, and improve sortie generation 
and aircraft utilization rates, thereby improving the total 
forces' readiness and responsiveness across the spectrum of 
operation.
    It allows us to better resource our high-priority 
requirements such as ISR; distributed and mission training; and 
domestic and homeland defense operations.
    On our manpower side, our program total-force realignment 
on the order of 10,000 Active Guard and Reserve airmen will 
bring the total force end strength down to 501,000 by the end 
of fiscal year 2013. And we hold no illusions that these 
personnel reductions affecting all 54 States and U.S. 
territories will be easy. Taken comprehensively, however, this 
recalibration will robust nearly 40 units across the Air 
National Guard and, thus, enhance overall total force 
readiness.
    Clearly, the Air Force's vitality and effectiveness is 
dependent on the strength of the total force, and therefore the 
leadership of both the Active and the Reserve Components work 
closely together in all deliberations and decisions affecting 
the total force.
    Understandably, we did not always achieve to total 
unanimity, but we most certainly were unified and we remain 
unified in the common goal of ensuring total force vitality and 
viability. And together we remain committed to fulfilling the 
requirements of the defense strategic guidance as one Air 
Force.
    Mr. Chairman and committee Members, the Air Force remains 
committed to the providing of global vigilance, reach, and 
power for Americans' needs today, and for her aspirations and 
challenges that we know the Nation will face tomorrow.
    Every single day, our airmen, Active Guard, and Reserve 
proudly serve on behalf of the American people as trusted 
stewards of the Nation's resources and stalwart defenders of 
her security.
    Finally, please allow me to make one comment concerning 
military compensation. I appeal to the committee to carefully 
consider those initiatives in our budget proposal that begin to 
tackle the escalating personnel costs of compensation, health 
care, and retirement. Among all the other challenges facing us, 
the reality of fewer members of the Armed Forces--costing 
increasingly more to recruit, train, and retain for promising 
careers--is the monumental defense issue of our time.
    Our inability to address this issue properly will place 
other areas of the budget, including force structure and 
modernization, under yet more pressure, forcing out needed 
military capability at the time when we are already right-sized 
for the likely missions ahead.
    Thank you again, sir, for your continued support of the 
United States Air Force and for the committee's support of our 
airmen and their families. We look forward to your questions, 
Mr. Chairman.
    [The joint prepared statement of General Schwartz and 
Secretary Donley can be found in the Appendix on page 60.]
    The Chairman. Thank you very much.
    General Schwartz, in this budget, the Air Force made the 
choice to cut older platforms in favor of newer modernized 
platforms. For example, you sustained the F-35 and the old and 
retired older F-16s and A-10s. Similarly, you retire all the C-
5As and the C-130Hs.
    While I would prefer we didn't retire so much force 
structure, I understand that given the choice between old and 
new, the Air Force went for the most modernized advanced 
program. One of two notable exceptions is the decision to cut 
the Global Hawk Block 30 and extend the use of U-2s.
    Please explain why, in this case, the Air Force chose to 
retain a plane that was flown by the grandparents of today's U-
2 pilots, especially given that 8 months ago, the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
certified to Congress that the continuation of the Global Hawk 
program was essential to national security; and that there are 
no alternatives to provide acceptable capability at less cost.
    At that time, we were told that the U-2 aircraft cost $220 
million per year more than the Global Hawk Block 30 to operate. 
Isn't this a short-sighted decision that favors near-term 
savings over long-term capability and cost?
    General Schwartz. Mr. Chairman, the Block 30 decision was 
made on two bases--one, that the Joint Requirements Oversight 
Council reduced the demand signal for high-altitude 
surveillance. I can't go in the explicit detail here. I would 
be happy to do so in another manner. That was one factor.
    The second factor was a realization that the operating cost 
of the two systems was, at best, to push; in the neighborhood 
of $32,000 per flying hour--U-2 versus Global Hawk Block 30.
    The third factor was the realization that the sensor 
capability on the U-2--particularly for EO [electro-optical], 
IR [infrared] and, to some degree, also on the signal side--was 
better, and required improvements in the Global Hawk system 
that were yet not funded.
    And I acknowledge the Nunn-McCurdy certification which 
occurred last year, but I would only remind that that occurred 
prior to the Budget Control Act and its implications in terms 
of resources for our Air Force.
    So, our choice was--it is true the U-2 has been flying a 
long time, the U-2 is not the senior plane that our 
grandfathers flew. It has been improved and modified and 
continues to be modified as we speak. And it was our judgment 
that--given the demand signal, the sensor capability, and the 
relative modest, if any, cost differential--that sustaining the 
U-2 was a better bet.
    I would conclude by saying, sir, that we are not giving up 
on Global Hawk by any means. Block 20 will continue to perform 
the communications mission. Block 40 will continue to perform 
the ground moving-target-indicator mission. And that is, under 
these circumstances, the best package we could offer our joint 
teammates.
    The Chairman. Thank you.
    Also, General Schwartz, you talked a little bit at the 
conclusion of the--for the compensation to the Force--I have 
one other question on that.
    The Department's proposal to increase the TRICARE prime 
enrollment fee is a tiered approach based on an individual's 
retired pay. The health-care benefit for retired Federal 
employees is not based on an individual's retirement pay.
    So in essence, the President would pay the same for Federal 
retirement health care as the lowest level Federal employee. 
Why, then, should the military retirement health care benefits 
be means tested?
    General Schwartz. It was a recognition, Mr. Chairman, that 
there were those among our alumni who were less able to 
accommodate the increases in the fees than others. And so, this 
simply was, in my view--was a recognition of reality in that 
enlisted retirees were certainly not as capable of absorbing 
these costs as retired flag officers. And it was simply done on 
that basis in an attempt to be as fair as possible.
    The Chairman. So you probably did the right thing, and the 
rest of the Federal employees should probably follow suit?
    General Schwartz. Sir, I am not in the position to----
    The Chairman. I understand.
    General Schwartz [continuing]. To make policy here.
    But I can tell you that I am comfortable with what we 
decided to do.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Ask about the F-35--it is still a little bit uncertain 
exactly where that program is going exactly. Over the course of 
the next 4 or 5 years, what are you counting on from the F-35? 
How many planes? What is the cost point that is going to become 
problematic? And how confident are you that those planes can be 
delivered at this point on whatever the current schedule is? 
And I say that, because, as you know, every year it seems like 
we have to readjust that schedule based on delays; increases in 
cost.
    As of right now, what are you counting on in terms of the 
number of planes? What are the cost points? And then how 
confident are you that this schedule is actually going to hold 
up?
    Secretary Donley. Mr. Smith, we are currently working 
through the concurrency in the program that I think the 
committee is aware of, where the development program is not yet 
complete. And we have started production and we are weighing 
carefully, year to year, the progress of the program to make 
sure that we do not ramp up production too quickly, and that we 
worked out all the kinks in the program. And there is a list of 
issues that the Joint Program Office and the Air Force and the 
Navy are watching and managing together, going forward.
    We have worked hard with Lockheed Martin to reach 
conclusion on the low-rate initial production of LRIP-4 
contracts last year. We are in negotiations with them now on 
Lot 5, and we think that work needs to continue and to come to 
closure soon.
    Mr. Smith. And it is interesting. As you talked about, you 
know, we don't want to produce them until they are actually 
ready, but we kind of are, as we have gone through a series of 
lots.
    But within those productions lots, we are still not at the 
point where we are like, ``Okay, it is good. We are building a 
plane that we know is going to be ready to go.'' We are still 
saying, ``Okay, we are working out concurrency. We are working 
out these different things.'' And it is not at all clear at 
this point when that is going to be worked out. We are hoping 
at certain points that it will be worked out, but it is not 
locked in by any stretched imagination. Is that correct?
    Secretary Donley. It is becoming more locked in. The Joint 
Program Office----
    Mr. Smith. Right.
    Secretary Donley [continuing]. Just completed a baseline 
review really capturing the last 2 years----
    Mr. Smith. Not to be overly philosophical, but you are 
locked in or you are not. There is no such thing as more locked 
in. So, we are still----
    Secretary Donley. The Joint Program just finished preparing 
a new program baseline based on the changes over the last 2 
years; the cumulative adjustments to set the way forward for 
the program.
    So Admiral Venlet, I think, has a good handle on how to 
push the program forward. The program of record for us has not 
changed. It is 1,763 of the A-models for the United States Air 
Force. That is obviously taking a little bit longer than we 
would like, so production is being pushed out a bit. But we 
remain fully committed to this aircraft going forward.
    Mr. Smith. And what is the per-unit cost estimate at this 
point?
    Secretary Donley. This is still to be negotiated. The early 
lots tend to cost more than the others. So let me give to you 
some numbers for the record which reflect----
    Mr. Smith. Okay.
    [The information referred to can be found in the Appendix 
on page 95.]
    Secretary Donley [continuing]. Sort of where we are today.
    But we have ongoing negotiations with Lockheed on this. And 
I will say that the Joint Program Office and the Air Force and 
the Navy are working together to get the best deal for the 
taxpayer; to push this program forward, but at an affordable 
cost that represents continuing progress down the price curve, 
as we should expect in this program.
    Mr. Smith. Okay. Thank you.
    And just one quick question on the Guard and Reserve--there 
are concerns and been expressed by a number of adjutant 
generals about--I guess it is 5,100 Guard airmen that are being 
cut, and then a fair number of planes are being cut from the 
Reserve and Guard components. They are concerned about the 
impact of that. What is your response as to why you made the 
decisions that you made?
    Secretary Donley. Sir, a few points here.
    First, the adjustments in the aircraft were driven by the 
changes in strategy that we referred to in our opening 
statements. So the Department's assessment was that the Air 
Force could take additional risk in fighter force structure. We 
just went through some significant changes in fighter force 
structure a couple of years ago, where most of those reductions 
took place in the F-16 fleet and in the F-15C fleet; so we just 
went through some significant adjustments there.
    As we look at the strategy changes and the sizing of the 
fighter force going forward, it was determined that we could 
take additional risk in the A-10 fleet. We will still have in 
excess of 300 A-10s in our inventory. But going forward, it 
looked like we could take additional risk in that area.
    On the C-130 side--on the mobility, for example--the prior 
Mobility Capability Requirement Study, MCRS--before we even got 
in to the strategic review--had told us that we had excess 
tactical-lift capabilities in excess to requirements. So we 
felt like we could take additional risk in the size of the C-
130 fleet going forward.
    So, again, these are the force structure adjustments and 
strategic adjustments that started the force structure changes.
    Then, the issue was how to mix the Active Duty and the 
Guard capabilities most effectively to meet the requirements of 
the strategy, but also provide for surge and provide for 
rotational capabilities at the same time--make sure the Force 
is robust.
    So this is why, while we are getting smaller, we are 
focused on making sure that the Active Guard and Reserve are 
more integrated going forward. And I would defer to the chief 
for some additional comments.
    General Schwartz. I would only make one additional comment 
in that it is important from a force-management point of view 
to understand what the likely tempo is of the respective 
forces.
    For the Active, the goal was set at not less than one to 
two--that is a deploy-to-dwell ratio of 6 months deployed, for 
example, 1 year home; and a tempo of not less than 1 to 4, 
ideally 1 to 5, for the National Guard and Reserve components.
    And the reason for that is so that we do not overuse any of 
the components, with the downside of forcing folks either to 
leave the Active Duty; or because of the multiple demands on 
the Guard and Reserve, including their employment in the 
private sector, to leave the Guard and Reserve.
    So this was fundamentally in a smaller Air Force, 
recognizing the activity level that is anticipated to have the 
right mix that allowed us to manage the tempo at levels which 
were sustainable for the future.
    Mr. Smith. Thank you very much. Appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you both very much for your service.
    General Schwartz, in February of 2008, the Air Force 
certified to Congress in a letter--and I want to quote from 
that letter, sir--``Time-sensitive mission-critical resupply is 
crucial to our success as war fighters. We also believe there 
are mission steps that may support additional procurement of 
the C-27, such as building international partnerships around 
the common airframe; National Guard support of Federal 
Emergency Management Agency regions; delivery of Special 
Operations Forces teams, and others small unit maneuvers; more 
efficient movement of small payloads in theater; taking convoys 
off the road; precision air-drop of bundles and joint precision 
air-drop systems operations; and recapitalization of 
operational support aircraft inventories.''
    This is the direct quote from that letter of February of 
2008. Fifteen months later, you were in front of this 
committee--and let me quote from your testimony there--``Our 
programs reflect their commitment to pursuing joint 
multimission solutions such as the procurement of eight C-27Js 
in the fiscal year 2010.''
    These appear to be in direct conflict to your written 
testimony, where you say that the Air Force is divesting the C-
27 aircraft in favor of the multirole C-130 because you 
consider the C-27J a niche capability.
    Again, this seems to be in direct contrast to these two 
previous quotes. Why, sir, do you believe 3 years later that 
this C-27J is no longer a multimission capable aircraft? Has 
there been any formal Air Force testing or analysis conducted 
that proves the C-27 is no longer a multimission aircraft?
    General Schwartz. It is a multimission aircraft. We don't 
dispute that, Congressman Bartlett.
    But what I would say--the significant thing that has 
changed since both 2008 to 2010 testimony is $487 billion. I 
mean that is a factor in our approach to how to address the 
force structure.
    When we looked at the C-27, sir, as attractive at was, 
there was a personal commitment from me to George Casey in the 
2010 timeframe to perform that mission for the Army.
    We looked at a couple things--life-cycle costs, for 
example. The C-27 life-cycle cost over 25 years is $308 million 
an aircraft. For the C-130J, it is $213 million per aircraft. 
For the C-130H, it is $185 million per aircraft. So there was a 
cost differential; sometimes it is worth it. But in this fiscal 
environment it certainly caught our attention.
    Additionally, we had demonstrated our capacity, both in 
Iraq and Afghanistan, to provide the time-critical support 
mission for the maneuver units with the C-130 platform.
    Mr. Bartlett. Excuse me, I am led to understand that 
because we do not have enough C-27Js that we are--and I am 
quoting your people--``flying the blades off the 47 [CH-47 
Chinook heavy-lift helicopter],'' and using the 130, which is 
more expensive and cannot be used on short air strips.
    The C-27 procurement costs us less than the C-130. It has 
only two engines as compared to four. It is one-half the size 
of a 130. The hourly cost is $3,000 less than the 130 and 
$5,000 less per hour than the helicopter.
    The parts and avionics of the C-27 are 35 percent to 40 
percent in common with the C-130. They should be. The engines 
are identical, as I understand. Yet, the Air Force claims that 
the C-27 is more expensive to own and operate than the C-130.
    Given these facts, can you please explain to me how the Air 
Force determined that operating a C-27 is more expensive than 
the 130 and the 47?
    General Schwartz. I didn't talk about the 47. I did talk 
about the 130. And it has to do with the basing arrangement; it 
has to do with the contract logistic support, rather than 
organic sustainment. There are a number of factors that affect 
life-cycle costs, sir, but I would just--allow me to make this 
point--that there is not a single airfield in Afghanistan today 
that the C-27 is using that the C-130 cannot. That is a reality 
on the ground today.
    Mr. Bartlett. My time has expired. I thank you very much.
    General Schwartz. Yes, sir.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thanks Mr. Chairman.
    Several questions--I didn't note it in your testimony--in 
the past couple of years we have had discussions here with you 
all about electronic warfare; and, in particular, some of that 
platforms we have for use for the Air Force's electronic 
warfare capability, including the information operations like 
Compass Call and so on.
    But I didn't note anything in your testimony specific to EW 
[electronic warfare], and I was wondering if you could 
enlighten us to the investment the Air Force has been able to 
make despite the budget constraints you are under.
    General Schwartz. Certainly the Compass Call--we will 
sustain the Compass Call mission and continue to expand its 
repertoire with the onboard equipment and so on and so forth.
    We are equipping some of the remotely piloted aircraft with 
EW capabilities as well, and we are--in the intelligence, 
surveillance, and reconnaissance area, this is mapping 
adversary signals and so on and so forth; there is certainly a 
concerted effort in that domain.
    So the other area which is not as obvious is part of our--
for example, our service-life extension proposal on the F-16 
introduces an electronically scanned array radar, an AESA 
[active electronically scanned array]. That in itself is an EW 
capability, both offensively and defensively. So there are 
traditional investments in the traditional platforms, but there 
are also efforts under way in less visible ways like the AESA 
radars, which will magnify our EW confidence.
    Mr. Larsen. Mr. Secretary, is that good enough? Yes, okay.
    With regards to anything you are doing on EW jointly with 
either Navy or Army or Marine Corps--can you discuss that?
    General Schwartz. Sure. And this is something, sir, that is 
a part of the air-sea battle collaboration between the Navy and 
the Air Force. There are electronic-warfare potential 
capabilities out there that concern us greatly. And we are 
collaborating with the Navy in order to introduce 
countermeasures; to introduce resilience into our respective 
systems to make sure, for example, that our data links are 
robust enough so that we can assist one another--mutually 
support one another--when, say, one aircraft is being jammed, 
but we can link with another aircraft of the other service to 
still engage a target.
    These are the kinds of things that I think hold great 
promise for us in making better use of the assets we possess.
    Mr. Larsen. And as this is the budget-posture hearing, then 
are these activities reflected in the budget?
    General Schwartz. They certainly are, and they will be more 
visible over time.
    Mr. Larsen. Sure. And I gather from your answer there may 
be room for a bigger discussion in a different setting as well?
    General Schwartz. I would be happy to do that, sir.
    Mr. Larsen. Okay, good.
    In your testimony, with regards to the nuclear deterrent--
sorry, page 20 or so--yes, nuclear-deterrence operations--can 
you talk a little bit about the Air Force's investment in the 
two legs of the triad that you have is--obviously, I am on the 
Strategic Forces Subcommittee--several of us are, certainly, 
and we will probably look into this further. But if you could 
give us an introduction of what we might be looking into on the 
subcommittee?
    Secretary Donley. Sure. Sure.
    Just quickly, an overview--nuclear-deterrent operations 
make up about 6 percent of our overall Air Force budget. We 
made no major force structure adjustments in this area, pending 
presidential decisions on how to structure the nuclear triad 
going forward. Broadly speaking, there are funds in the budget 
to support the beginning of START [Strategic Arms Reduction 
Treaty] implementation.
    In the START regime and in the current force structure, we 
have what are referred to as phantom capabilities that count 
against us but, are purely not operational. I refer here to 
Peacekeeper [LGM-118A missile] silos, which are still in 
existence but have not been dismantled, but have no missiles in 
them; and bombers that have been retired for several years and 
are no longer capable but still count in the totals. So we are 
making the investments to start dismantling the phantom 
capabilities that are present in the force structure. And we 
are working on other measures that would lead in to the START 
implantation work ahead of us.
    The existing decisions, as they stand are that we would 
plan on no more than 420 ICBMs [intercontinental ballistic 
missiles] and up to 420 ICBMs, up to 60 nuclear-capable 
bombers. So these are decisions that the President has in front 
of him about how to shape the nuclear posture going forward. 
And we will wait for those decisions before taking next steps.
    Just two additional points quickly----
    Mr. Larsen. Sure.
    Secretary Donley. Our immediate goal for the ICBM force is 
to get the Minuteman [LGM-30 ICBM] to 2030, and so we have the 
resources in there to support that. And I would remind the 
committee that the long-range strike bomber, while it is 
intended to be nuclear-capable, is a factor in considering the 
nuclear-deterrent force structure. But we are building this 
bomber for conventional operations over 20 or 30 years. Where 
our bomber capabilities have been used is on the conventional 
side.
    Mr. Larsen. Yes good. Thank you.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you both for being here.
    Mr. Conaway and I both share a concern about a particular 
issue and I will yield to him to ask you about that.
    Mr. Conaway. Well thanks for your time, Mr. Thornberry. In 
the force-restructure plan, you are moving C-130s from Dallas/
Fort Worth to Montana; you are moving F-15s from Montana to 
California; and then you are moving something called the MC-12 
[Liberty ISR turboprop aircraft] I guess a twin-engine ISR 
platform to Fort Worth.
    Moving aircraft is very simple. But these are Guard assets 
and the Guard complement that they currently fly--the C-130s--
maintain them, evaluate them and train the pilots, all that 
kind of stuff--they are not moving to Montana.
    And I suspect that the F-16 protection team in Montana is 
not going to move to California. You got MIL-CON [military 
construction] considerations in all these places. Given the 
overall cuts of the budget, can you walk us through the 
business plan for why this makes sense?
    Because, while it may seem parochial because Mike and I are 
from Texas, it is not; I have going to answer questions back 
home to folks who are looking at tough decisions. And moving 
things for the sake of moving thing doesn't make a lot of sense 
at this stage.
    General Schwartz. Sir, it goes something like this--that F-
15s are a air-sovereignty mission in the Air National Guard. 
And they are better utilized on the West Coast than they are in 
the north central part of the United States. That is why the F-
15s are moving to Fresno, because that is an established air-
sovereignty location for North America----
    Mr. Conaway. And how long have the F-15s been in Montana 
that we are making the exchange for? I mean this is a new air-
sovereignty issue for the F-15s?
    General Schwartz. Remember we are taking out 200 fighter 
aircraft in the Fiscal 2013 program and so----
    Mr. Conaway. Let us focus on the C-130s because----
    General Schwartz. Okay.
    Mr. Conaway [continuing]. As I understand it, they are the 
only C-130s available to Governors on the Gulf Coast that are 
Governor-to-Governor as opposed to going to the Pentagon to get 
those. Can you walk us through why we are moving C-130s to 
Montana?
    General Schwartz. I think that the fundamental reason is 
because there are other multitudes of other C-130s in the 
region that you are well aware of, regardless of their 
component affiliation. And there was a requirement--there has 
been a need for lift in the central northwestern part of the 
States--FEMA [Federal Emergency Management Agency] Region 10, 
specifically.
    The logic here was to try to position lift capabilities--
again, total force lift capabilities--in a way that that could 
posture for potential natural disasters and the like.
    Mr. Conaway. And those considerations overweigh the 
financial circumstances--the millions of dollars in training, 
the pilots that current fly for commercial carriers in Dallas, 
Fort Worth, who fly the C-130s, you got----
    General Schwartz. And they will fly MC-12s which is an 
enduring mission for our Air Force, as far as the eye can see, 
sir.
    Mr. Conaway. But I am more interested in what the C-130s do 
for our National Guard and their ability to respond to fires in 
Texas and hurricanes throughout the region. It is a 2.5-hour 
flight from Montana to Texas and a 2.5-hour back flight.
    General Schwartz. And Abilene has 28 C-130s.
    Mr. Conaway. But those belong to you, and they are not 
controlled by the National Guard. And I got to believe, unless 
you can show differently, that a Governor-to-Governor response 
time is quicker than a Governor-to-Pentagon-and-back-to-the-
Governor--whatever.
    General Schwartz. And the Governor of Arkansas and the 
Governor of Mississippi, I am sure, will happily support the 
needs of the Governor of Texas, sir.
    Mr. Conaway. You have got C-130s that belong to the Guard 
in Arkansas, and where else did you say?
    General Schwartz. Mississippi.
    Mr. Conaway. Mississippi.
    All right; well, I stand corrected, as I was told that 
these are the only ones available in the Gulf Coast.
    It is troubling. And again it looks like it is parochial, 
but it is not, and----
    General Schwartz. No, I take your point, sir.
    Mr. Conaway. All right.
    And I do yield back.
    Thank you.
    Mr. Thornberry. General, let me ask you briefly one other 
thing--you all delayed the follow-on to the T-38 [Talon twin-
engine supersonic jet trainer] trainer a year. There are some 
questions to how serious you are about bringing that trainer 
on. It is not just us. It is our European allies who jointly 
train. How big a deal is that for you all?
    General Schwartz. There is just no space, sir.
    Mr. Thornberry. But next year?
    General Schwartz. I can't promise you. I mean this is an 
issue of resources. And, you know, we need a new trainer. As 
you are well aware, the T-38 is older than I am, almost. And we 
need a new trainer. But the bottom line is that we simply did 
not have space to pursue that in the current budget 
environment.
    Mr. Thornberry. Thank you.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to 
both witnesses.
    General, just to go back to the C-27 issue, the--it is my 
understanding that the decision to end this program is not 
simply to truncate it, but to actually take these brand-new 
planes and send them to ``the boneyard''--I think was the term 
that was used in the description of the budget earlier.
    These are planes that are bought and paid for. Can you 
explain how that is a good business plan? Because, frankly, it 
feels like a ``60 Minutes'' moment in terms of the taxpayer. 
And again, first of all, is that correct? And number two, just 
explain how that works.
    General Schwartz. There are multiple options which haven't 
played out. Yes, they certainly could go into what we call 
flyable storage. It happened out in Arizona.
    They could also become foreign military sales vehicles to 
other air forces. And there are other air forces interested in 
the platforms. So I mean there are a couple of options which, 
again, haven't played out. And certainly that would happen in 
the next number of months.
    Mr. Courtney. Well, again, I think for some of us that is 
an issue we kind of need to understand a little better. I mean 
it is my understanding the producer is not too thrilled about 
the idea of us turning around and sort of flipping the planes 
for resale. And, frankly that is pretty understandable.
    Secretary Donley. Maybe. But I mean we have a mandate from 
you to----
    Mr. Courtney. Understood.
    Secretary Donley [continuing]. Get smaller; and we are.
    Mr. Courtney. Again, but so when the F-22 production line 
came to an end, I mean we truncated the program. And that, 
frankly, for some of us it was a bitter pill; but nonetheless--
I mean those planes are still being used. And that is sort of a 
thing that I think we are struggling to understand is why 
perfectly brand-new planes are not being sort of at least used.
    And again, I am sure that is something that the budget 
folks can walk us through.
    For Guard and Reserves who have been given sort of an 
alternative for the--is it the 12-MC--or the MC-12 rather, 
excuse me--Mr. Secretary, you indicated that the adjustments to 
Guard and Reserves aircraft is being driven by strategy.
    Again, those planes are, in my understanding--are used for 
intelligence and reconnaissance given the fact that, you know, 
the strategy horizon is that we are sort of going to be leaving 
Afghanistan sometime in the future.
    I am just trying to visualize, for Guard units who are 
being told, ``This is your new assignment''--what is the 
strategy that will make that a firm commitment? I mean this has 
been an issue. I don't have to tell you that, you know, Guard 
units are kind of feeling like, you know, their head is 
spinning in terms of trying to keep up with what their mission 
is.
    Secretary Donley. This is a fair point. And we struggle as 
well with rapid changes in force structure; the rapid changes 
in the fiscal environment that have caused us to have to take 
decisions, revisit decisions and continue to adjust.
    This is a challenging part of the environment in which we 
live. I would say when the MC-12 came into the inventory, we 
gave serious consideration to putting it in the Guard and 
Reserve from the beginning. It does have a counterdrug kind of 
capability that is well beyond the existing capabilities of the 
RC-26 [Metroliner twin turboprop aircraft], which has been used 
in that capacity across the southern tier of the U.S. to 
support Guard and counterdrug activities. So it does represent 
an increase in those capabilities.
    But when we brought the MC-12 into the Force, the Guard did 
not have the manpower to support and to generate quickly the 
required capability to operate that down range.
    You should be aware--I think already are--the MC-12s are 
not in the United States. They went straight from the factory 
into the theater, and that is where they are operating today. 
But as we look forward, we think this is a more sustainable 
mission for the Guard as the op tempo adjusts a little bit. And 
I believe that the Air National Guard looked at the locations 
of the MC-12 along the southern tier mainly as a good fit.
    Mr. Courtney. Well, again, certainly we want to work with 
you in terms of trying to, you know, find missions. It is 
critical, obviously, to keep that capability which you talked 
about earlier. But obviously there is going to be questions and 
look forward to working with you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    And Mr. Secretary and General--thank you for your service 
to our country. I only have 5 minutes so I have got to be kind 
of concise and I just want to say at the outset that I am going 
to ask you to forgive me for not swimming in the same sea of 
accolades that some of my colleagues are comfortable in doing.
    But when I first came into office, the way we would have 
these hearings--we would spend a lot of time bragging about 
you; you would spend a lot of time bragging about us. And we 
never really asked the tough questions necessary to defend this 
country. And I vowed never to do that again.
    Mr. Secretary, you said that your decisions are strategy-
driven.
    And, General, you have said that--it is in your written 
statement--that the strategy was driven by security changes. 
You don't mention in there that it was also driven by $427 
billion of cuts. So I want to focus on those security changes.
    When I first came into office, I had this report that the 
RAND Corporation did that said if we were involved in a 
conflict between China and Taiwan, the United States Air Force 
would easily defeat the Chinese in that particular situation.
    Since you have been in the position that you are in, you 
have canceled the F-22. You have retired 235 F-15s and F-16 
fighters. You are now proposing retiring another 123 combat 
aircraft. You put all our eggs in the F-35 platform, which I 
think everybody acknowledges is smaller, slower; less lethal 
than the F-22.
    And now I see a new study that has come out by the RAND 
Corporation that takes a totally different tack. It says that 
we would lose in that conflict between China and Taiwan.
    Now, I don't have time in the 5 minutes I have to get into 
the specifics of those studies. But my question for you is: Do 
you have any other studies that you can present to this 
committee that we can review, that would refute the conclusion 
that the RAND Corporation had in this study?
    General Schwartz. Congressman, I would have to take a look 
at that study. I will certainly----
    Mr. Forbes. You have not seen the study by RAND 
Corporation?
    General Schwartz. I am not sure. I can't see it from this 
distance. I certainly will----
    Mr. Forbes. Are you familiar with any study that RAND 
Corporation did, as big as this one was, that said that we 
would lose in that conflict?
    General Schwartz. Congressman, I don't know what the 
assumptions are in that study. I don't know what the premises 
were. You need to allow me to exercise that professional 
judgment.
    Mr. Forbes. And I will, General. I just want you say for 
the record today that you are not aware of this RAND study and 
you haven't reviewed the study. Is that correct?
    General Schwartz. What I am saying is I have not seen 
that--what is the title of the study, Congressman?
    Mr. Forbes. ``Question of Balance, Political Context and 
Military Aspects of the China and Taiwan Dispute'' by the RAND 
Corporation.
    General Schwartz. I have not seen that study.
    Mr. Forbes. Okay. It is a big one.
    I would suggest the Air Force look at it. Second thing I 
would say is if that conclusion in that study was correct, 
would that be an acceptable risk for the Air Force to have?
    I am not saying it is. I am saying if it would be?
    General Schwartz. If the conclusion is correct, I would say 
that would be, decidedly, a concern for all of the entire Armed 
Forces.
    Mr. Forbes. Let me come back to the F-22 decision that you 
made.
    When you did that, you and the Secretary wrote this at op-
ed piece saying that we should have 183 F-22s. Prior to that 
decision, according to the Congressional Research Service, not 
me, there were 30 air-campaign studies that said you were 
wrong.
    Did you review a single study that said that you were 
correct, and that we should reduce the F-22s down to only 183? 
And the reason I say it--because right when you did it, the 
commander of the Air Combat Command said that there were no 
such studies out there at all. Did you review any of those? And 
can you just present them to the committee for us to review?
    General Schwartz. I would be happy to do that.
    Mr. Forbes. Were there any----
    General Schwartz. There was. And the Department and 
Congress chose otherwise in the end.
    Mr. Forbes. So General Corley was incorrect when he said 
there were no studies out there that justified that?
    General Schwartz. The study that I refer to talked about 
more than 187 aircraft.
    Mr. Forbes. If you would, present that to us.
    Can you tell us now, General, what is the current strike-
fighter shortfall that the United States Air Force has?
    General Schwartz. Given the new strategy, we have 
sufficient aircraft to deal with the threats that are outlined 
in the force-sizing construct at moderate risk.
    Mr. Forbes. And, General, was that strategy, according to 
your testimony today, driven completely by security changes or 
was it driven by the 427----
    General Schwartz. Of course it was driven by both, but----
    Mr. Forbes. And----
    General Schwartz. The recognition was that we were out of 
Iraq, that we were going to diminish our presence in 
Afghanistan----
    Mr. Forbes. General, my time is running out.
    Can you tell us if you can distinguish between the part of 
the strategy that was driven by the cuts, and the part by the 
security changes?
    General Schwartz. Clearly, it is a combination of both. But 
I would submit to you, sir, that the F-35, the long-range 
strike bomber, and the new tanker--those programs are sustained 
by the new strategy and not diminished by it.
    Mr. Forbes. Thank you, General.
    My time is up, Mr. Chairman. Thank you.
    And I yield back the balance of my time.
    The Chairman. Thank you.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    I want to thank both of you for being here today as well. 
Thank you for your service. And, of course, as I have discussed 
with both of you, I remain, I guess, deeply concerned about the 
proposal to retire the Iowa National Guard's 132nd Fighter 
Wing's F-16s, as well as the broader budget decisions affecting 
the Air National Guard. I know this issue is brought up by 
Ranking Member Smith earlier as well.
    Roughly 130 airmen from the 132nd are currently deployed to 
Afghanistan or elsewhere across the globe. They have proven 
time and again that they are one of the most-experienced, best-
performing fighter wings in the Air Force; maintaining a very 
high degree of readiness for some of the lowest personnel, 
maintenance, and flying costs of all F-16 units. As you know, 
in other words, this is a very, very effective unit by any 
measure.
    And while I am still baffled by the proposal to retire the 
132nd F-16s, I am deeply concerned about the budget proposals 
affecting the entire Air National Guard as well, which would 
bear--my understanding is--59 percent of the total aircraft 
cuts, and see most of their personnel reductions occur in 
fiscal year 2013, if I am not mistaken; which provides little 
leeway to reserve course from a strategy that is stated to be 
meant to be irreversible.
    Given that the Air National Guard also plays a critical 
homeland-security role for our States and our country at lower 
basing personnel and life-cycle costs to the taxpayers, I have 
a couple of questions related to these issues.
    In your joint testimony, you state that the right mix of 
Active Duty and Reserve Components must be maintained. And I 
think we can all agree that that is the case. How did you 
determine the appropriate mix, what the appropriate mix would 
be, and what were the factors such as experience and personnel 
and operational cost that were taken into account? Could you be 
specific about the factors and the mix?
    Secretary Donley. I go back to the rationale that we 
provided in the opening statement. And I think we have been 
clear about it. The issue here was where we could take risk in 
the force structure. And the DOD and Air Force decision 
collectively was that we could take additional risk in the 
fighter force structure.
    We have already taken significant reductions in the F-16 
force, but the assessment was we could take an additional 
squadron this time around.
    The unit at Des Moines, while it continues to perform very, 
very well--there is no question about the competency and the 
capability of this unit--the aircraft are a little bit older 
and less capable than some others. And they are not 
participating in the Air Sovereignty Alert mission. This has 
not been a mission that has been assigned or associated with 
Des Moines for the North American Air Defense Command. So those 
were the factors that went into this particular decision.
    The issue on the Active Reserve Component balance, I think 
the chief has been very clear on. This is not just about the 
cost to operate the unit. This is how the unit fits into the 
force structure, and how that force structure not only meets 
the demands of the strategy, but our ability to surge and then 
sustain combat operations going forward. And we have tried to 
strike the right balance.
    Our Air Force is now small enough; small enough that we 
have to go forward as one Air Force together and become more 
integrated going forward. As we get smaller, the requirements 
for readiness and immediate capability go up here. So these 
were the decisions that factored into the Active arc balance.
    And, again, it is not--as you suggested, we understand the 
perception the reductions are disproportionate on the Air 
Guard. Certainly, that is the way the numbers fall in fiscal 
year 2013.
    But this is a multiyear look backwards and forwards in 
terms of how we are going to structure our Air Force going 
forward. And we need the right balance of Active Duty and 
Reserve Components, so we don't break these components----
    Mr. Loebsack. Yes.
    Just one quick historical question--because we mentioned 
certainly we have got to be able to deploy folks fairly 
quickly. Accessibility is an issue. I think it is an issue that 
the Guard--it has been raised as a concern. And I just have one 
question about that. Over the last 10 years, have there been 
any instances where the Air Guard has not been able to fulfill 
request for deployment?
    General Schwartz. There have been no occasions where we did 
not--if we resorted to mobilization--where the guard was not 
available. And there were very few cases when we ride on 
volunteer status of the guardsmen.
    I would just say, sir, that the Guard and the Reserve are 
an essential part of our family. And we respect what they do. 
And in the case of your unit, sir, they are going to go 
transition into a remotely piloted aircraft mission that 
clearly is for the ages.
    Mr. Loebsack. Thank you. Thanks to both of you.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    To both gentlemen--I would like to know--Secretary Panetta 
recently talked about the call for maybe two more rounds of 
BRAC [base closure and realignment]. I would like to go back to 
our last round of BRAC, if I might--and just ask: Do each of 
you think that BRAC of 2005--the recommendations in that 
document--carry the force of law?
    Secretary Donley. Yes.
    Mr. Miller. And I think it was section 2703 of the 2012 
NDAA [National Defense Authorization Act] requires that you 
complete all the closures and realignments recommended by the 
2005 BRAC Commission as expeditiously as possible. So you are 
finished now with all of the BRAC recommendations and 
requirements?
    Secretary Donley. Sir, we believe we have complied with the 
law at Eglin.
    Mr. Miller. So a comment by General Hoffman last week at 
the AFA [Air Force Association] Convention that, ``BRAC 2005 
has expired, it is irrelevant,'' and that, ``people just need 
to get over it,'' is a correct statement?
    General Schwartz. Congressman, I was there. That is not 
what he said.
    Mr. Miller. What did he say, General?
    General Schwartz. Congressman Miller, what he said was that 
BRAC 2005 was complete, and that what we propose now with 
respect specifically to the Air Armament Center and the mission 
at Eglin is something to address today, in today's context, and 
not relative to something which, in our view, is a completed 
project.
    Mr. Miller. So the Recommendation 185 to create an 
integrated weapons-and-armament, research development and 
acquisition, test-and-evaluation center at Eglin has been done?
    General Schwartz. I would argue that it has, sir.
    Mr. Miller. Not co-location--integration at Eglin?
    General Schwartz. I would argue that it has.
    Mr. Miller. How does disestablishing the Air Armament 
Center support your compliance with the BRAC law?
    General Schwartz. We are not disestablishing the Air 
Armament Center, sir. Nothing is migrating from Eglin with 
respect to the proposal for AFMC [Air Force Materiel Command] 
reorganization--nothing. The one major change that is involved 
is collapsing the two wings which exist at Eglin into one, 
which is fundamentally an efficiency move.
    So the 96th wing and the test wing will become one 
organization. And the overhead that is associated with the two 
will be thinned out. That is the major element of the changes 
that we proposed here.
    I acknowledge forthrightly that we are talking about 
establishing a brigadier rather than a two-star in this 
instance. We have had pressure, as you are aware, to reduce 39 
flag officers in the Air Force--no doubt more in the future.
    But, again, the bottom line is we are not migrating a thing 
away from Eglin. We simply are collapsing overhead.
    Mr. Miller. And it is not your intent in the future to move 
forward with moving things away from Eglin?
    General Schwartz. I would say it is not our intent to do 
that, Congressman Miller. I can't presuppose the future; but 
there is no secret effort, no clandestine effort here, to 
change the chemistry.
    What we had to do was we--the Air Force had a target of 
16,000 civilian spaces to reduce. And so one of the ways that 
we approached that problem was in the Air Force Materiel 
Command reorganization--was to go from 12 direct reports to Don 
Hoffman to 5, and to reduce the overhead throughout the 
command. That overhead involved more than 1,000 civilian 
spaces. This was a mandate we had to accomplish. And this is 
one of the ways we achieved that end.
    Mr. Miller. General, you were sent a letter from the 
Ranking Member Bordallo and Chairman Forbes of the Readiness 
Subcommittee expressing their opinion that changes materially 
impacting BRAC decisions should be made only within the BRAC 
process.
    With that in mind--and I don't believe they received a 
response--do you intend to continue the disestablishment of the 
Air Armament Center?
    General Schwartz. We do not intend to disestablish the Air 
Armament Center. What we are doing is renaming it the Air 
Armament Complex, and it will remain in its current state, sir.
    Mr. Miller. Thank you very much. My time has expired.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Good morning, gentlemen. I commend the diligence with which 
you have prepared your fiscal year 2013 budget, shaped as it 
was by the Defense Department's strategic guidance, and the 
initial round of cuts required by the Budget Control Act; cuts 
which I recognize as necessary.
    However, it is important that we work together to make sure 
that these cuts are made to programs and installations in a 
manner that minimizes risk to our national security and future 
readiness.
    My district borders Hanscom Air Force Base, a facility 
which can uniquely leverage local assets such as the numerous 
defense firms and exceptional universities nearby, including 
MIT's [Massachusetts Institute of Technology] Lincoln Labs, 
which is located onsite to research and develop cutting-edge 
capabilities. It is an ideal site for cybersecurity R&D 
[Research and Development], an area in which the Department 
seeks to increase spending while so many cuts are being made 
elsewhere.
    We have incredible capability and value-added technology 
that we should be growing at Hanscom, because technology is 
even more important in a smaller military, which is what the 
strategic guidance in the budget envisions. However, a February 
21 article in the Boston Globe revealed that internal Air Force 
documents showed that Hanscom was sustained a double hit--a 
loss of 380 Government positions and a 74-percent decrease in 
funding for contract of services over the next 4 years.
    My office, along with Representative Markey and 
Representative Tierney's offices, have jointly requested a 
briefing to learn more about these cuts, and we look forward to 
it.
    But as you are both here, could I ask: Given that greater 
Boston has an extraordinarily skilled workforce--one of the 
best in the world--and that we are in a world that needs less 
boots and planes and more intelligence in cyber, why isn't 
Hanscom growing?
    Secretary Donley. As the chief articulated, Hanscom has 
been--it remains an important center force--the Electronic 
Security Complex there is extremely important. But I would say 
that it has faced the results of the AFMC restructure and the 
requirement for us to take down 16,000 civilian spaces across 
the Air Force, which we have been working through over the last 
year or so.
    And we also recognize that Hanscom has been hit by 
programmatic impacts in areas where programs have been 
restructured or canceled. So we have been working through, with 
General Davis--a broader assessment of the capabilities at 
Hanscom and of the surrounding community; the impact of the 
program reductions that are coming there; to understand how we 
can best fit the workforce with the available work going 
forward, and build a plan for how to take that forward.
    So General Davis has had this mandate from the chief and I 
since he arrived last year.
    Ms. Tsongas. General Schwartz, would you like to add 
anything?
    General Schwartz. And we heard earlier a question regarding 
electronic warfare, command and control, software, enterprise 
resource, planning systems--all these very important kinds of 
capabilities are the expertise that resides within C.R. Davis' 
organization. And that is not going to change.
    But I would just reiterate that we are getting smaller. And 
so those reductions will be reflected at Hanscom, as they are 
at the other locations that have been addressed here.
    Ms. Tsongas. Well, as we wrestle with this, I know the 
Hanscom community wants to work with you. Is there anything 
that it should do in particular to expand its mission; to help 
the Air Force be successful in these challenging times? Is 
there anything you would suggest?
    Secretary Donley. I think the same thing we would require, 
ma'am, from any of our acquisition enterprises--and that is to 
produce on cost, on time, and to have successful programs; not 
ones that are subject to termination or restructure.
    Ms. Tsongas. Thank you.
    And I yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you for your service. But I am very, very 
concerned about the reductions in the personnel of our 
military--other reductions--at the time of war. And I have just 
gotten back from visiting in Pakistan, and how horrible it was. 
There was an attack on a bus station; the next day, an attack 
on a police station. Today I read where a convoy of buses were 
stopped and persons associated with the Taliban took out 
certain persons and assassinated them right there, 16 people.
    This is incredible--an ally so important as ours--a nuclear 
power--and we have just got to be prepared. And I am very, very 
concerned.
    General Schwartz, the Air Force has made headlines recently 
with the involuntary separation of 157 majors, and selective 
early retirement boards selecting 106 colonels for early 
retirement. You have indicated--and I am concerned, too--about 
leading to a hollow force.
    To what extent does the Air Force intend to use the 
Temporary Early Retirement Authority in the 2012 National 
Defense Authorization Act?
    General Schwartz. We will use it very, very selectively; 
very surgically only. This will not be broadly applied at all. 
In fact, we did not anticipate, sir, the use of involuntary 
measures in 2013. We will wrap up the difficult work we have 
done to try to reduce our over-strength through 2012.
    Mr. Wilson. Well, that is reassuring because the 
experienced people we have--it is just crucial of what we are 
facing.
    Mr. Secretary, according to the Washington Free Beacon 
today, the Administration's proposal of defense budget cuts for 
military families and retirees to pay more for the health care, 
while leaving unionized civilian defense workers' benefits 
untouched. Why is there a disparity in treatment between 
civilian and uniformed personnel?
    Secretary Donley. I think, as the chief indicated, when the 
Department looked at the rising personnel costs facing us--and 
in particular the rising cost of health care, we determined 
that we needed to slow that growth, and that the best way to do 
this was to propose increases in premiums for working-age 
retirees.
    And as we looked at options in front of us for how that 
might be done, the sense was that we should scale those 
premiums to match the resources available to our retirees----
    Mr. Wilson. Well----
    Secretary Donley. Our staff sergeants versus retired flag 
officers, for example.
    Mr. Wilson. But why would that only be applied to uniformed 
personnel and not civilian employees?
    Secretary Donley. Yes. We did not address the civilian 
health-care systems that exist across the Federal Government. 
We did not have a mandate to address that. That was not part of 
our discussions or deliberations in the Department. Our focus 
was on the military piece of this.
    Mr. Wilson. That strikes me as tragic for retention and 
recruiting.
    And Mr. Secretary, this has already been brought up about 
the Global Hawk system, but the Deputy Secretary had certified 
earlier, just a couple of months ago, that it was essential to 
national security; additionally, that the Global Hawk is $220 
million cheaper per year to operate than U-2. And now it is 
being terminated--the Block 30. How can we understand that an 
asset critical to national security and costs less than an 
alternative be terminated?
    Secretary Donley. Sir, we got a lot of careful attention in 
the Department, recognizing that we have been in the middle of 
procurement and these are relatively new capabilities being 
fielded.
    When the Department came back to Congress on the Nunn-
McCurdy certification previously on Global Hawk Block 30, the 
question was, ``What would it take to operate any other 
capability at the Global Hawk level of capability?'' That is, 
the U-2 was compared to the Global Hawk capability.
    We understood and we still understand that the Global Hawk 
offers persistence that the U-2 does not have, so--but that was 
the measure in the Nunn-McCurdy--is measuring the U-2 against 
the persistence of the Global Hawk, and the cost variable 
between the two.
    Mr. Wilson. And----
    Secretary Donley. Subsequent to that, the Joint 
Requirements Oversight Council adjusted the requirements for 
high-altitude ISR. And they took a broader look at ISR 
capabilities across the Department, not just one or two 
programs--determined that those requirements could be adjusted.
    After they adjusted those requirements, we then went back 
and looked at the existing fleets and capabilities, and we 
said, ``Can we live with the U-2 capability that we have, 
because the U-2 will be good through 2040, basically?''
    Mr. Wilson. And finally, you referenced ``through 2040''--
could you provide us information on what the cost would be to 
upgrade and support the U-2s through 2025? Thank you.
    Secretary Donley. We can do that, sir. And the main message 
here is----
    The Chairman. The gentleman's time is up.
    Could you do that for the record please?
    Secretary Donley. Sure, we can.
    The Chairman. Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    General Schwartz and Secretary Donley, thank you for your 
service to the country.
    My first question is more of a statement or a request. The 
recent Air Force structure change has announced the closing of 
an Air Reserve station in Pittsburgh, Pennsylvania outside of 
the BRAC process. This base serves 1,400 Active Reserve and 
Guard units of both the Air Force and the Navy. The base just 
completed an $8.1 million housing project and is set to break 
ground on a $13.8 million joint Reserve center.
    Now, to give you some perspective of the efficiencies at 
this base, the Air Force leases 100 acres at this base. It 
includes access to four runways, an FAA [Federal Aviation 
Administration] control tower, medical and crash-fire response 
and zero-cost airfield maintenance, including snow removal and 
capital improvements for $20,000 a year.
    It is also worth pointing out that the Pittsburgh region 
has significant success with recruiting, and that the 911th 
Airlift Wing is one of the highest manned units in the Air 
Force Reserve command. This being said, I can't understand why 
the Air Force would make the decision to close this Air Reserve 
station.
    If this is truly an issue with retiring C-130s, then let us 
bring in new C-130s to this very efficient and very effective 
wing so that this cost-effective base can continue to serve 
both the Air Force and the Pittsburgh community.
    Mr. Secretary General, I would like to see the cost 
analysis of the 911th Airlift Wing compared to others 
throughout the Air Force and the justification for closing this 
base.
    My first question concerns the reduction of 65 C-130 
tactical airlifters, getting us to a total fleet projection of 
318. And I am going to go through some notes here so that you 
know where I am coming from.
    Mobility Airlift Aircraft Program has previously discussed 
the budget request for fiscal year of 2013--plans to divest 
intertheater and intratheater force structure in support of the 
new defense strategy. Air Force officials state that Case 3 of 
the Mobility Capability and Requirement Study 2016, MCRS-16, 
was the analytical underpinning for the new mobility force 
structure associated with the 2012 defense strategy.
    Air Force minimum C-130 force structure has concluded MCRS-
16 was to go no lower than 335 C-130s under the QDR 2010. 
However, MCRS-16 also did not take into account United States 
Code title 32 Air National Guard or Army Guard airlift missions 
that would be required to support State Governor mobilization 
missions.
    MCRS-16 also did not analyze the Army's time-sensitive 
mission-critical mission, and noted that additional C-130s 
beyond the planned program of record of 335 aircraft and 38 C-
27J aircraft may be required. Note, time-sensitive mission-
critical missions noted that additional may be required to 
supplement C-27s to support the mission.
    Part of my concern is that the Army is going down to 
490,000, approximately, members. Pre-9/11, we were at about 
480,000 and we had 530 C-130s.
    Now, General Dempsey, when he was in here, sort of 
referenced that, ``Lessons learned mean we need less.'' But the 
MCRS-16 says otherwise. So can you elaborate on how we are 
going from 530 for 480,000 to 318 for 490,000; and how that 
works--either for the General or for you, Secretary Donley?
    General Schwartz. Congressman, the MCRS put the floor at 
335. Our analysis indicates that 275 is sufficient to support 
the intratheater requirements. And the excess has to do with 
the time-sensitive, mission-critical mission that you referred 
to, for a total of 318.
    It is also important to appreciate the fact that we were 
talking about C-130H models at one point in time, and now we 
are talking about a force that is currently about a third Js 
and, over time, will become more and more dominated by the J 
version, which is a more capable platform.
    There is a mix of analysis. MCRS is one piece of that, 
certainly. Our own that we have--that 318 C-130s is the minimum 
number in order to perform the strategy that we have been 
given, and its inherent force-sizing construct, which no longer 
supports a long-term--I am missing the word--stability--yes, 
sir, a long-term stability operation, which the former QDR 
strategy did include.
    Mr. Critz. Thank you, gentlemen.
    I yield back.
    The Chairman. Your time expired.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General Schwartz, a little over a week ago, there was a 
memo from NORAD [North American Aerospace Defense Command] 
outlining a reduction of two ACA [Aerospace Control Alert]--
formerly ASA [Air Sovereignty Alert]--sites; one in Duluth, 
Minnesota and the other in Langley, Virginia. The justification 
was said to be based on a year-long comprehensive risk analysis 
completed by NORAD in deliberation with the United States Air 
Force.
    There was a GAO [Government Accountability Office] report 
in 2009 that gave specific recommendations for, among other 
things, conducting routine risk assessments of ACA operations. 
However, in a follow-up memo in 2009--a study released just 
last month--the GAO stated, and I am quoting, ``Although NORAD 
has not conducted routine risk assessments, it took steps 
toward implementing our 2009 recommendation by developing a 
computer model to evaluate current ASA basing locations.
    However, we found that the model had certain limitations 
that limit its ability to provide NORAD commanders, DOD 
decision makers, and Congress risk-based information.''
    And additionally, GAO report notes that, ``In 2009, NORAD 
analyzed its ASA basing strategy to identify whether it could 
chance the number and location of ASA sites without affecting 
its ability to defend the homeland from an aviation-related 
attack. However, the analysis did not identify potential cost 
savings that could result from eliminating a given number of 
sites.''
    So General, can you explain what risk assessment and 
potential cost-saving conclusions you are using to justify your 
decision, since the GAO could not identify any? And it would be 
appreciated if you could provide the committee with any copies.
    General Schwartz. Be happy to give you what our part of 
this was. But I think that is a question better directed at 
General Jacoby, who performed that analysis as NORTHCOM 
[Northern Command]-NORAD, and came to the conclusion that--and 
justified this through the program process in the Pentagon--
that we could reduce the alert sites.
    I acted, we acted, the Air Force acted on that basis; that 
there was proposal made by the relevant combatant commander to 
reduce the number of alert sites, and that there are benefits 
associated with that. And we would be happy to provide that to 
you, sir.
    Mr. LoBiondo. Okay. So if I am understanding this right, 
you will attempt to determine if there are studies you can 
provide to us that justify this and give us an analysis?
    General Schwartz. I will certainly ask Chuck Jacoby to make 
available his analysis, on which we acted in good faith.
    Mr. LoBiondo. Mr. Chairman, do we have a mechanism to, in 
an appropriate amount of time, follow up to see if the General 
can comply with our request of the committee?
    Do we have a mechanism to do that? I am a little concerned 
with just the timeline getting stretched out and months and 
months go by, and then somehow we just don't hear anything 
back.
    The Chairman. May I ask when we can expect those answers?
    General Schwartz. How about the end of March?
    Mr. LoBiondo. Thank you very much, General.
    Thank you, Mr. Chairman.
    General Schwartz. Yes, sir.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General, for joining us here 
today.
    I have heard many cries about the cuts proposed to sacred 
cows that are made in our backyards. I have heard others 
claiming that this 1-percent reduction in the Pentagon's base 
budget from 2012 to 2013 could mean the difference between the 
world's greatest military and a hollowed out force. And I 
frankly just don't see how that would happen with a 1 percent 
cut.
    But now, General, some of us on this panel have a poor 
understanding of how military planning is carried out. For our 
benefit, could you explain to us how and why strategic 
considerations must merge with a pragmatic assessment of 
available resources as the Department develops its budget 
proposals in any given year?
    General Schwartz. Congressman, it starts with what is 
required: What do we want the Armed Forces of the United States 
to do, and where? And what are the relative priorities in terms 
of the likely missions that we are going to be assigned?
    That was the genesis and the motivation for the strategic 
review which the Department undertook over a period of many 
months to provide the backdrop for the program review which 
followed.
    The bottom line, sir, is that--and the Secretary of 
Defense, sir, was determined not to make this a bookkeeping 
exercise. And I think we avoided that.
    Mr. Johnson. But you have to look at what Congress has 
mandated that you do within a certain amount of funding. You 
must take that into consideration, isn't that correct?
    General Schwartz. It certainly influenced the program 
decision process. But it was independent of the strategic 
formulation.
    Mr. Johnson. I understand.
    Mr. Secretary, can you remind this committee that it was 
the Republican-controlled House that forced passage of the 
Budget Control Act which mandated the caps on defense spending; 
and those cuts are reflected in this proposal.
    Secretary Donley. Well, Congressman, certainly the Budget 
Control Act represented the work of the House and the Senate 
together in crafting a compromised bill, which was acceptable 
to the President, which was signed.
    Mr. Johnson. All right. Thank you.
    Now, General, we have got a penetrating-bomber capability 
from the B-2s [Spirit stealth strategic bombers] for several 
more decades. And we have got cruise missiles. We have got 
unmanned stealth strike aircraft. And we are developing a 
prompt global strike capability. Why in the world do we need a 
next-generation bomber?
    General Schwartz. There are 20 B-2s. They are great 
platforms, but they are 20 years old now. And the technology on 
which they were designed, with respect to signature management 
and so on--the stealth capabilities is 1980s vintage.
    And the reality is that the B-2, over time, will become 
less survivable in contested air space.
    Mr. Johnson. Well, let me ask this question. You have said 
that the next-generation bomber won't be an ``exquisite'' 
aircraft in order to keep costs under control.
    Can you tell us how much is too much to pay for this next-
generation bomber?
    General Schwartz. We have a rough target of about $550 
million per aircraft flyaway.
    Mr. Johnson. All right. Thank you.
    I have got time to yield back, Mr. Chairman. So I will do 
so.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, General--both of you in your statements 
indicated the importance of our global ISR assets and the 
increasing reliance upon those assets.
    Remotely piloted aircraft remain, and are increasing their 
role as part of that infrastructure. There is an effort by 
Congress, of which I have been a part, to see ways in which 
remotely piloted aircraft could be integrated into our domestic 
air space for the issues of testing, training, and pursuing 
additional capabilities.
    In the FAA Reauthorization Bill, there is the establishment 
of six test ranges. We also put language in the National 
Defense Authorization Act last year that calls for a report on 
the ways in which the FAA and DOD were working together on this 
issue; and also how support language--encouraging the FAA and 
the DOD to work together. Recognizing the FAA, of course, has 
jurisdiction in this area, AFRL [Air Force Research Laboratory] 
and NASA [National Aeronautics and Space Administration] are 
working with the FAA on trying to resolve the conflicts that 
may be inherent in remotely pilot aircraft being in domestic 
air space.
    As we look to formulate this National Defense Authorization 
Act this year, gentlemen, what do you believe might be helpful 
in assisting the AFRL efforts in working with the FAA to 
incorporate them into our domestic air space?
    General Schwartz. Congressman, I think that the key thing 
here is to increase confidence on the part of civil airspace 
control authorities that remotely piloted aircraft are 
predictable. That is the key thing--that if an anomaly occurs--
that we know how the machine will respond. And that is the key 
technology, in my view, and certainly something that AFRL has a 
place in fielding, ultimately; but being able to assure the 
civil airspace authorities that the remotely piloted aircraft--
if we lose link, if there is an anomaly on the weapon system--
will react in a predictable manner is the coin of the realm 
here.
    Secretary Donley. Sir, I would simply add that this is a 
very important issue to our Air Force going forward. We have 
had several interactions with AFA--really, it has been on a 
continuing basis the last several years. We have Air Force 
personnel in the FAA headquarters helping work through these 
issues relative to the development to the National Airspace 
system; and how to make sure unmanned systems are part of that 
and an accepted part of the normal way of doing business going 
forward.
    Mr. Turner. So I also have a question concerning the Air 
Force Institute of Technology that I am going to submit and 
request your statements for the record, hoping of course to 
have your strong support for AFIT [Air Force Institute of 
Technology].
    Last year, in the National Defense Authorization Act, I 
inserted a language that allowed for students to enroll on a 
space-available basis. The Air Force has not taken advantage of 
that. We hope that in your written answers that we will have 
your commitment to that.
    As you know, I am also chairman of the Strategic Forces 
Subcommittee. And as you are aware, the President established a 
modernization plan in the 1251 Plan in the 2010 NPR [Nuclear 
Posture Review]. The fiscal year 2013 budget, after the new 
START Treaty was ratified--we see that the President is backing 
off those plans. Let us review that list.
    The B61 gravity bomber is 2 years delayed. The associated 
tail kit is late, and we understand that certain high-accuracy 
options are not being looked at. The W78 warhead is being 
pushed back, and a certain modernization options have been 
arbitrarily taken off the table. The new bomber won't be 
certified at the outset. And the new cruise missile is late at 
least 2 years. And the plan for modernization of the Minuteman 
III appears to be lacking commitment.
    So my question, gentlemen, is: Can you assure us that the 
Air Force has an ironclad, no-caveat commitment to field a new 
ICBM, to field a new nuclear-capable bomber and cruise missile; 
and will this commitment change result in the Administration's 
many EPR, which the Administration is not sharing with Congress 
as it is formulating?
    Secretary Donley. Sir, let me assure you that these issues 
have the most senior attention in the Department. The Nuclear 
Weapons Council has been meeting on these issues over the last 
month, a month and a half--on an extended basis, again, for 
many months now, but we are----
    Mr. Turner. Does it surprise you that Congress has not had 
any of this information shared with them, regardless of the 
fact that we have repeatedly asked?
    Secretary Donley. You are about to get a communication from 
the Secretary of Defense and the Secretary of Energy--joint 
communication on the subject.
    I won't address what is in that letter at this point, but 
that communication is being prepared.
    I will say that the B61 LEP [Lifetime Extension Program] 
program is important to the United States Air Force and the 
work on the W78 as well. These are priority issues for our Air 
Force, among others.
    Mr. Turner. Thank you, Mr. Secretary.
    The Chairman. Gentleman's time has expired.
    It is my intention after the next question period to call a 
5-minute recess for the committee.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Mr. Secretary, one of the most intriguing things that I 
have learned--and as you know I am a freshman coming in--is the 
fact that in the building of F-35, we actually have nine allies 
who are participating with us in that construction and 
technology. And, you know, I had never even envisioned that we 
would be doing something like that.
    Having said that--on page six of your report to us, you 
talk about the budget--``seeking to leverage strong 
relationships with allies and partners including the 
development of new partners''--so this seems to tell me that 
the Air Force of the future may not be as we envision it.
    So can you first tell me what is meant by the ``leveraging 
of the strong relationships?'' And in addition to that, how is 
that going to, then, affect what we may look at the Air Force 
into the future?
    Secretary Donley. Ma'am, just a couple of thoughts to leave 
with you on this model here--our thinking for this is the F-16 
program, which has been a very successful multinational program 
since the early to mid-1970s. Much of that program was put 
together after the United States had made a decision to build 
the F-16; and the international partners came in after.
    So there are many, many nations that fly the F-16. This 
provides for interoperability in operations. It provides for 
more efficient logistics and worldwide access to logistics as 
we collaborate with partners on availability in the supply 
chain and such.
    And I think from an operational--I will let the chief speak 
to the operational point. But on the F-35 program, we are doing 
that work upfront. So the partners are more involved earlier 
and they are participating in the development as well. So we 
are sharing the cost in that work.
    General Schwartz. I would only to add, ma'am, that when we 
do programs like this, it establishes a relationship that lasts 
decades. In the case of the F-16, it will be 40 years with the 
allies who have flown the F-16. Same thing is true with the F-
15, C-130J, or you know--the C-130 is the same thing.
    Establishing these relationships, these professional 
relationships, with counterpart air forces is important to us 
for both professional reasons; for our ability to influence 
others' thinking; for the potential of gaining access in areas 
where the military and military relationship can be beneficial. 
All of these things revolve around common equipment.
    Mrs. Hanabusa. I understand what was unique about the F-35 
is that we were doing it right upfront as we were developing 
it. Because you hear people like, for example, Representatives 
of Taiwan coming in saying, ``We want you to sell us the F-
16,'' or whatever it is that they are looking for, versus now 
that you have it upfront with F-35, I assume that, in the 
development of that relationship--military relationship--we 
have already defined who will, then, buy or, who will have 
access to the jet, with whatever kinds of components in it--
because I can't imagine we are sharing everything.
    But I guess the long-term effect is this our way of holding 
our allies close? And then, if we are going to ever 
unfortunately enter another theater, we would be able to rely 
on them because of this relationship? Is this the way we are 
playing well together, so to speak?
    General Schwartz. I think clearly there is a process within 
the Government to make decisions about what to export, who to 
partner with, and so on and so forth. And there is certainly 
congressional involvement in that process.
    But a key thing here is that, yes, it is certainly my 
experience, over many years, that the relationships that we 
have created--when I was a captain, I--there are still people 
serving in other air forces--they all have a gray hair now, but 
these kinds of things are profoundly important. And they do 
influence the thinking we--when we can offer the best military 
advice of our civilian masters.
    Mrs. Hanabusa. And I am running out of time, but do you 
foresee that what we are aiming towards is some sort of a 
global military? When I say ``global''--is that we are not 
going to have such defined lines between countries?
    General Schwartz. Ma'am, I think sovereignty will always be 
primary. I mean, national interest is national interest. But to 
the extent that one can collaborate for positive outcomes, I 
think it makes sense.
    Mrs. Hanabusa. Thank you.
    Thank you, Mr. Chair.
    The Chairman. The committee will stand in recess for 5 
minutes and when we return, Mr. Lamborn will have the next 
round of questions.
    [Recess.]
    The Chairman. The committee will come to order.
    Mr. Lamborn?
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you, both, for your work and your service.
    And on page 20 of the Posture Statement, under ``Nuclear 
Deterrence Operations,'' the somewhat inconsistent information 
is found that you are looking for $20.1 million to fund treaty 
preparatory actions and other additional actions necessary to 
accomplish treaty-required reductions by 2018. Specifically 
what is it that you are wanting to do with that $20 million?
    General Schwartz. Sir, it is a couple things.
    The Secretary addressed this earlier. Some of that is 
eliminating the missile silos and the bombers that are out at 
Davis-Monthan that are still counters against treaty limits but 
haven't been dismantled in a way that it takes them off the 
books. That is what part of the cost is for.
    Some of the additional cost is associated with the design 
effort that is required to convert nuclear-capable B-52s 
[Stratofortress strategic bombers] to conventional-only B-52s. 
That design effort is necessary. As you know, the 1251 report 
said up to 60 airplanes. We have 76. So there is at least 16 
birds that need to be converted and----
    Mr. Lamborn. Under New START?
    General Schwartz. Under New START. That is correct.
    Mr. Lamborn. And I have problems with New START. It was 
passed by a lame duck Senate; the same lame duck session that 
repealed ``Don't Ask, Don't Tell.''
    And so I just am concerned about the other things that are 
going on that might be unilateral actions by this 
Administration. Is there any activity that either of you are 
aware of to de-MIRV [multiple independently targetable reentry 
vehicle]--to take from multiple warheads or ICBMs and convert 
them to single-warhead status?
    General Schwartz. I think I would prefer to talk with you 
about this in a classified forum. But it should be no surprise 
that our intent, expressed over many years, was to move away 
from MIRV ICBMs towards single-warhead ICBMs. And that is 
unrelated, frankly, to START limitations.
    Mr. Lamborn. Secretary Donley, were you going to add 
something on that?
    Secretary Donley. I just was going to mention that that was 
a result of the Nuclear Posture Review. And it was not a treaty 
compliance issue. This was a U.S. Government choice to do that.
    Mr. Lamborn. And we are talking about the new-generation 
bomber, but isn't that decades away?
    General Schwartz. We anticipate having platform at least 
for test in the mid-2020s. So it is a decade away.
    Mr. Lamborn. And it is not even on the drawing board yet.
    General Schwartz. Well----
    Mr. Lamborn. Sometimes you say something is just on the--
this isn't even on the drawing board.
    General Schwartz. The program is now under way, sir. And, 
again, the target is the mid-2020s; 80 to 100 total aircraft 
inventory. And, very importantly, we intend to manage this very 
carefully, and with discipline. We are not going to repeat the 
B-2 experience with long-range strike bomber.
    Mr. Lamborn. What do you mean? Could you clarify what you 
meant by that?
    General Schwartz. The B-2 requirement set moved around over 
a period of time. And as a result, in some respects, we 
overdesigned the airplane. And that is why it was $1.5 billion-
plus per copy. And, of course, we only acquired 21, as well--
another issue.
    And so the mandate that we have from the Department is that 
we are going to produce a machine where we are disciplined on 
its requirements--that it will have an opportunity to grow over 
time. But it is not going to be the end-all, be-all the first 
time it flies. And we are going to do this in a way that allows 
us to purchase the aircraft in sufficient numbers, again, to 
succeed the B-52s; the B-1s [Lancer strategic bombers].
    Mr. Lamborn. Okay.
    Changing subject entirely in my last 45 seconds here--the 
President's budget request has zeroed out the Operationally 
Responsive Space Mission. And with the modular space vehicles, 
in particular, I guess that that is included. But isn't that 
meeting a need that we absolutely have to have--and so we are 
zeroing it out?
    General Schwartz. So the Department remains committed to 
the Operationally Responsive Space concept, sir. But as we 
looked at affordability and other ways to do this, we 
determined this year that the best approach was really to build 
in resiliency in the existing constellations of satellites 
across each mission area, and not to rely on a single program 
office to try to provide that capability from a single program.
    Mr. Lamborn. Okay. Thank you both.
    The Chairman. Thank you.
    Ms. Hochul.
    Ms. Hochul. Thank you, Mr. Chairman.
    And Mr. Secretary and General, I appreciate your service to 
our country and, certainly, the challenge that you have before 
us.
    In your opening statement, Mr. Secretary, you talked about 
the fact that in some cases you provided new missions to guard 
units whenever possible. And I believe that 14 of 24 will 
receive new missions.
    Can you tell me what the analysis that went into the 
decision as to which locations receive new missions, and help 
me understand the thought process?
    Secretary Donley. The considerations that the Air National 
Guard went through in making these decisions involved making 
sure that there was a flying operation in each State, to the 
extent that we could do that; and also, judging across 
individual locations whether or not there were other Guard or 
Reserve units on station or very close by.
    So we have a number of States that have multiple Guard and 
Reserve and flying missions. New York is one of those. And at 
Niagara, in particular, while the Guard unit there was proposed 
to be taken down, the Reserve unit at that same location 
remains intact.
    So this was a reason why Niagara was not prioritized higher 
for a re-missioned unit, if you will--coming in behind the 
Guard unit.
    Ms. Hochul. Do you also take into consideration geographic 
location and the fact that the Niagara Falls Air Reserve 
station is on the border with Canada, protecting hydroelectric 
power plants as well, and four bridge crossings?
    I mean I know that some geographic locations and all the 
cities in the center of this country have received two new 
missions. And I am just asking whether you look at our 
strategic location on the border with a foreign country like 
Canada, which has different--you know, we have relationship 
with them. And I just wanted to know whether or not that, you 
know, any priority in your mind should be given to a location 
on the border with Canada.
    Secretary Donley. As we look at adjustments across all the 
50 States here, there remains significant C-130 capability in 
New York. And we think the reductions here, while they are 
painful at the unit level, and certainly the manpower 
associated with it, the reductions in the number of aircraft 
are relatively marginal.
    Ms. Hochul. And certainly, that being said, I--if the 
aircraft need to go to a different function elsewhere or 
removed completely, that is understandable.
    But what I am asking, again, as a consideration--since the 
decision is not final--that a new mission be given to this, 
given that, number one, the strategic location; but also, the 
investment the Air Force has already made into this facility. 
And that is why I want to make sure that our taxpayer dollars 
are being spent wisely; that if you have already put money in 
here since 2005, why not continue, instead of pulling out one 
of the two operations and, you know, just ceasing that?
    So as a watchdog of our taxpayer dollars, as you are as 
well, that is something I am asking, as you undertake your 
reconsideration of the Niagara Falls Air Station Guard 
mission--we will take another mission. It doesn't have to be 
the C-130s. We will take another mission. And again, location 
and investments that have already made is something I would ask 
you to consider.
    I yield back the balance of my time, Mr. Chairman. Thank 
you.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you, Secretary Donley and thank you, General Schwartz 
for being here. You know, I never want to miss an opportunity 
to thank people such as yourself--General Schwartz--on behalf 
of my 3-year-olds for your lifetime dedication to the cause of 
freedom. You all are the most noble figures in our society.
    Most of my questions have been asked. So I am going to ask 
one that is going to be a little longer, if you will indulge 
me. It is an energy-related question. And I find very little 
discussion in the hearing materials about energy, apart from 
some references in the ``HASC Memorandum on Energy Horizons 
Papers,'' it is titled. It outlines the Air Force plans to 
increase energy supply by reduced demand; and change the 
culture to meet mission requirements. And then there is some 
general discussion about green and renewable energy initiatives 
in the Air Force that it intends to implement over the next few 
years.
    My question is more about an immediate energy challenge in 
my mind. A lot of the studies, as you know--we have had several 
major ones now--show our civilian power grid is critically 
vulnerable to both natural and man-made electromagnetic pulse. 
Furthermore, the reports show that domestic military 
instillations received 99 percent of their electricity needs 
from the civilian power grid.
    And when I look in your summary for what the Air Force is 
doing to eliminate or to mitigate or to really fully understand 
those vulnerabilities to our electric-power supply coming from 
the civilian government, I really--I am not finding anything, 
now, that may be there. And it is not a rhetorical question.
    So if I am missing something, you know, I--it is hard for 
me to see that--in the green initiatives--the real effort in 
that direction. And so I guess my question is along the lines--
has the Air Force considered the magnitude in the immediacy of 
what is potentially a catastrophic danger to the nation if our 
civilian power grid were to go down for an extended period of 
time, you know, as a result of natural or man-made EMP 
[electromagnetic pulse].
    Bottom line, does the Air Force feel like they have a 
strong handle on this? And have they considered the magnitude 
of the challenges it would face in trying to carry out its 
mission in such an environment if we did have a major 
catastrophic power-grid failure? And what are the plans here to 
deal with this issue?
    And I will start with you, Secretary Donley; and then 
General Schwartz.
    Secretary Donley. Sir, we would be happy to fill in the 
record on your specific question regarding EMP, which is a 
significant one. But I would offer--and as we fill in this 
discussion for you--that many of our initiatives on alternative 
forms of--solar, wind, other renewable projects--are focused on 
the local instillation capabilities. So they are generating 
capabilities sometimes upwards of 20 percent, 23 percent, 25 
percent of local power needs--generated on the base.
    So in some cases we are trying to get to--we are at the Air 
Force Academy, trying to get to 100 percent as a test effort, 
if you will. So there is a connection between our application 
of renewable-energy sources at local bases and a reduction in 
our dependency on the local grid. But it is true that we still 
get most of our power from local grids.
    General Schwartz. I would only add, Congressman, that we do 
have a process of evaluating such vulnerabilities. And there 
are about 900 of these vulnerabilities currently in our 
database, 62 of which are considered significant enough that it 
would affect at a strategic level of military mission. And 22 
of those 62 are considered national-level vulnerabilities.
    So again, we have this process to assess--to identify these 
vulnerabilities. And as the Secretary suggested, certainly we 
have backup power for key functions on our installations; 
primarily hydrocarbon-driven, obviously. But we are working 
hard on the renewables, as the Secretary said. And Nellis Air 
Force base is a case-in-point, where obviously solar is 
abundant. And it powers just under 25 percent of the daily 
requirement.
    Mr. Franks. Well, Mr. Chairman, given the magnitude of that 
kind of a possibility, I still guess I am not hearing what 
seemed--I mean I don't even know if EMP is one of those 22 
national categories. But I am hoping that we can have further 
discussion about this because if Iran or someone like that 
should gain nuclear capability, then the equation is changed 
dramatically.
    Thank you.
    Thank you.
    The Chairman. Thank you.
    Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    And thank you to Mr. Secretary and General. I too would 
like to add my thanks to you for the sacrifices you have made 
through a lifetime career protecting us.
    General, you had said earlier when we were discussing the 
F-16s that the relationships that have developed with many of 
our allies have lasted a generation and have been very 
constructive to us. I noted that with the F-35, there have been 
reports to suggest that Australia--that originally was going to 
purchase 12--is now rethinking that. So are Turkey and Italy. 
And I am wondering, with the F-16 experience as a backdrop, 
what does that tell us about, one, relationship-building, but, 
two, whether there is really confidence in the F-35 around the 
world?
    General Schwartz. Ma'am, I think this is less a question of 
confidence than it is an issue of the economic circumstances 
that many nations find themselves in right now. And it is 
affecting us too, obviously, with the Budget Control Act. I 
think that it should not be a surprise that Canada, Australia, 
Italy, others, you know, are watching their checkbooks.
    And so the fact that military programs in general are 
getting additional scrutiny shouldn't--you know, is not that 
much of a surprise.
    It should not be read as a diminished commitment to 
pursuing this capability over the longer term. I know 
personally--you know, I interact with my counterparts 
routinely--Canada, Australia, Italy, Turkey, each on the 
military-to-military basis--are committed to moving to the 
generation-five level of capability as soon as their economic 
circumstances permit.
    Ms. Speier. All right. Thank you.
    Just this morning, the Government Accounting Office just 
released a report. It is its ``Annual Report on Opportunities 
to Reduce Duplication, Overlap and Fragmentation, and Achieve 
Savings.''
    The very first two areas that they focus on deal with the 
military and, in particular, electronic warfare; and they point 
that the Navy and the Air Force have been in discussions 
historically to try and reduce the duplication; try and find 
ways to acquire much of this equipment jointly so the costs can 
be reduced. And, yet, not much has happened. Can you give us an 
update on that?
    General Schwartz. I guess I would dispute that assessment. 
We walked away from the EF-111 [Raven electronic warfare 
aircraft] aircraft, which was our dedicated jammer platform, in 
favor of what, at the time, was the EA-6 [Prowler electronic 
warfare aircraft] capability in the United States Navy.
    And we have been dependent on EA-6 capability for some 
period of years. I think the key thing here is that certainly 
there is a renewed effort on the part of the Navy and the Air 
Force; not just in electronic warfare, but in other areas. 
Global Hawk and BAMS [Broad Area Maritime Surveillance] is a 
case in point, ma'am, where we are using a common system. There 
is a different sensor because their mission is maritime and 
ours is over land. But fundamentally it is the same platform 
and we are pursuing it together.
    Ms. Speier. They specifically reference the services M-A-L-
D-hyphen-J--MALD-J, Increment II, and Airborne Electronic 
Attack Expendable Initiatives to determine if these activities 
should be merged.
    General Schwartz. Well, in fact, we terminated Increment II 
in the 2013 program in our proposals. So it is no longer in 
play.
    Ms. Speier. All right.
    And then, with my 40 seconds remaining--also reference the 
unmanned-aircraft systems and pointed that since 2008, in an 
effort to save money, there have been requests made to see if 
there could be joint efforts there.
    According to a DOD-sponsored study in 2010, the Department 
could have saved almost $1.2 billion had the Air Force acquired 
the same sensor as the Army. Would you like to comment on that?
    General Schwartz. Ma'am, I would have to see the specific 
reference and what sensor they were referring to. I would be 
happy to do that for the record.
    Ms. Speier. Thank you.
    I yield back.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And thank you gentlemen for being here today; and thank you 
for your service. My first question is for General Schwartz.
    General, week before last, Secretary of Defense Panetta 
visited Barksdale Air Force Base, which is in my district.
    And while I couldn't be there--we were here voting--my 
understanding is that he laid out a very positive plan for 
moving forward with our bomber platform. And, in fact, I met 
with Global Strike Command and the 8th Air Force this past 
Friday. And it looks like--that nearly $300 million requested 
in fiscal year 2013 and $6.3 billion is programmed through 
fiscal year 2017. So it looks like the commitment is real; that 
the long-range strike bomber is really beginning to come 
together; and so as it should.
    Now, picking up on some of the questions you have already 
answered, we understand it will probably be beyond the decade 
before they will actually roll out and be operational. We also 
know that there will probably be at an estimated cost of $550 
million each and numbers as high as 100. That is all good to 
know. And, I will give you a personal experience.
    About 6 months ago, I actually flew inside of a B-52. And 
it was a very interesting experience. Number one, it is a giant 
airplane but it is very cramped on the inside. It is sort of 
like being inside a cave or inside of a mine or perhaps a 
submarine. So it is jammed with a lot of stuff. And what is 
interesting--it has all of the old 1950s vintage dials and 
gauges and tubes--actually tubes--still in operation.
    Well, I am seriously concerned that the budget bans a 
number of vital modernization programs that will fill in the 
gap between now and when these new bombers roll out; and that 
is legacy radar of the 1960s, which they can't even turn it off 
because they are afraid they can't get it back on. And that can 
seriously hamper our readiness, bringing us down to maybe a 37-
percent mission-success probability; and also, the EHF 
[Extremely High Frequency] FAB-T [Family of Advanced Beyond-
Line-of-Sight Terminals] program which, as you know, is a 
communication with satellites, receiving orders for nuclear 
deployment and missions.
    So my question--and as I understand it, both of these have 
been completely zeroed out--if you could respond to that 
please?
    General Schwartz. Sure.
    With respect to FAB-T--really, that was a priority 
decision. And by the way, FAB-T is a terminal to allow 
communications with the new advanced, extremely high-frequency 
satellites' protected communications architecture.
    The priority was to do ground terminals and command-and-
control requirements first. And it had been deferred for the B-
52 because the B-52 has a reliable proven LF [Low Frequency], 
VLF [Very Low Frequency] command-and-control capability--low-
frequency, very-low-frequency capability--on the platform as it 
stands.
    So I think was an appropriate prioritization, sir, to go 
with the command-and-control platforms first, both air and 
ground, and then to rely on the existing capability for the 
time being in the B-52.
    With respect to the radar, we looked at that carefully. I 
believe it is the APQ-166--is the designation for the radar in 
the B-52. And the cost of the new radar relative to what we saw 
as a renovation--in other words, maintaining the 166, but 
perhaps going solid state in some of its subcomponents--was a 
wiser path than putting a brand-new, probably, electronically 
scanned radar on the B-52.
    So bottom line is these are choices based on priority and 
available resources. And they were carefully considered. And 
that is kind of where we stand. They have not been eliminated 
in the context you mentioned.
    Dr. Fleming. Okay.
    To follow up then, the radar, there is sort of a semi-
modernization or a--parts or components--and the FAB-T, you are 
really looking at other capabilities that can get around that 
reliably.
    Thank you. Thank you, gentlemen.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And Secretary Donley, General Schwartz, I want to thank you 
very much for appearing before the committee today, and for 
your testimony; of course, most especially for your service to 
our Nation.
    As a ranking member of the Emerging Threats Subcommittee, I 
have long maintained, as you probably know, a strong interest 
in mitigating vulnerabilities in cyberspace. In particular, I 
have long been concerned about the potential of what a 
cyberattack in our electric grid--and its impact on our ability 
to conduct military operations.
    In the past hearings before the committee, of course, I 
have been pleased with the Air Force's engagement on this 
issue. I did have a question, Secretary Donley, on what 
progress the Air Force has made in evaluating threats to our 
bases that rely on civilian power sources and how the Air Force 
has strengthened its plans for alternative energy sources.
    I think you probably answered a lot of that question when 
Mr. Franks asked his question. If there is anything else you 
want to add, feel free.
    But I will go to the next one, which is--I also continue to 
be concerned about the overall strength and size of our 
nation's cybersecurity workforce. So in that point, perhaps, if 
you both could comment--what is the Air Force doing to recruit 
and train airmen with cyberskills? And what is it doing to 
encourage them to stay in uniform?
    In particular, then, the next question--this one, perhaps, 
is more directed at General Schwartz. General, I recently 
visited 24th Air Force at Lackland Air Force Base, and was very 
impressed with General Vautrinot and the work that her team is 
doing there with its operations. We have clearly made great 
strides in our ability to impact the cyber domain. But, as I am 
sure you would agree, we really have to continue to innovate 
and transform in order to maintain and expand that ability.
    In your view, what must the Air Force do next in order to 
ensure the ability of its networks to support the full spectrum 
of operations?
    Perhaps, Secretary Donley, if we could start with you; and 
then we will go to General Schwartz?
    Secretary Donley. Well, just a couple of general points 
here.
    This is a key capability for us and for the joint force 
moving forward. No question about it. It is an emerging threat. 
It is actually with us today.
    The first order of business for the Air Force was to 
establish our component 24th Air Force to do this work, and to 
give control of what we referred to as Air Force--AFNetOps--Air 
Force Network Operations--across all our bases so that we view 
this as an entire enterprise together; and especially to work 
through the cyberdefense issues that are immediately in front 
of us; also to build the forensic capability that will allow us 
to move from just defensive operations to more of a dynamic 
defense environment; and also to develop the offensive tools 
that our commanders will need going forward. So this is the 
general evolution of our cyber capability.
    The airmen that we recruit for this work are outstanding. 
They perform not just Air Force work but also joint work. They 
are in high demand in the Defense--at the Defense Department 
level for the work that they do. And we also have Guard and 
Reserve units that are contributing here based on regional 
expertise from the Northwest and also from the San Francisco 
Bay Area; Northern California area--so a very important 
capability for us.
    General Schwartz. Sir, I think the major thing we need to 
do is to recognize that this is not an administrative activity, 
if it ever was. It is to change mindset that this is about 
operations. This is a recognition that these are operators, not 
network controllers or managers, but operators.
    And I know Sue Vautrinot, I am sure, explained that to you. 
It is a culture issue that will take a bit longer to inculcate 
throughout our Air Force. But this is a military capability, 
and it needs to be employed and cultivated and so on, along 
those lines.
    Our recruiting and retention has generally been good in 
part, no doubt, over the last couple of years, because of the 
economy--has been suffering some. But, again, there are 
exciting things that we do that I would argue that IT 
[Information Technology]-competent people in the private sector 
don't get to do.
    Mr. Langevin. Thank you gentlemen. I appreciate the work 
you are doing.
    Chairman, I yield back.
    The Chairman. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I want to go back to the more specific discussion on the 
Global Hawk, if I could, and some of the things that you have 
already said in your testimony--just to clear up. I am an Army 
guy, so I apologize for any confusion I may have. But I think, 
General, you talked about the B-52 being 20 years old, you 
know. We know the U-2 is at least that old.
    And then I think that you said at the beginning of your 
testimony that the decision was made to discontinue the Block 
30 part of the Global Hawk because of--the U-2 cost versus the 
Global Hawk was essentially a push. Correct me if I am wrong on 
that.
    I guess my question--what I want to start my question off 
is--I have seen the Global Hawk up close. It was very 
impressive. You know, it makes you feel proud to be an American 
that this is the kind of stuff that we are putting out. Nothing 
against the U-2, but when you talk about antiquated systems 
versus what we have got to show the world in the future, it was 
just impressive.
    And so I guess if we are worried about the age of the B-52, 
and the cost of the Global Hawk and the U-2 was essentially a 
push, why don't we err--or why don't we decide for the future 
that the capability that we are going to use is something 
that--I assume that where we are going in this kind of 
surveillance in the future would be unmanned aircraft like the 
Global Hawk, someday in the future. So why wouldn't we err on 
the side of starting to use that now, especially if we have 
already built some of these things?
    General Schwartz. If resources were not an issue or were 
less an issue, we might well make a strategic decision to do 
something on those lines; but we did not have that option.
    Just to put it in context--so you have a sense--keeping the 
U-2 vs. terminating Block 30 yielded $2.5 billion in savings in 
the program period; not trivial. So, you know, if there were 
$2.5 billion, you know, more in our top line, I am not sure how 
we would use it.
    Mr. Rooney. Right.
    General Schwartz. I just want to give you that sense that 
we recognize that. And remotely piloted aircraft are growing in 
our inventory and will continue to grow. And we will have a 
foothold with Global Hawk. And the Department of Defense will 
have a broader one, including the Navy. This was a choice that 
we had an asset that could do the mission as it is currently 
specified, and could do it overall at much less cost.
    Mr. Rooney. I just want to--for the sake of presenting this 
letter that I have from my colleague from Florida, Mr. Young, 
from Secretary Ashton Carter, which highlights--and this is 
just 6 months ago. ``The continuation of the program is 
essential to national security and there are no alternatives to 
the program which will provide acceptable capability to meet 
the joint military requirement at less cost.''
    There is also language in here that talks about how, 
because of the need for a U-2 not being able to fly 
continuously and that a Global Hawk could, it--the cost for U-2 
would actually be $220 million more per year.
    I understand that those numbers, you know, aren't matching 
up now. But 6 months ago--what I look at when you say ``We have 
spent'' or ``We have appropriated $4 billion for you to make,'' 
or ``for us to be able to purchase,'' I think, ``21 of these 
Global Hawks. We have got 14 built.''
    When I have to talk to my constituents and the taxpayers, 
and I say, ``Yes, we have got these really cool surveillance 
Global Hawks that are going to take the place of this 50-year-
old plane. We have got 14 of them made, but now we have made 
the decision to just park them in the garage somewhere''--you 
see, it is hard for me to be able to explain that to--
especially in this kind of age.
    So, I mean, I guess what I am asking you is: What do I tell 
them, you know, when we talk about how we are going to park 
this vehicle in a garage for God knows how long?
    General Schwartz. We will put the platforms into 
recoverable storage.
    So we are not talking about breaking the birds up. We want 
to be able to have access to them. And as circumstances change, 
you know, perhaps there will be a time when they come back out 
of storage. But right now--right now, we strongly recommend the 
U-2 solution set given all the demands that we face.
    The Chairman. The gentleman's time has expired.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    And for Secretary Donley and General Schwartz--I am 
impressed by your ability to stay with this. I want to thank 
you for your answers; the forthcoming way in which you have 
dealt with the multitude of questions here.
    I was going to ask you about the Global Hawk, but that has 
been covered at least by five of us. And I will let it go at 
that. And I thank you for a private discussion that you gave me 
earlier.
    My question is going to go on the mobility side. Obviously, 
it is extremely important element in the future of war planning 
and the direction we are going. You are downsizing some 
elements of it. Could you just give us a quick overview on the 
downsizing and then see where it takes us?
    General Schwartz. Yes, sir.
    We are going from--on the intratheater lift side from 
somewhere--well, down to 318 aircraft; C-130 class aircraft. 
And we were at about 390 to start. So 65 birds come out, 39 of 
which can retire in 2013--on the big-airplane life side, we 
will reduce 27 C-5As. And that will keep 275 total big 
airplanes--that is 223 C-17s and 52 C-5Ms. That is the re-
engined version of the C-5, a very efficient--a good lifter; so 
that is the basic approach on the lift side.
    I would just say that the analysis that was done based on 
the new strategy suggested that we needed--one of the metrics 
we use is called ``million-ton miles per day''--that the former 
mobility-capability requirements studies specified a minimum of 
32.7 million-ton miles per day. The analysis we have based on 
the new strategy and the reduced force size, and the other 
components of the Department of Defense is 29.4 million-ton 
miles. And our actual capacity is somewhere around 30.5. So 
there is a little bit of excess there. It is okay to have a 
little management reserve here, in my view. And so we think 
that, again, 275 and 318 is the right combination.
    Mr. Garamendi. Are you going to continue to upgrade the C-
5As?
    General Schwartz. The remaining C-5As will go out of the 
inventory before there is an opportunity to modify them. So 
there will be 52 total C-5s, all of which will be the re-
engined version of the C-5M.
    Mr. Garamendi. And how many do you have to day on the C-5s?
    General Schwartz. There are 89 total C-5s and----
    Mr. Garamendi. Reducing 27.
    General Schwartz. And reduce it by 27.
    Mr. Garamendi. Have you decided where they are going to be 
deployed, the remaining?
    General Schwartz. I don't think we have decided that 
specifically. I would indicate, however, that the units that 
were donors on the C-5As, as reflected in the program, either 
are going to get C-5Ms or, in one case, get Active Duty C-17s. 
It is a Guard unit.
    Mr. Garamendi. You know I would have the preference as to 
where you would locate those.
    On the tankers--you are retiring some tankers and looking 
forward to the new tanker coming in. Is this a transition 
process that is under way?
    Secretary Donley. Well, the tanker program does not deliver 
an initial operational per-squadron-level capability until 
about 2017. So we will, this year, go through the process of 
establishing the requirements for basing, and then make 
decisions at the end of this calendar year on the first two 
bases for initial bed-down of the tanker.
    Mr. Garamendi. We do like the West Coast.
    Thank you, gentlemen.
    The Chairman. Thank you.
    Mr. Griffin.
    Mr. Griffin. Thank you, Mr. Chairman.
    General, I have got several questions here, so I want to 
try to move quickly. First and foremost, I saw that--and this 
is for Secretary Donley--I saw that there has been a reversal 
with regard to the LAS [Light Air Support] contract involving 
Hawker Beechcraft. I have got the statement you put out today, 
Mr. Secretary. Is there anything you would want to add to that?
    Secretary Donley. No, certainly, the situation is that as 
we went to make a court filing on this issue, we found--the 
service acquisition executive and support staff found that the 
documentation for this source selection was not what it needed 
to be.
    And, certainly, we are disappointed that that has been the 
case, and that we have fallen short here. But we need to go 
back and take corrective action. We are in the process of doing 
that.
    Mr. Griffin. Okay--another quick question on that issue. It 
was brought to my attention that there was a change or a 
lowering in the pilot-safety standards with regard to ejection 
in this contract. Are you familiar with that? Do you know if 
there was lowering of safety standards so that the Super Tucano 
would be compliant?
    Secretary Donley. I am not familiar with those details.
    Mr. Griffin. General, are you familiar with that at all?
    General Schwartz. I am not.
    Mr. Griffin. Okay.
    We may submit that in writing for more detail.
    With regard to the A-10s that are outside of my district, I 
am going to ask a question here to try to assist my colleague 
who had the A-10s in his district in Fort Smith.
    My understanding is that the BRAC report cited the airspace 
around the airfield in Fort Smith, a low-level route, as to why 
Fort Smith was an ideal location for the A-10.
    Now the A-10s are being moved. Was there something in the 
current basing commission report that contradicted the BRAC 
findings? Can you give me any insight as to why the A-10s might 
be moved from there?
    Secretary Donley. The A-10s are not moving. The A-10s are 
being retired out of the fleet. So it really doesn't affect 
BRAC-related issues that----
    Mr. Griffin. So we will have no A-10s left at all?
    Secretary Donley. No. The Air Force will still have about 
248 A-10s in the inventory. But we have made a decision at a 
corporate and strategic level that we could take additional 
risk in the fighter force structure. And that inside the 
fighter force structure, the best place to take that was 
probably in the size of the A-10 fleet. So that was the basis 
for the decision.
    Mr. Griffin. Right, but----
    Secretary Donley. And I think in this case, as has been 
applied in other locations where it was feasible--we have a 
mission to backfill at this location with an RPA [remotely 
piloted aircraft]----
    Mr. Griffin. Right--with the unmanned.
    Secretary Donley. Right.
    Mr. Griffin. But you said they are completely retired. But 
then you said, ``But we are keeping A-10s.''
    I think the question here is if you are going to keep them 
anywhere--BRAC indicated that this was a type of place you 
would want to keep them. But if you--I have only got like 50 
seconds, but if you have anything else to add on that?
    General Schwartz. Again, sir, one of the imperatives for us 
was to try to retain a flying mission in each State; a Guard 
mission. And in this case, of course, there is a substantial 
presence in the Little Rock area, with the National Guard.
    Mr. Griffin. Sure. Sure.
    Let me move on to the next question. This is regarding AMP 
[Avionics Modernization Program] vs. AMP light--some call it 
AMP light. I met with the pilots out at the Little Rock Air 
Force Base last week.
    Can you talk about--when you were comparing AMP to what 
some have called AMP light, were you considering the cost of 
supporting that navigator position for the AMP light, which you 
wouldn't have to do with the AMP? If you could--I don't if 
the----
    The Chairman. The gentleman's time has expired.
    Mr. Griffin. Thank you, Mr. Chairman.
    The Chairman. If you will answer for the record?
    And we are going to--we will have a briefing on--classified 
briefing on that.
    Mr. Griffin. Okay. Thank you, Mr. Chairman.
    The Chairman. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    And I would like to thank both the Secretary and the 
General for your service, and for being here today. When we 
have less than 20 percent to 22 percent of the people serving 
as Members of Congress with any previous military experiences, 
it is always great to hear from those who have served and are 
serving, and representing hundreds of thousands of our men and 
women in uniform--to be able to come share your experience, 
your insight, and expertise with us.
    It is definitely a tough time for our military, and it is 
pretty tough for you all having to propose and make these tough 
force-structure decisions. I definitely don't envy you. But at 
the same time we have a lot of questions, you know, the C-130J 
and the C-27J, we have talked about it. So, Mr. Secretary, 
thank you for briefing the Mississippi delegation on those two 
projects. And we are going to be talking about it probably for 
a long time as we move ahead.
    So my first question really involves the C-130J. And if you 
don't mind, I will read my question. I do want to know how the 
decisions were made to move the airplanes within the Air Force.
    My staff and I have been looking at this for quite some 
time now, and still fail to see any military benefit or cost 
benefit to some of these moves. In fact, some of the numbers we 
are looking at seem like it is going to cost into the millions 
in new construction, training and other incidentals and 
collateral costs just to move these aircraft a couple hundred 
miles from their current location.
    Can you tell me what kinds of calculations were used when 
making these decisions? And were some of these--that would be 
my first question--the calculations used in making these 
decisions.
    General Schwartz. It had to do with what demands were there 
for both Federal and State missions. It had to do with what 
backfill opportunities did we have, even as we were getting 
smaller. And it had to do with the ability of the local 
community to recruit and provide the expertise for a new 
mission, if that was, in fact, going to materialize. And so 
those are three of the thought processes involved in deciding, 
again, how to allocate scarcity; how to allocate the reduction 
of 286 aircraft in total, and so on.
    Secretary Donley. I would just add that it is complex work 
to do this across 50 States. And we have been working with and 
supportive of the Air Guard as General Wyatt and his staff work 
through these issues on how best to balance capabilities across 
the 50 States in these different disciplines--C-130s, ISR 
capabilities, et cetera.
    Mr. Palazzo. Right.
    I mean I have four pages of reasons why we think the C-130J 
should stay where they are at, and why it is possibly a bad 
decision to move them, again, just a couple of hundred miles--
infrastructure improvements; the amount of money that this 
congress or prior congresses in the administrations have 
invested in Keesler for the C-130Js, especially post-Katrina--
brand new hangars, the wreckers, the accomplishments, the 
squadrons just received from completing missions in 
Afghanistan, and so forth and so on.
    The fact that we have great training areas--very, very 
limited interference from civilian population. We have, you 
know, Camp Shelby to the North, Stennis Space Center to the 
West--just hundred--and then, of course, we have the entire 
expense of the Gulf of Mexico as un-encroached training areas 
for the Air Force. And so I mean, I do have some valid 
concerns.
    I guess if we continue to propose these, what is the next 
step? I mean if we can--I mean, in concrete? It is done? It has 
been penned in blood? This is a covenant going forward? Can we 
have an opportunity to explain as we are here today that can 
possibly change your mind that this is not in the best interest 
of our national security or our force structure?
    Secretary Donley. Well, the force structure proposals we 
made are part of the President's fiscal year 2013 budget--many 
moving parts. And, you know, we are happy to answer questions 
and support, you know, further discussion. But it is really up 
to Congress now to----
    Mr. Palazzo. I am out of time. Thank you very much.
    Secretary Donley [continuing]. Take the next steps.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    And Secretary Donley and General Schwartz, I want to thank 
you for being here. And more importantly, as a Member of 
Congress, I want to thank you for standing up for the Air 
Force.
    When the Secretary of the Army and their respective 
commanders were here, I didn't really get the sense that they 
were standing up for their divisions.
    And talking about--using the terms, if you will, that you 
have used--you know, we have talked about--you have talked 
about additional risk that comes from the force structure 
changes.
    And, General, you used the word ``indiscriminant salami-
slicing.'' I think that is an accurate word for what has been 
done to the military. And, quite honestly, it leaves Americans 
at risk.
    And as a Member of Congress, what we need is the two of you 
and your colleagues standing up and saying that, you know, it 
is not just the magnitude of the cuts, it is the pace of the 
cuts and it is the mandate of how the cuts are done that is 
putting the security of Americans at risk.
    So I hope you will continue that. We have to undo the 
sequestration. I am interested in your suggestions with regard 
to that.
    In dealing with the force structure changes that you have 
proposed to us--as you know, I represent Robins Air Force Base. 
And obviously, the depots are extremely important to us. And I 
would like, if you will, just speak to the potential loss of a 
qualified workforce and how much greater that loss may be 
because of the pace at which the cuts have to be made.
    Secretary Donley. Well, certainly, sir, we value all three 
depots. And our intent is to move forward with the three-depot 
strategy. We think it would be very costly and a complex 
operation to consider changing that. And I think there would be 
a penalty paid in trying to move or recreate the workforces 
that have built up around these three depots.
    I would offer that the workload at these locations does ebb 
and flow. And this is what our working capital fund is intended 
to address. So employment does not always stay level; it goes 
up and down with the aircraft that are being inducted and 
worked on and then depart. So the workload issues will continue 
with us going forward, but our intent is to stick with the 
three-depot approach.
    Mr. Scott. Thank you so much.
    You have got a wonderful gentleman in Warner Robins right 
now, and General McMahon, that is going to be retiring. And he 
has done an excellent job of maximizing the performance of that 
base; a lot of great men and women out there supporting the 
warfighter.
    But we also have the JSTARS [Joint Surveillance and Target 
Attack Radar System] unit there. Certainly, there is the 
ability to expand their intelligence capabilities. I hope that 
is something that you will continue to pursue.
    And gentlemen, I want to help you solve this problem. I 
want suggestions on how we are going to do the sequestration 
and find a better national security for Americans.
    With that, Mr. Speaker, I yield the remaining balance of my 
time.
    The Chairman. The gentleman yields back.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    And Mr. Secretary and General Schwartz, certainly I want to 
echo my colleagues in expressing our gratitude for both of your 
great service to our nation and the important work that you are 
doing, and the challenges with the budget restraints that you 
are working under.
    Before I ask or comment specifically on a force structure 
issue, Mr. Secretary, could you kind of give me an update? I 
have had a lot of inquiries in my district, as I know Members 
across the country have, about the Dover mortuary issue and 
with the most recent report. And I apologize. I am in a markup 
in another hearing. If this was asked earlier, I apologize--but 
with the Special Counsel's findings and the report being 
issued, and the repercussions that were suffered by those who 
sought to do the right thing, where we stand and both from a 
disciplinary standpoint and going forward in the best way 
possible?
    Secretary Donley. Sir, I will just give you a quick 
overview. General Abizaid completed his work this week; briefed 
that out to the Secretary of Defense. The chief and I were 
there yesterday. And we will have some more to say about that 
today. But we do support the results of the Abizaid panel and 
are embracing their recommendations. And we intend to move out 
on those. I will speak to those later.
    Mr. Platts. Okay.
    Secretary Donley. We did receive, at the end of January, a 
report from the Office of Special Counsel concerning reprisals 
against the whistle blowers in the original--during the 
original investigation of this. And the OSC [Office of Special 
Counsel] report concluded that, indeed, reprisals had taken 
place and this raised a new requirement for us to consider the 
need for additional disciplinary action against those involved 
in that work. And I assigned that to a two-star general who has 
undertaken that work. And I expect him to report out in sort of 
mid-March--around the 19th of March is what we are forecasting 
at this point.
    Mr. Platts. I appreciate those continued efforts in this 
issue and the importance of--that we properly honor the fallen, 
and properly hold accountable those who sought to punish those 
who are doing the right thing.
    I am the--have been, for 8 years, working on strengthening 
our whistleblower-protection laws so that Federal employees who 
see wrong can come forward and know they are not going to be 
punished for doing the right thing as, unfortunately, happened 
in this case. So staying focused on that is, I think, very 
important.
    A follow up on that issue--and I know there is, I guess, 
not great certainty about the partial remains that were then 
incinerated in landfills of some of our fallen heroes--is there 
any consideration--and this is a specific question from one of 
my constituents--a veteran himself who lost a brother in combat 
years back--not related to this current situation, but where 
the legs of the fallen were not recovered with the body and 
buried appropriately.
    His question was, ``If we know that a lot of these remains 
were landfilled, is there any current review of how to properly 
honor those remains with a memorial marker or something, 
because we have the remains of fallen that apparently are in a 
landfill, not properly acknowledged?
    Secretary Donley. Sir, I am not sure it is possible for the 
Department of Defense to go back and reconstruct the history 
for every single case prior--where this practice was in place. 
Certainly we are in a better place today. And certainly we 
apologize for any additional grief or concern caused to the 
families as a result of this prior practice. It changed in 
2008.
    And the Abizaid panel actually has additional ideas for us 
to consider going forward that we might consider for how best 
to honor the disassociated remains of the fallen that are 
subsequently--come in after the remains are processed through 
Dover.
    So we will continue to work this issue going forward and 
make sure that we honor our fallen and treat them with the 
respect that they deserve.
    Mr. Platts. I appreciate that, Mr. Secretary.
    And any way that we are able to honor the fallen that we do 
so especially going forward, but even if there is a way in 
retrospect. And just a final comment----
    The Chairman. The gentleman's time has expired.
    We are into the vote.
    Mr. Platts. Thank you, Mr. Chairman.
    The Chairman. Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman. And as you can see, 
there are several of us that have been running back and forth. 
So I apologize for my absence.
    But I do appreciate General Schwartz and Secretary Donley, 
you being here today. And all of my concerns today, although 
there are many concerns--but if I could focus in a little bit 
on the Air National Guard and the decisionmaking process--I 
know you touched on some--the C-130s. But I really would like 
an opportunity, mainly for the benefit of those back in 
Alabama, for you to expand upon the Air National Guard's 
ability.
    I know that the Air Force has said that they were a full 
partner in these cuts, but could you just kind of paint a 
picture for what that looked like? Did they have a vote? To 
what extent was their input taken?
    General Schwartz. I would describe it as--and again, you 
know, the two gentlemen behind us certainly were there 
throughout. And their voices were heard. They were not timid.
    You know, discussions unfolded and we debated. And 
ultimately, the Secretary decides. I mean that is the way it 
unfolds. As I have suggested in another forum--I mean it is not 
to say that everyone agrees with the outcome necessarily. But 
it is also incorrect to contend that their interests were not 
represented. That is not the case.
    Mrs. Roby. That is the message that we want to make sure we 
get back to home, Secretary.
    Secretary Donley. Just an additional point--and I think the 
chief and General Stenner and General Wyatt articulated that 
view jointly together.
    And as we went through the decision process--you are aware 
of the mitigating efforts that we made to remission units, even 
moving some capability from the Active to the Reserve 
Components. And the Guard and Reserve helped work through all 
those decisions about what units and where, and how to make the 
adjustments.
    Mrs. Roby. Okay.
    So the Air Force justified the reduction for the Air 
National Guard. Is that the Active Air Force has made cuts in 
the past when the Air National Guard has grown. And if you 
could, just talk about that. Is that true?
    Secretary Donley. It is part of the context, but that 
wasn't the motivation.
    Mrs. Roby. Okay.
    Secretary Donley. It wasn't the case of what is their turn; 
not at all. What this really was, was a recognition that we had 
a new strategy in force-sizing construct first and a 
recognition that the Air Force as a whole was getting to a size 
where we had to have access in utility out of every asset.
    Mrs. Roby. Right.
    Secretary Donley. And that suggested, again, having that 
utility in a way, though, that wouldn't destroy the fabric of 
the units either on the Active Duty side with expected tempo 
for full time, or on the Guard and Reserve side where there is 
a lesser expectation of personal availability because of 
structure of those organizations.
    And so the bottom line is that we worried about tempo and 
making sure that the mix would accommodate both the surge and 
the rotational requirements that we foresee in the future. And 
again, exactly how we did that, others might differ, but you 
have the proposal before you.
    Secretary Donley. And as we go forward, the Air National 
Guard, with our support, is going forward with a multiyear 
effort to increase the readiness of the Guard.
    We are all going to have to be focused on that going 
forward together, as we get smaller. So readiness is more 
important. The Guard is working on that. And we support them in 
that effort. And we are increasing the number of associations 
between the Active and the Reserve Components from 100 to 115, 
with maybe more coming.
    So this reflects a closer integration of effort to get the 
most combat capability out of all of our units going forward.
    Mrs. Roby. Well, thank very so much. I have other question 
and I will submit them to the record because my time is about 
to expire.
    But thank you so much.
    And Mr. Chairman, I yield back.
    The Chairman. The lady yields back. Thank you very much.
    Thank you General, Secretary, for being here today; for all 
the work that you have done to get to this point in the 
process. You can see with all the questions there is lots of 
angst over these cuts. And I think only one or two mentions of 
sequestration, which will be that much worse on top of it.
    So that is something that I think we really need to address 
and focus on. And we will be doing that.
    We have started the vote.
    Thank you all.
    With that, we will conclude our hearing here today.
    [Whereupon, at 1:12 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 28, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 28, 2012

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

          Budget Request from the Department of the Air Force

                           February 28, 2012

    The Air Force has been engaged in combat operations 
supporting the joint forces for the past 20 years, beginning 
with the Gulf War in 1991 and continuing thereafter, through 
enforcement of the Iraq no-fly zones, combat operations in the 
Balkans, Iraq, and Afghanistan, the related logistics support 
missions, and worldwide humanitarian support missions. And of 
course the Air Force has continued the 24/7, 365-day-a-year 
nuclear-deterrence mission.
    Everyone should fully understand that our vital interests 
have not changed since last year. The threats to those 
interests have not decreased and are not likely to diminish 
over the next 5 years. What has changed is that the President 
directed at least $400 billion in cuts to our military, which 
were reflected in the Budget Control Act.
    Despite the suggestion by some that the strategy evolved 
independent of the President's fiscal guidance, each of the 
military services is making force structure and equipment 
modernization recommendations to Congress based purely on the 
budget and not based on the world security environment.
    For example, there are 54 aircraft in the budget request. 
If procurement continues at this rate, and assuming an aircraft 
lifespan of 25 years, the resulting force structure is 1350 
aircraft, one quarter the size of the current force. I do not 
believe 1350 total Air Force aircraft--bombers, fighters, 
airlift, search and rescue, rotorcraft, and trainers--is in the 
national security interests of this country. And this is 
without the potential of sequestration. Furthermore, the budget 
request does little to mitigate the consequences of aging force 
structure, resulting from the ``procurement holiday'' of the 
1990s. Operation and Maintenance accounts are not increasing to 
sustain and extend these aging platforms.
    Other budget-driven choices include the requested increase 
in TRICARE fees for retirees. Congress addressed this issue at 
length last year and enacted what I consider a reasonable 
approach for managing costs. The Department's proposal would 
increase the fees by 96 percent to 345 percent over a 5-year 
period which, in my opinion, is unreasonable.
    With that said, I am pleased to see that priorities for 
strategic airlift, a new bomber and an airborne tanker have 
been preserved. As well, the Air Force has deliberately elected 
to ensure the percentage of the Air Force's combat and mobility 
forces that are Active Duty will increase after the 
implementation of the force structure changes. This is 
appropriate from a risk perspective. But I believe it is 
important for the Air Force leadership to continue its public 
discussion to better ensure that Guard and Reserve personnel 
fully accept that they have received and will receive equitable 
and fair treatment in this transition process.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

            Fiscal Year 2013 National Defense Authorization

          Budget Request from the Department of the Air Force

                           February 28, 2012

    Mr. Chairman, thank you for holding this hearing today. I 
want to also thank the witnesses, Secretary of the Air Force, 
Michael Donley, and Air Force Chief of Staff, General Norton 
Schwartz, for appearing here today and for their dedicated 
service to our country.
    Earlier this year, the President released the findings of a 
strategic review, which clearly articulated the global threat 
environment, and presented a broad strategy to address those 
threats moving forward. This strategic review appropriately 
places a renewed focus on the critically important Asia-Pacific 
region, which will likely result in an enhanced role for the 
Air Force in our national defense.
    Over the last 10 years, the Air Force has contributed 
greatly to the recently concluded war in Iraq and the ongoing 
war in Afghanistan. The contributions of Air Force personnel 
who have provided air support, transport, reconnaissance, and 
other key functions have been invaluable. Going forward, under 
the new strategic guidance, the Air Force will continue to 
carry out those missions, although the relative balance between 
and the geographic area of focus may change. The budget put 
forth 2 weeks ago will enable the Air Force to continue to be 
the greatest air power in the world.
    I have consistently said that we can rationally evaluate 
our national security strategy, our defense expenditures, and 
the current set of missions we ask the military to undertake 
and come up with a strategy that enhances national security by 
spending taxpayer dollars more wisely and effectively. I 
believe this budget supports that goal as well.
    Overall, the defense budget is also fully consistent with 
the funding levels set by the Budget Control Act passed by 
Congress. Although I did not support this act, many members of 
the House Armed Services Committee did, Congress passed it, and 
the Department of Defense has submitted a budget that complies 
with the congressionally mandated funding levels.
    Over the last few years, with the strong support of the Air 
Force, our military has put together a significant string of 
foreign policy successes, including the death of bin Laden, 
Anwar Al-Awlaki, the elimination of much of Al Qaeda's 
leadership, the end of the war in Iraq, and supporting the 
uprising in Libya. The budget lays out a strategy that will 
enable the United States to build on those successes and 
confront the threats of today as well as in the future.
    I want to thank the witnesses again and I look forward to 
hearing their testimony.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 28, 2012

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH

    Secretary Donley. Based on the December 2011 F-35 Selected 
Acquisition Report (SAR) to Congress, the unit recurring flyaway cost 
numbers for the aircraft we are procuring in FY13 are: $123.2 million 
for the F-35A conventional take-off and landing (CTOL) variant; $155.0 
million for the F-35B short take-off and vertical landing (STOVL) 
variant; and $131.7 million for the F-35C carrier (CV) variant. These 
unit cost numbers account for the ``must fix'' concurrency changes 
(captured in the engineering change order line) but do not account for 
block upgrades. [See page 12.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 28, 2012

=======================================================================

      
                    QUESTION SUBMITTED BY MR. MCKEON

    Mr. McKeon. I am pleased to see the Department has continued 
funding in FY 13 for the T-X Advanced Jet Trainer Replacement Program. 
Replacing the aging T-38s with a new trainer suitable to train pilots 
for 4th and 5th generation fighters such as F-22 and F-35 is critical 
to readiness. The contract award for this program slipped a year in the 
budget from FY 15 to FY 16. Is replacement of the current Air Force 
trainer an important component of USAF readiness and training? Is the 
Air Force committed to moving forward with the T-X program with 
procurement funding in FY 16?
    General Schwartz. [The information was not available at the time of 
printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. What is the Air Force's plan in the FY13-17 FYDP to 
address the aging 707 and C-135 fleet of C2ISR aircraft? Given the 
historical precedent that acquisition programs take many years and that 
the E-8 JSTARS may only continue operations until about 2025, is there 
a plan to start to address this issue?
    General Schwartz. The Air Force continues to sustain/modernize the 
707 and C-135 fleet of C2ISR aircraft. All platforms are considered 
viable through the 2035-2040 timeframe. Airborne Warning and Control 
system (AWACS) Prime Mission Equipment Diminishing Manufacturing Source 
(DMS) and Avionics DMS cockpit issues are being addressed through the 
Block 40/45 and DRAGON programs. The upgrades will ensure AWACS remains 
compliant with military, civil, and international flight certifications 
and flight safety standards.
    Air Combat Command's recently completed Airborne Synthetic Aperture 
Radar/Moving Target Indicator (SAR/MTI) and Joint STARS Mission Area 
Analysis of Alternatives (AoA) evaluated materiel solutions to fulfill 
future overall SAR/MTI requirements. JSTARS Prime Mission Equipment DMS 
and Avionics DMS cockpit issues will be addressed based on the approved 
way-ahead of the AoA. Based on the data from the E-8C Fleet Viability 
Board the E-8C is viable until 2035.
    Mr. Smith. How does the Air Force plan to provide continued support 
to the Army in SAR/GMTI/DMTI mission area?
    General Schwartz. The Air Force is committed to providing continued 
support to the Army to fulfill the ever growing demand for SAR/GMTI/
DMTI data. The Air Force continues to sustain and modernize, as 
required, the E-8C Joint Surveillance Target Attack Radar System 
(JSTARS), fielding Global Hawk Block 40 with Multi-Platform Radar 
Technology Insertion Program (MP-RTIP) with Initial Operational 
Capability 4th quarter FY14, and fielding Dismount Detection Radar 
(DDR) on the MQ-9 in late FY14 to early FY15.
    Mr. Smith. Assuming the retirement of the E-8 JSTARS in 2025, what 
is the Air Force doing to ensure that future ground surveillance radar 
capability will be available to the ground forces and intelligence 
community after that date?
    General Schwartz. Based on the data from the E-8C Fleet Viability 
Board the E-8C is viable until 2035. The Air Force continues to sustain 
the E-8C with necessary Prime Mission Equipment Diminishing 
Manufacturing Source (DMS) and Avionics DMS cockpit upgrades work to 
ensure the E-8C remains compliant with military, civil, and 
international flight certifications and flight safety standards. Air 
Combat Command's recently completed Airborne Synthetic Aperture Radar/
Moving Target Indicator (SAR/MTI) and Joint Surveillance Target Attack 
Radar System Mission Area Analysis of Alternatives (AoA) evaluated 
materiel solutions to fulfill future overall SAR/MTI requirements.
    Mr. Smith. As part of the ongoing analysis of alternatives, has the 
Air Force done a complete cost analysis of all of its alternatives? 
When will Congress see the result of this analysis?
    General Schwartz. Air Combat Command presented the final results of 
the Analysis of Alternatives (AoA) to the Air Force Requirements 
Oversight Council (AFROC) for validation on 30 November 2011. Vice 
Chief of Staff of the Air Force approved the AoA's release on 25 Jan 12 
to the Office of the Secretary of Defense (OSD) Cost Assessment and 
Program Evaluation (CAPE). OSD/CAPE is currently reviewing the final 
report for sufficiency. A complete cost analysis was accomplished on 
the 10 AFROC validated alternatives during the AoA.
    Air Force senior leadership has not made a decision on when the 
data will be released.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MCINTYRE
    Mr. McIntyre. The fiscal year 2012 NDAA requires the Air Force to 
maintain a combat-coded B-1 fleet of 36 aircraft during fiscal years 
2012 and 2013. Does the budget request for FY 2013 include funding to 
comply with this legislative directive?
    General Schwartz. The fiscal year 2012 National Defense 
Authorization Act (NDAA) requires the Air Force to maintain not less 
than 36 B-1 aircraft as combat-coded in a common capability 
configuration. The Air Force will comply with this requirement by 
performing the necessary maintenance actions to keep a minimum of 36 
combat-coded aircraft flyable and mission capable at their respective 
Main Operating Bases. However, since the FY12 NDAA did not provide 
additional funding for the continued operation of the three combat-
coded aircraft planned for retirement, the Air Force prioritized the 
programmed reinvestment of the expected savings in both the B-1 program 
and other department priorities over the restoral of Operation & 
Maintenance funding for flying hours in the FY13 President's Budget 
request. To this end, three combat-coded aircraft will be withheld from 
daily operations until their planned retirement dates as permitted by 
the FY12 NDAA, but these aircraft will remain available to support 
Combatant Commander requirements during the phased retirement period.
    Mr. McIntyre. With the decision to delay procurement of 179 F-35s 
in the FYDP, what steps is the Air Force taking to prevent fighter 
inventory shortfalls in the mid- to long-term?
    General Schwartz. The Air Force is modernizing and extending F-16 
Block 40-52 service life via the Combat Avionics Programmed Extension 
Suite (CAPES) and Service Life Extension Programs (SLEP). The programs 
are planned for 350 aircraft, yet still only programmed for 300 within 
the Future Years Defense Plan. Both programs are scalable and able to 
grow to 650 aircraft if needed. Additionally, the Air Force continues 
to modernize F-15 C/D/Es with system upgrades to include Active 
Electronically Scanned Array (AESA) radars, Eagle Passive Active 
Warning Survivability System (EPAWSS), Eagle Passive Attack Sensor 
System (EPASS), Infrared Search and Track (IRST), Advanced Display Core 
Processor (ADCP) -II, and Beyond Line of Sight (BLOS) radios. 
Additionally, F-22A modernization remains on track and includes 
Synthetic Aperture Radar (SAR) mapping, Small Diameter Bomb (SDB), 
Electronic Protection, Combat ID, AIM-9X, AIM-120D, Link-16 upgrades, 
and Geo-location capability. Finally, the Air Force remains committed 
to the F-35 and procurement of 1,763 Conventional Takeoff and Landing 
(CTOL) variants. The decision to delay procurement was an effort to 
minimize concurrency costs and maximize combat capability when the 
aircraft moves into full rate production in 2019.
    Mr. McIntyre. The committee has been informed that the recent F-22 
scientific advisory board did not determine a root cause of the recent 
hypoxia incidents. What action is the Air Force taking to address the 
risk of future hypoxia events with the F-22?
    General Schwartz. [The information was not available at the time of 
printing.]
    Mr. McIntyre. The Navy has a plan to continue low-rate production 
of the D5 ballistic missile to keep the industrial base healthy. The 
Air Force does not appear to have a similar program for the Minuteman 
III ICBMs. Why not? What are the risks to the ICBM industrial base?
    General Schwartz. The Air Force recognizes the importance of 
maintaining the Intercontinental Ballistic Missile (ICBM) industrial 
base and has programs in place to ensure the Minuteman III remains 
viable through 2030 and to support any follow-on ground based strategic 
deterrent system. The research and development portion of the Solid 
Rocket Motor (SRM) industrial base, exercised as part of ICBM 
Demonstration/Validation (Dem/Val) Propulsion Applications Program 
(PAP), matures SRM technologies for insertion into any future 
propulsion modernization program. The Air Force PAP program exercises 
design and systems engineering skills critical to maintaining a healthy 
SRM industrial base.
    Mr. McIntyre. Just last year the Global Hawk Block 30 program was 
certified as ``essential'' to national security, yet the FY 2013 budget 
request proposes mothballing all of the Global Hawk Block 30 aircraft. 
How can you explain such a dramatic change in the Air Force's position 
on this program?
    General Schwartz. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. I am pleased to see the Department has continued 
funding in FY 13 for the T-X Advanced Jet Trainer Replacement Program. 
Replacing the aging T-38s with a new trainer suitable to train pilots 
for 4th and 5th generation fighters such as F-22 and F-35 is critical 
to readiness. The contract award for this program slipped a year in the 
budget from FY 13 to FY 14. Is replacement of the current Air Force 
trainer an important component of USAF readiness and training? Is the 
Air Force committed to moving forward with the T-X program with 
procurement funding in FY 14?
    Secretary Donley. [The information was not available at the time of 
printing.]
    Mr. Forbes. Submitted on behalf of Congresswoman Cathy McMorris 
Rodgers: In the FY13 proposed budget, the Air Force is proposing to 
purchase only 54 aircraft. How is the Air Force planning to 
recapitalize its aging fleet?
    Secretary Donley. While the Air Force continues to advocate for 
strong investment in recapitalizing our aging fleet, modernizing the 
Air Force during a period of budget decline is a significant challenge. 
In order to address this challenge, we are slowing the pace and scope 
of modernization while protecting programs critical to future 
warfighter needs. Focused investment in high priority programs such as 
the F-35 Joint Strike Fighter, Long Range Strike Bomber, and KC-46A 
refueling tanker is critical to the Department's overall strategy. 
Simultaneously, investment in service life extensions for legacy 
aircraft is necessary to sustain the capacity necessary to meet the new 
Defense Strategic Guidance. The Air Force objective is to mitigate risk 
by addressing recapitalization concerns as aggressively as possible 
within fiscal constraints, while ensuring our existing force structure 
remains ready, capable, and relevant in the near-term. As budget 
pressures ease in future years, the Air Force will be postured to 
resume a more expansive recapitalization effort.
    Mr. Forbes. Submitted on behalf of Congresswoman Cathy McMorris 
Rodgers: Funding for the KC-46A Refueling Tanker is largely preserved 
in the FY2013 Budget. Should sequestration go into effect this year, 
will the KC-46A tanker remain an Air Force priority? What would be the 
effect of sequestration upon the KC-46A tanker program?
    Secretary Donley. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. What is the Air Force's definition of a ``Center,'' as 
the term is used by Air Force Materiel Command to describe commands 
such as the Electronic Systems Center, the Air Armament Center, and the 
Flight Test Center? What functions must be present for a location to be 
designated a ``Center''? Is strategic planning an essential part of a 
Center?
    Secretary Donley. Within the Air Force, a ``Center'' is a named 
unit that performs a specialized mission. A primary characteristic of a 
Center is that it performs most of its mission within a large complex 
at one location and usually has only a few subordinate units. There are 
a number of centers across the Air Force. Other commands outside of Air 
Force Materiel Command use the term ``Center'' such as the Air Force 
Operational Test and Evaluation Center which is a Direct Reporting Unit 
to Headquarters United States Air Force. Aside from the characteristics 
mentioned above, there are no standard functions that must be present 
for an organization to be designated a ``Center''. Additionally, since 
a ``Center'' is a unit that may have functions at multiple locations, 
it is the organization (and not the location) that is designated a 
``Center.'' Strategic planning is not a mandated ``Center'' function, 
but by the nature of their functions, most ``Centers'' do support 
strategic planning, either at the Major Command or Headquarters Air 
Force level.

    Mr. Miller. What is the Air Force's definition of a ``Center,'' as 
the term is used by Air Force Materiel Command to describe commands 
such as the Electronic Systems Center, the Air Armament Center, and the 
Flight Test Center? What functions must be present for a location to be 
designated a ``Center''? Is strategic planning an essential part of a 
Center?
    General Schwartz. Within the Air Force, a ``Center'' is a named 
unit that performs a specialized mission. A primary characteristic of a 
Center is that it performs most of its mission within a large complex 
at one location and usually has only a few subordinate units. There are 
a number of centers across the Air Force. Other commands outside of Air 
Force Materiel Command use the term ``Center'' such as the Air Force 
Operational Test and Evaluation Center which is a Direct Reporting Unit 
to Headquarters United States Air Force. Aside from the characteristics 
mentioned above, there are no standard functions that must be present 
for an organization to be designated a ``Center''. Additionally, since 
a ``Center'' is a unit that may have functions at multiple locations, 
it is the organization (and not the location) that is designated a 
``Center.'' Strategic planning is not a mandated ``Center'' function, 
but by the nature of their functions, most ``Centers'' do support 
strategic planning, either at the Major Command or Headquarters Air 
Force level.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Secretary Donley, what progress has the Air Force 
made in evaluating threats to our bases that rely on civilian power 
sources, and how has the Air Force strengthened its plans for 
alternative energy sources?
    Secretary Donley. The Air Force's dependency on the commercial 
power grid represents a critical asymmetric vulnerability that must be 
mitigated through partnerships with industry, state and local 
governments. The Air Force conducts Critical Asset Risk Assessments 
(CARAs) to identify key critical assets and supporting infrastructure. 
Identification of critical assets focuses within installation 
boundaries, and extends to the first critical infrastructure nodes 
outside perimeters. The Air Force has identified over 900 critical 
assets, and 62 of those are Tier 1 assets, where loss or degradation of 
energy would impact strategic-level missions. Of the 62 Tier 1 assets, 
22 of them are Defense Critical Assets (DCA); the loss of a DCA would 
result in mission failure for the entire Department of Defense (DOD) 
capability.
    To date, the Air Force has completed 30 CARAs (12 in FY11). In 
FY12, there are nine CARAs scheduled. The Air Force expects to complete 
CARAs for all Tier 1 assets by the end of FY13. Eight CARAs have been 
conducted on DCAs and two more are scheduled for FY12. The Air Force is 
also a member of the DOD's Energy Grid Security Executive Council, 
which exists to discuss grid concerns across the Services.
    The Air Force uses the CARA report as a starting point to work with 
the owning organizations to develop risk response plan that identifies 
discrete courses of action to address identified risks. CARA reports 
are provided to Commanders, Major Commands (MAJCOM), Combatant 
Commanders, the Joint Staff, the Assistant Secretary of Defense for 
Homeland Defense and America's Secutity Affairs (ASD(HD&ASA)), 
Headquarters Air Force functional stakeholders, and the Air Force 
Directorate for Air Operations, to inform Commanders' decisions on how 
to apply limited resources, and provide visibility to asset owners and 
mission owners of those issues affecting their roles and 
responsibilities. Decisions on responses to identified risks can be 
made at various levels of the organization. Such decisions may be to 
remediate, mitigate, or following a comprehensive review by leadership 
and evaluation within the corporate process, to accept risk.
    The Air Force also prepares Critical Asset Risk Management (CARM) 
Plans for a select subgroup of critical assets. Of the 17 course of 
action (COA) recommendations developed thus far in the seven CARM Plans 
submitted to ASD(HD&ASA), 3 have been funded at a total Operations and 
Maintenance cost of $250,000, and the corresponding vulnerability to 
the respective critical assets remediated. Remediation is currently in 
progress for two additional COAs, at a total cost of $6.65 million.
    COA examples include installing power generators to provide 
electricity to a critical asset in the event of a power failure or 
developing a continuity of operations plan. Projects addressing risks 
identified in CARA reports can receive higher weighting factors during 
Air Force budgeting process. Additionally, a further six CARM Plans are 
currently in development.
    The ability of the Air Force to ensure continuity of operations is 
dependent upon not only the delivery of reliable and uninterrupted 
energy supplies in the necessary quantities, but also on the 
adaptability of mission platforms to operate on diversified energy 
sources, such as biofuels or synthetic fuels. To assure its energy 
supply, the Air Force has two very ambitious goals in place--to certify 
aircraft to use alternative aviation fuels and to develop on-base 
source of renewable energy. The Air Force is certifying its fleet on 
several alternative aviation fuels to ensure our aircraft could fly on 
commercially available fuels by 2016. Those alternative fuels will need 
to be drop-in fuels that are cost competitive with traditional 
petroleum-based jet fuels, and meet our environmental and technical 
specifications. For the second goal, the Air Force is focused on 
developing on-site sources of renewable energy, particularly those 
sources that can insulate the Air Force from grid failure or other 
supply disruptions, and plans to achieve 1,000 megawatts of on-site 
capacity by 2016. This will largely be accomplished through third-party 
investments and at those installations where renewable energy is 
mission compatible.
    Mr. Langevin. I continue to be concerned about the overall strength 
and size of the nation's cybersecurity workforce. What is the Air Force 
doing to recruit and train airmen with cyberskill and what is it doing 
to encourage them to stay in uniform?
    Secretary Donley. The Air Force, in order to improve the 
identification of future enlisted and officer cyberspace operators 
during the recruitment process, partnered with Navy and the Army in the 
development of a cyber test that could be used as a supplement to the 
Armed Services Vocational Aptitude Battery. At this time, the test has 
been used at selected military entrance processing stations as part of 
a pilot program to test enlisted recruits' cyberspace aptitude. 
However, the results have not yet been used in the selection of a 
recruit's Air Force Specialty Code. Additional work needs to be 
completed to ensure test results identify cyberspace aptitude versus 
simply identifying current skill level and knowledge. The United States 
Air Force Academy and Air Force Reserve Officer Program have also 
created three cyberspace emphasis pre-accessions programs for officers. 
These programs have an annual throughput of 330 future cyberspace 
officers. Additionally, over the last two years, the Air Force has 
implemented 10 separate training programs that have an annual 
throughput of over 2,600 cyberspace operators. Finally, in regards to 
the retention of our cyberspace enlisted career fields, as of October 
2011, 5 Air Force Specialty Codes have varying levels of retention 
bonuses, which are used to encourage re-enlistment. Currently, no 
incentive programs are used to retain the officer and civilian 
cyberspace populations.

    Mr. Langevin. General Schwartz, I recently visited 24th Air Force 
at Lackland Air Force Base and was very impressed with its operations. 
We have clearly made great strides in our ability to impact the cyber 
domain, but as I am sure you agree, we must continue to innovate and 
transform in order to maintain and expand that ability. In your view, 
what must the Air Force do next in order to ensure the ability of its 
networks to support Full Spectrum Operations?
    General Schwartz. The Air Force contributes to the Joint force by 
developing, integrating, and operating cyberspace capabilities in three 
mission areas: support, defense, and offense. Future capabilities will 
enable effects across the full spectrum of operations.
    <bullet>  The Air Force Cyberspace Superiority Core Function Master 
Plan specifies nine capabilities that require programmatic actions to 
evolve the force from its current capability state: Passive Defense, 
Defensive Counter Cyberspace, Intelligence, Surveillance and 
Reconnaissance & Situational Awareness, Persistent Network Operations, 
Data Confidentiality & Integrity Systems, Cyberspace Air Operations 
Center, Offensive Counter Cyberspace for Global Reach and Access, 
Contingency Extension, and Influence Operations.
    <bullet>  A shift in mindsets from support to operations will 
foster greater concentration of effort. Air Force members will 
understand their contributions to the joint fight. The shift in mindset 
will engender greater operational integration across all warfighting 
domains.
    <bullet>  Attaining the Cyberspace Superiority Core Function Master 
Plan's specified capabilities and shifting from a support to 
operational mindset sets the conditions for attaining partnership 
capabilities. Partnerships with other governmental agencies, industry, 
allies, and partners, will enhance mission effectiveness. The ability 
to integrate and leverage partnerships will underpin force projection 
in all domains. The Air Force will invest as required to ensure its 
ability to operate effectively and enhance the resiliency and 
effectiveness of critical cyber capabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. The President established a modernization plan in the 
1251 plan and the 2010 NPR. The FY13 budget, after the New START treaty 
was ratified, is backing off those plans. Let me review the list, the 
B61 gravity bomb is 2 years delayed; the associated tail kit is late, 
and we understand that certain high-accuracy options are not being 
looked at; the W78 warhead is being pushed back, and certain 
modernization options have been arbitrarily taken off the table; the 
new bomber, won't be nuclear-certified at the outset, and new cruise 
missile are late by at least 2 years; and the plan for the 
modernization of the Minute Man III appears to be lacking commitment. 
Further we hear all of these programs are dependent on the President's 
review--the so-called mini-NPR--about which this Committee has been 
completely shut out by the White House.
    1) Can you assure us that the Air Force has an iron-clad, no-
caveat, commitment to field a new ICBM, to field a new nuclear-capable 
bomber and cruise missile? Will this commitment change as a result of 
the Administration's mini-NPR?
    2) Why would the plan to implement the New START treaty, which was 
ratified in 2010, depend on the President's mini-NPR which is being 
conducted in complete secrecy from the Congress?
    3) Secretary Panetta promised to assist this committee in oversight 
of the nuclear war plan, in fact promising read-ins last December, but 
nothing has happened since then. What accesses do you have to the so-
called 8010 plan? How many Air Force personnel have access to that 
plan? Tens? Hundreds? More?
    a. Does it surprise you that the Department is denying any access 
to that plan to the Congress? Understand that we're told that the 
Administration may be considering 80% reductions in the nuclear force, 
and no one in Congress has been allowed to see the plan.
    Secretary Donley. The President's fiscal year 2013 (FY13) Budget 
reflects the Air Force's continued commitment to invest in the enduring 
and compelling attributes the Nation needs for a safe, secure and 
effective nuclear deterrent force. The Air Force fully funded and is 
conducting the materiel solution analysis to identify the options for 
both a follow-on Intercontinental Ballistic Missile system and a cruise 
missile to follow the Air Launch Cruise Missile. Reports are expected 
to be completed in FY14. A nuclear-capable Long Range Strike Bomber is 
also funded in the Presidents FY13 budget. The Administration's post-
Nuclear Posture Review (NPR) analysis has not altered these 
commitments.
    Air Force plans to implement New Strategic Arms Reduction Treaty 
(START) are not dependent on current Post-NPR analysis efforts 
underway. As stated in the 2010 NPR, the Administration is conducting 
follow-on analysis to set goals for future nuclear reductions below the 
levels in New START. Although a final New START force structure 
decision has not been made, the Air Force has fully funded NST 
implementation actions to achieve the baseline force structure as 
outlined in the National Defense Authorization Act Section 1251 Report: 
240 deployed submarine launched ballistic missiles on 14 strategic 
nuclear submarines, up to 420 deployed intercontinental ballistic 
missiles and up to 60 deployed nuclear-capable heavy bombers.
    As a Service component to United States Strategic Command 
(USSTRATCOM) responsible for providing assets and capabilities required 
for execution, several echelons of the Air Force have access to 
Operational Plan 8010. Since this is a USSTRATCOM plan, the Air Force 
defers to USSTRATCOM and the Office of the Secretary of Defense 
regarding your concerns in this question.
    Mr. Turner. In your statement you emphasize the need to continue to 
strengthen our global ISR infrastructure. Clearly, the development and 
use of remotely piloted aircraft (RPAs) play an integral role in that 
infrastructure, yet there are a very limited number of areas where 
these systems can be freely tested. With the military operations 
overseas winding down, there is an increasing need to integrate 
remotely piloted aircraft (RPAs) into the national airspace system 
(NAS). Working with the FAA and NASA, the Air Force Research Laboratory 
(AFRL) is leading the charge within the Air Force in developing the 
future technology for the safe operation of RPAs in the national 
airspace. Can you provide an update on the effort? What steps are 
needed to strengthen this relationship so that the full research 
capabilities of AFRL can be teamed with the FAA and NASA to solve the 
challenges of RPA integration into the NAS which is so central to the 
future of U.S. aerospace? Would additional authorities specifically to 
leverage the work of the Air Force, FAA, and NASA as a goal to shorten 
the time to integrate RPAs be valuable to the Air Force?
    Secretary Donley. The Air Force is working both airborne (long 
term) and ground based (near term) sense and avoid programs to 
integrate remotely piloted aircraft (RPAs) into the national airspace 
system (NAS). We have been working technology development in this area 
for 10 years and are transitioning those technologies to acquisition 
over the next several years. As a key milestone, we plan to complete 
our ground based proof of concept demonstration in mid-2012 and 
complete certification of the system approximately 18 months later. 
Once certification is complete, this system will enable more routine 
access to portions of the NAS and enhance our readiness. Equally 
important, we are developing the required Department of Defense 
certification standards for those components unique to RPAs. Additional 
authorities: The Federal Aviation Administration (FAA's) Unmanned 
Aircraft Systems airspace integration and test site mandate in both the 
2011 National Defense Authorization Act and the FAA Reform and 
Modernization Act is a significant step forward to both expand 
technology and establish performance standards needed for full RPA 
integration. The involvement of both industry and academia will further 
serve to safely advance UAS/RPA access nationally and internationally. 
The Air Force believes that coordinated oversight of the overarching 
research and development objectives between FAA, National Aeronautics 
and Space Administration and Air Force Research Laboratory is vital to 
effectively meet the legislated 2015 deadline for RPA integration into 
the National Airspace System.
    Mr. Turner. The Air Force Institute of Technology (AFIT) is the 
primary post-secondary education institution for the Air Force and it 
has educated numerous senior leaders for the Air Force, particularly in 
specialized scientific and technical disciplines required for modern 
aeronautical warfare. In this increasingly tight budget environment, I 
am deeply concerned that AFIT, which represents an investment in the 
future of the Air Force, will be given a lower priority in light of 
short-term needs. Can you assure me that the Air Force remains 
committed to offering future leaders the kind of advanced technical 
degrees that AFIT provides?
    Secretary Donley. The Air Force is committed to continuing to offer 
advanced technical degrees to future leaders via the Air Force 
Institute of Technology (AFIT). Air Force senior leaders have become 
intimately involved in determining the proper educational development 
for the officers within their career fields. Advanced academic degrees 
are the means to fulfill this critical piece of the officer 
developmental equation. Air Force senior leaders place increased 
emphasis on providing officers with the right education, particularly 
in specialized scientific and technical disciplines, AFIT becomes an 
invaluable capability the Air Force can use to achieve this objective.
    AFIT offers advanced academic degree opportunities in programs that 
meet the critical Air Force and Department of Defense (DOD) needs. 
Their faculty and students are engaged in research on the cutting edge 
of technology, which allows the students to work on projects that will 
advance the technical exploitations of the DOD. Given our fiscally 
challenged environment, we plan to do everything possible to leverage 
this educational advantage as a means of stretching our dollars to 
obtain maximum benefits. Policies are in place that require efficient 
use of educational assets to help ensure the continued viability of 
AFIT.
    Mr. Turner. The fiscal year 2011 National Defense Authorization Act 
included an amendment I offered that would allow the Air Force 
Institute of Technology (AFIT) to enroll up to 125 civilians on a 
space-available basis. This is similar to authority granted other 
defense schools. I have asked repeatedly over the past year when this 
new policy will be implemented and have been told ``soon.'' We are now 
working on the FY13 NDAA. Could you let us know when you anticipate 
implementing the provision and what is causing the delay?
    Secretary Donley. The Title 10 language clearly requires permission 
by Secretary of the Air Force to admit defense industry employees as 
students. The Air Force Institute of Technology (AFIT) has developed 
the strategy and policy needed to manage this new student base and has 
coordinated the draft language with senior Air Force leadership, 
including our legal staff. A staff package implementing this program is 
currently in coordination for Secretary of the Air Force signature. The 
implementation guidance gives AFIT permission to proceed and delegates 
authority for annual reviews to the AFIT Commandant. We do not 
anticipate any further delays and expect to enroll defense industry 
employees in our September 2012 class.
    Mr. Turner. In your statement you emphasize the need to continue to 
strengthen our global ISR infrastructure. Clearly, the development and 
use of remotely piloted aircraft (RPAs) play an integral role in that 
infrastructure, yet there are a very limited number of areas where 
these systems can be freely tested. With the military operations 
overseas winding down, there is an increasing need to integrate 
remotely piloted aircraft (RPAs) into the national airspace system 
(NAS). Working with the FAA and NASA, the Air Force Research Laboratory 
(AFRL) is leading the charge within the Air Force in developing the 
future technology for the safe operation of RPAs in the national 
airspace. Can you provide an update on the effort? What steps are 
needed to strengthen this relationship so that the full research 
capabilities of AFRL can be teamed with the FAA and NASA to solve the 
challenges of RPA integration into the NAS which is so central to the 
future of U.S. aerospace? Would additional authorities specifically to 
leverage the work of the Air Force, FAA, and NASA as a goal to shorten 
the time to integrate RPAs be valuable to the Air Force?
    Secretary Donley. The Air Force is working both airborne (long 
term) and ground based (near term) sense and avoid programs to 
integrate remotely piloted aircraft (RPAs) into the national airspace 
system (NAS). We have been working technology development in this area 
for 10 years and are transitioning those technologies to acquisition 
over the next several years. As a key milestone, we plan to complete 
our ground based proof of concept demonstration in mid-2012 and 
complete certification of the system approximately 18 months later. 
Once certification is complete, this system will enable more routine 
access to portions of the NAS and enhance our readiness. Equally 
important, we are developing the required Department of Defense 
certification standards for those components unique to RPAs. Additional 
authorities: The Federal Aviation Administration (FAA's) Unmanned 
Aircraft Systems airspace integration and test site mandate in both the 
2011 National Defense Authorization Act and the FAA Reform and 
Modernization Act is a significant step forward to both expand 
technology and establish performance standards needed for full RPA 
integration. The involvement of both industry and academia will further 
serve to safely advance UAS/RPA access nationally and internationally. 
The Air Force believes that coordinated oversight of the overarching 
research and development objectives between FAA, National Aeronautics 
and Space Administration and Air Force Research Laboratory is vital to 
effectively meet the legislated 2015 deadline for RPA integration into 
the National Airspace System.
    Mr. Turner. The Air Force Institute of Technology (AFIT) is the 
primary post-secondary education institution for the Air Force and it 
has educated numerous senior leaders for the Air Force, particularly in 
specialized scientific and technical disciplines required for modern 
aeronautical warfare. In this increasingly tight budget environment, I 
am deeply concerned that AFIT, which represents an investment in the 
future of the Air Force, will be given a lower priority in light of 
short-term needs. Can you assure me that the Air Force remains 
committed to offering future leaders the kind of advanced technical 
degrees that AFIT provides?
    Secretary Donley. The Air Force is committed to continuing to offer 
advanced technical degrees to future leaders via the Air Force 
Institute of Technology (AFIT). Air Force senior leaders have become 
intimately involved in determining the proper educational development 
for the officers within their career fields. Advanced academic degrees 
are the means to fulfill this critical piece of the officer 
developmental equation. Air Force senior leaders place increased 
emphasis on providing officers with the right education, particularly 
in specialized scientific and technical disciplines, AFIT becomes an 
invaluable capability the Air Force can use to achieve this objective.
    AFIT offers advanced academic degree opportunities in programs that 
meet the critical Air Force and Department of Defense (DOD) needs. 
Their faculty and students are engaged in research on the cutting edge 
of technology, which allows the students to work on projects that will 
advance the technical exploitations of the DOD. Given our fiscally 
challenged environment, we plan to do everything possible to leverage 
this educational advantage as a means of stretching our dollars to 
obtain maximum benefits. Policies are in place that require efficient 
use of educational assets to help ensure the continued viability of 
AFIT.

    Mr. Turner. The President established a modernization plan in the 
1251 plan and the 2010 NPR. The FY13 budget, after the New START treaty 
was ratified, is backing off those plans. Let me review the list, the 
B61 gravity bomb is 2 years delayed; the associated tail kit is late, 
and we understand that certain high-accuracy options are not being 
looked at; the W78 warhead is being pushed back, and certain 
modernization options have been arbitrarily taken off the table; the 
new bomber, won't be nuclear-certified at the outset, and new cruise 
missile are late by at least 2 years; and the plan for the 
modernization of the Minute Man III appears to be lacking commitment. 
Further we hear all of these programs are dependent on the President's 
review--the so-called mini-NPR--about which this Committee has been 
completely shut out by the White House.
    1) Can you assure us that the Air Force has an iron-clad, no-
caveat, commitment to field a new ICBM, to field a new nuclear-capable 
bomber and cruise missile? Will this commitment change as a result of 
the Administration's mini-NPR?
    2) Why would the plan to implement the New START treaty, which was 
ratified in 2010, depend on the President's mini-NPR which is being 
conducted in complete secrecy from the Congress?
    3) Secretary Panetta promised to assist this committee in oversight 
of the nuclear war plan, in fact promising read-ins last December, but 
nothing has happened since then. What accesses do you have to the so-
called 8010 plan? How many Air Force personnel have access to that 
plan? Tens? Hundreds? More?
    a. Does it surprise you that the Department is denying any access 
to that plan to the Congress? Understand that we're told that the 
Administration may be considering 80% reductions in the nuclear force, 
and no one in Congress has been allowed to see the plan.
    General Schwartz. The President's fiscal year 2013 (FY13) Budget 
reflects the Air Force's continued commitment to invest in the enduring 
and compelling attributes the Nation needs for a safe, secure and 
effective nuclear deterrent force. The Air Force fully funded and is 
conducting the materiel solution analysis to identify the options for 
both a follow-on Intercontinental Ballistic Missile system and a cruise 
missile to follow the Air Launch Cruise Missile. Reports are expected 
to be completed in FY14. A nuclear-capable Long Range Strike Bomber is 
also funded in the Presidents FY13 budget. The Administration's post-
Nuclear Posture Review (NPR) analysis has not altered these 
commitments.
    Air Force plans to implement New Strategic Arms Reduction Treaty 
(START) are not dependent on current Post-NPR analysis efforts 
underway. As stated in the 2010 NPR, the Administration is conducting 
follow-on analysis to set goals for future nuclear reductions below the 
levels in New START. Although a final New START force structure 
decision has not been made, the Air Force has fully funded NST 
implementation actions to achieve the baseline force structure as 
outlined in the National Defense Authorization Act Section 1251 Report: 
240 deployed submarine launched ballistic missiles on 14 strategic 
nuclear submarines, up to 420 deployed intercontinental ballistic 
missiles and up to 60 deployed nuclear-capable heavy bombers.
    As a Service component to United States Strategic Command 
(USSTRATCOM) responsible for providing assets and capabilities required 
for execution, several echelons of the Air Force have access to 
Operational Plan 8010. Since this is a USSTRATCOM plan, the Air Force 
defers to USSTRATCOM and the Office of the Secretary of Defense 
regarding your concerns in this question.
    Mr. Turner. In your statement you emphasize the need to continue to 
strengthen our global ISR infrastructure. Clearly, the development and 
use of remotely piloted aircraft (RPAs) play an integral role in that 
infrastructure, yet there are a very limited number of areas where 
these systems can be freely tested. With the military operations 
overseas winding down, there is an increasing need to integrate 
remotely piloted aircraft (RPAs) into the national airspace system 
(NAS). Working with the FAA and NASA, the Air Force Research Laboratory 
(AFRL) is leading the charge within the Air Force in developing the 
future technology for the safe operation of RPAs in the national 
airspace. Can you provide an update on the effort? What steps are 
needed to strengthen this relationship so that the full research 
capabilities of AFRL can be teamed with the FAA and NASA to solve the 
challenges of RPA integration into the NAS which is so central to the 
future of U.S. aerospace? Would additional authorities specifically to 
leverage the work of the Air Force, FAA, and NASA as a goal to shorten 
the time to integrate RPAs be valuable to the Air Force?
    General Schwartz. The Air Force is working both airborne (long 
term) and ground based (near term) sense and avoid programs to 
integrate remotely piloted aircraft (RPAs) into the national airspace 
system (NAS). We have been working technology development in this area 
for 10 years and are transitioning those technologies to acquisition 
over the next several years. As a key milestone, we plan to complete 
our ground based proof of concept demonstration in mid-2012 and 
complete certification of the system approximately 18 months later. 
Once certification is complete, this system will enable more routine 
access to portions of the NAS and enhance our readiness. Equally 
important, we are developing the required Department of Defense 
certification standards for those components unique to RPAs. Additional 
authorities: The Federal Aviation Administration (FAA's) Unmanned 
Aircraft Systems airspace integration and test site mandate in both the 
2011 National Defense Authorization Act and the FAA Reform and 
Modernization Act is a significant step forward to both expand 
technology and establish performance standards needed for full RPA 
integration. The involvement of both industry and academia will further 
serve to safely advance UAS/RPA access nationally and internationally. 
The Air Force believes that coordinated oversight of the overarching 
research and development objectives between FAA, National Aeronautics 
and Space Administration and Air Force Research Laboratory is vital to 
effectively meet the legislated 2015 deadline for RPA integration into 
the National Airspace System.
    Mr. Turner. The Air Force Institute of Technology (AFIT) is the 
primary post-secondary education institution for the Air Force and it 
has educated numerous senior leaders for the Air Force, particularly in 
specialized scientific and technical disciplines required for modern 
aeronautical warfare. In this increasingly tight budget environment, I 
am deeply concerned that AFIT, which represents an investment in the 
future of the Air Force, will be given a lower priority in light of 
short-term needs. Can you assure me that the Air Force remains 
committed to offering future leaders the kind of advanced technical 
degrees that AFIT provides?
    General Schwartz. The Air Force is committed to continuing to offer 
advanced technical degrees to future leaders via the Air Force 
Institute of Technology (AFIT). Air Force senior leaders have become 
intimately involved in determining the proper educational development 
for the officers within their career fields. Advanced academic degrees 
are the means to fulfill this critical piece of the officer 
developmental equation. Air Force senior leaders place increased 
emphasis on providing officers with the right education, particularly 
in specialized scientific and technical disciplines; AFIT becomes an 
invaluable capability the Air Force can use to achieve this objective.
    AFIT offers advanced academic degree opportunities in programs that 
meet the critical Air Force and Department of Defense (DOD) needs. 
Their faculty and students are engaged in research on the cutting edge 
of technology, which allows the students to work on projects that will 
advance the technical exploitations of the DOD. Given our fiscally 
challenged environment, we plan to do everything possible to leverage 
this educational advantage as a means of stretching our dollars to 
obtain maximum benefits. Policies are in places that require efficient 
use of educational assets to help ensure the continued viability of 
AFIT.
    Mr. Turner. The fiscal year 2011 National Defense Authorization Act 
included an amendment I offered that would allow the Air Force 
Institute of Technology (AFIT) to enroll up to 125 civilians on a 
space-available basis. This is similar to authority granted other 
defense schools. I have asked repeatedly over the past year when this 
new policy will be implemented and have been told ``soon.'' We are now 
working on the FY13 NDAA. Could you let us know when you anticipate 
implementing the provision and what is causing the delay?
    General Schwartz. The Air Force is committed to continuing to offer 
advanced technical degrees to future leaders via the Air Force 
Institute of Technology (AFIT). Air Force senior leaders have become 
intimately involved in determining the proper educational development 
for the officers within their career fields. Advanced academic degrees 
are the means to fulfill this critical piece of the officer 
developmental equation. Air Force senior leaders place increased 
emphasis on providing officers with the right education, particularly 
in specialized scientific and technical disciplines; AFIT becomes an 
invaluable capability the Air Force can use to achieve this objective.
    AFIT offers advanced academic degree opportunities in programs that 
meet the critical Air Force and Department of Defense (DOD) needs. 
Their faculty and students are engaged in research on the cutting edge 
of technology, which allows the students to work on projects that will 
advance the technical exploitations of the DOD. Given our fiscally 
challenged environment, we plan to do everything possible to leverage 
this educational advantage as a means of stretching our dollars to 
obtain maximum benefits. Policies are in places that require efficient 
use of educational assets to help ensure the continued viability of 
AFIT.
    Mr. Turner. As an estimate, how much of the development and 
procurement costs associated with the long range strike bomber can be 
associated with making it nuclear-capable and nuclear-certified? What 
percentage of the total development and procurement costs is this? Does 
the Air Force plan to buy additional aircraft for the nuclear mission, 
or would the same number of aircraft be procured if the bomber were 
only for conventional missions?
    General Schwartz. As directed by the Secretary of Defense, the Long 
Range Strike Bomber program was started in Fiscal Year 2012. The Air 
Force recently began the process of building detailed cost estimates 
for the development, procurement, and sustainment of the Long Range 
Strike Bomber. We are working closely with the nuclear centers of 
excellence to understand the stringent nuclear design and certification 
requirements to inform these cost estimates. Upon completion, we will 
fully disclose the requested information within appropriate channels.
    The Air Force plans to field 80-100 nuclear-capable Long Range 
Strike Bombers beginning in the mid-2020s by leveraging mature 
technologies and making capability tradeoffs to hold down procurement 
costs. The $550 million average procurement unit cost (Base Year 2010) 
includes sufficient funding to make the bombers survivable in a nuclear 
environment and capable of nuclear weapons employment. The Long Range 
Strike Bomber will be certified for nuclear operations in time to meet 
USSTRATCOM's nuclear force structure requirements.
    Mr. Turner. The Navy has a continuous low-rate production program 
for D5 ballistic missiles to keep the industrial base healthy and 
responsive. The Air Force does not have a similar program for Minuteman 
III ICBMs--why not? What are the risks of this approach?
    General Schwartz. The Air Force recognizes the importance of 
maintaining the Intercontinental Ballistic Missile (ICBM) industrial 
base and has programs in place to ensure the Minuteman III remains 
viable through 2030 and to support any follow-on ground based strategic 
deterrent system. The research and development portion of the Solid 
Rocket Motor (SRM) industrial base, exercised as part of ICBM 
Demonstration/Validation (Dem/Val) Propulsion Applications Program 
(PAP), matures SRM technologies for insertion into any future 
propulsion modernization program. The Air Force PAP program exercises 
design and systems engineering skills critical to maintaining a healthy 
SRM industrial base.
    Mr. Turner. Does the FY12 request include funds to make the F-35 
Joint Strike Fighter dual-capable (to carry nuclear payloads)? When is 
the F-35 expected to be fully nuclear-capable and nuclear-certified? 
Have the estimated costs for this nuclear-capable retrofit increased, 
and if so, is that a lesson for the new bomber (i.e., to make it 
nuclear-capable from the outset)?
    General Schwartz. The JSF Operational Requirement Document (ORD) 
directed the F-35 program to incorporate Dual Capable Aircraft (DCA) 
capability in the first post-System Development and Demonstration (SDD) 
block upgrade, Block 4, currently projected to field in the 2021 
timeframe. The Air Force fully supports our commitment to our NATO 
partners to provide forward deployed DCA capable fighters in European 
Command (EUCOM), and is reviewing available options to maintain DCA 
requirements in the European theatre by other means until nuclear 
capable F-35As are ready to assume the mission.
    In the President's Budget 2013, the Air Force chose to defer 
further dual capable aircraft (DCA) funding. The Air Force made this 
decision based on several factors:
    1) Uncertainty in the F-35 Block 4 delivery timeline and associated 
candidate list due to congressional marks on F-35 Follow-on Development 
funding and F-35 SDD re-plan activities
    2) Uncertainty in the B61 Life Extension Program (LEP) approach and 
timeline; the B61 LEP is a joint DOD/DoE effort that will provide a 
digital nuclear weapon capability that can be integrated on the F-35A
    3) The ability to mitigate delays in F-35A DCA capability through 
Service Life Extension Programs (SLEP) for legacy aircraft
    The Air Force fully supports the commitment to provide forward 
deployed DCA capable fighters and is reassessing DCA need dates and 
development timelines. To mitigate potential future hardware changes 
and retrofit costs, DCA basic provisions, to include power, wiring, 
cooling, and weapons bay volume, were accounted for in the current F-
35A design. Should the Department of Defense decide to fund for F-35A 
DCA integration in PB 14, funding will total $309M across the Future 
Years Defense Plan. Including fiscal year 2012 funding and additional 
funding in fiscal year 2019+, the total DCA cost is still anticipated 
to be $339M.
    Mr. Turner. Please describe the Air Force's plans for a follow-on 
to the nuclear-capable Air Launched Cruise Missile (ALCM). When is such 
a capability needed and what is the anticipated total quantity and cost 
needed? Why has the program been delayed?
    General Schwartz. Long Range Standoff (LRSO) is the Air Force's 
plan for the follow-on to the nuclear-capable Air Launched Cruise 
Missile (ALCM). The need date is based on survivability of the ALCM, to 
mitigate risk to this validated capability requirement. The Air Force 
is currently executing an Analysis of Alternatives (AoA) to determine 
the best materiel solution to meet the future need in a quantity 
required by the combatant commanders. Affordability is one factor to be 
assessed during the AoA. Potential options under analysis range from 
modification of existing inventory to new weapon system development. 
Once the AoA is complete, the Air Force will be able to determine 
options that best provide our Nation a safe, secure and effective 
nuclear deterrent in the 21st Century.
    The Long Range Stand-Off (LRSO) AoA, which began in August 2011, 
continues and is scheduled to be completed in early fiscal year 2013 
(FY13). The LRSO program was delayed until FY15. This delay was driven 
by necessary adjustments within the current fiscally-constrained 
environment.
    Mr. Turner. The Air Force plans to spend $80 million in FY13 on 
development of the tail kit for the B61-12, the life-extended nuclear 
gravity bomb. The National Nuclear Security Administration has delayed 
production of the first B61-12 by 2 years, to FY2019. How does this 
affect the Air Force's plans for the tail kit? Is the Air Force 
comfortable with National Nuclear Security Administration's decision to 
delay the B61-12 by 2 years? What risks are there in this delay? Is 
there any more room for schedule slippage, or have we taken all of the 
flexibility out of the schedule? Please provide a classified response 
detailing the technical requirements for the new tail kit as compared 
to the technical requirements of the current B61; how will the CEPs of 
the B61 mods differ?
    General Schwartz. The new schedule for the first production unit 
was incorporated into the B61-12 Tailkit Assembly (TKA) Service Cost 
Position/Independent Cost Estimate and is reflected in the FY13 
President's Budget. The tail kit development schedule was extended so 
it remains in synch with the National Nuclear Security Administration's 
(NNSA) schedule.
    The Air Force is comfortable with NNSA's decision to delay the B61-
12 by two years. The Department of Defense (DOD) and the Department of 
Energy (DoE) conducted an integrated schedule review to ensure both 
efforts remain synchronized.
    This delay adds schedule risk to the program, as legacy B61s 
continue to age and must be replaced. As a result, flexibility has been 
removed. Mitigation efforts have already been implemented to extend the 
life of legacy B61s so that the B61-12 can be fielded before they 
retire. Further life extensions of the legacy stockpile may be 
possible, but they would likely be very expensive and difficult to 
execute.
    A classified response will be forwarded separately detailing the 
technical requirements for the new tail kit as compared to the 
technical requirements of the current B61.
    Mr. Turner. Will the next-generation bomber be built to meet 
nuclear-hardening requirements? Will nuclear certification of the next-
generation bombers be delayed after initial operational capability is 
achieved--if so, when would nuclear certification be expected? What are 
the costs and risks for delaying certification of a nuclear-capable 
bomber?
    General Schwartz. Yes, the Long Range Strike Bomber will meet 
nuclear-hardening requirements in accordance with current military 
standards.
    Currently, nuclear certification is planned after the Long Range 
Strike Bomber has met initial operational capability. The Long Range 
Strike Bomber will achieve nuclear certification in time to meet United 
States Strategic Command's (USSTRATCOM) nuclear force structure 
requirements. USSTRATCOM is integrally involved with the Air Force in 
this process to ensure the U.S. nuclear deterrent force will remain 
credible and effective.
    Delaying nuclear certification until after conventional 
certification reduces the costs and risks to the Long Range Strike 
Bomber program because it minimizes concurrency during baseline program 
integration and test activities. It also ensures sufficient, production 
representative test assets are available for a dedicated nuclear 
certification effort.
    Mr. Turner. In your statement you emphasize the need to continue to 
strengthen our global ISR infrastructure. Clearly, the development and 
use of remotely piloted aircraft (RPAs) play an integral role in that 
infrastructure, yet there are a very limited number of areas where 
these systems can be freely tested. With the military operations 
overseas winding down, there is an increasing need to integrate 
remotely piloted aircraft (RPAs) into the national airspace system 
(NAS). Working with the FAA and NASA, the Air Force Research Laboratory 
(AFRL) is leading the charge within the Air Force in developing the 
future technology for the safe operation of RPAs in the national 
airspace. Can you provide an update on the effort? What steps are 
needed to strengthen this relationship so that the full research 
capabilities of AFRL can be teamed with the FAA and NASA to solve the 
challenges of RPA integration into the NAS which is so central to the 
future of U.S. aerospace? Would additional authorities specifically to 
leverage the work of the Air Force, FAA, and NASA as a goal to shorten 
the time to integrate RPAs be valuable to the Air Force?
    General Schwartz. The Air Force is working both airborne (long 
term) and ground based (near term) sense and avoid programs to 
integrate remotely piloted aircraft (RPAs) into the national airspace 
system (NAS). We have been working technology development in this area 
for 10 years and are transitioning those technologies to acquisition 
over the next several years. As a key milestone, we plan to complete 
our ground based proof of concept demonstration in mid-2012 and 
complete certification of the system approximately 18 months later. 
Once certification is complete, this system will enable more routine 
access to portions of the NAS and enhance our readiness. Equally 
important, we are developing the required Department of Defense 
certification standards for those components unique to RPAs. Additional 
authorities: The Federal Aviation Administration (FAA's) Unmanned 
Aircraft Systems airspace integration and test site mandate in both the 
2011 National Defense Authorization Act and the FAA Reform and 
Modernization Act is a significant step forward to both expand 
technology and establish performance standards needed for full RPA 
integration. The involvement of both industry and academia will further 
serve to safely advance UAS/RPA access nationally and internationally. 
The Air Force believes that coordinated oversight of the overarching 
research and development objectives between FAA, National Aeronautics 
and Space Administration and Air Force Research Laboratory is vital to 
effectively meet the legislated 2015 deadline for RPA integration into 
the National Airspace System.
    Mr. Turner. The Air Force Institute of Technology (AFIT) is the 
primary post-secondary education institution for the Air Force and it 
has educated numerous senior leaders for the Air Force, particularly in 
specialized scientific and technical disciplines required for modern 
aeronautical warfare. In this increasingly tight budget environment, I 
am deeply concerned that AFIT, which represents an investment in the 
future of the Air Force, will be given a lower priority in light of 
short-term needs. Can you assure me that the Air Force remains 
committed to offering future leaders the kind of advanced technical 
degrees that AFIT provides?
    General Schwartz. The Air Force is committed to continuing to offer 
advanced technical degrees to future leaders via the Air Force 
Institute of Technology (AFIT). Air Force senior leaders have become 
intimately involved in determining the proper educational development 
for the officers within their career fields. Advanced academic degrees 
are the means to fulfill this critical piece of the officer 
developmental equation. Air Force senior leaders place increased 
emphasis on providing officers with the right education, particularly 
in specialized scientific and technical disciplines, AFIT becomes an 
invaluable capability the Air Force can use to achieve this objective.
    AFIT offers advanced academic degree opportunities in programs that 
meet the critical Air Force and Department of Defense (DOD) needs. 
Their faculty and students are engaged in research on the cutting edge 
of technology, which allows the students to work on projects that will 
advance the technical exploitations of the DOD. Given our fiscally 
challenged environment, we plan to do everything possible to leverage 
this educational advantage as a means of stretching our dollars to 
obtain maximum benefits. Policies are in place that require efficient 
use of educational assets to help ensure the continued viability of 
AFIT.
    Mr. Turner. The fiscal year 2011 National Defense Authorization Act 
included an amendment I offered that would allow the Air Force 
Institute of Technology (AFIT) to enroll up to 125 civilians on a 
space-available basis. This is similar to authority granted other 
defense schools. I have asked repeatedly over the past year when this 
new policy will be implemented and have been told ``soon.'' We are now 
working on the FY13 NDAA. Could you let us know when you anticipate 
implementing the provision and what is causing the delay?
    General Schwartz. The Title 10 language clearly requires permission 
by Secretary of the Air Force to admit defense industry employees as 
students. The Air Force Institute of Technology (AFIT) has developed 
the strategy and policy needed to manage this new student base and has 
coordinated the draft language with senior Air Force leadership, 
including our legal staff. A staff package implementing this program is 
currently in coordination for Secretary of the Air Force signature. The 
implementation guidance gives AFIT permission to proceed and delegates 
authority for annual reviews to the AFIT Commandant. We do not 
anticipate any further delays and expect to enroll defense industry 
employees in our September 2012 class.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Will the divesture of the C-27J have a logistical 
impact on the supply chain in theater and if so, what will the impact 
be?
    Secretary Donley. No, divestiture of the C-27J will not impact the 
supply chain in-theater as the C-130 has sufficient airlift capability 
and capacity. The Air Force remains committed to providing this support 
to the Army.
    Ms. Bordallo. Could either of you explain in more detail why you 
proposed a larger cut in Air Guard & Reserve forces, than you did in 
Active Duty forces?
    Secretary Donley. The Air Force FY13 Budget Request achieves $8.7 
billion in savings across the Active and Reserve Components by retiring 
over 200 aircraft in FY13 and nearly 300 aircraft over the FYDP, 
consistent with the new strategic guidance. Our programmed force 
reductions are wide ranging and affect over 60 installations. Without 
the Total Force re-missioning actions our plan would have significantly 
affected 24 units and left eight installations without an Air Force 
presence. After specific efforts to reallocate Air Force missions to 
locations affected by force structure reductions, we were able to 
preserve 14 squadron level units and leave only one installation 
without an operational mission. With the re-missioning, the plan would 
have direct impact in 33 states, but in order to support Total Force 
re-missioning, the manpower realignment plan built by the Reserve 
Components ultimately will affect additional units in all 54 states and 
territories.
    Our analysis of requirements driven by the new strategy shaped all 
of our decisions. Air Force force sizing analysis answered two 
complementary questions: what is the maximum, or surge, requirement 
posed by the force sizing model of the new strategy; and what is the 
steady state, or post-surge, requirement for deployed rotational 
forces? Because the new guidance requires the Joint Force to be capable 
of fighting one large scale, combined arms campaign with sufficient 
combat power to also deny a second adversary, and deemphasized large-
scale, prolonged stability operations, our FY13 budget request accepts 
risk by retiring fighter, mobility, and intelligence, surveillance, and 
reconnaissance (ISR) aircraft excess to the surge requirements of the 
new force sizing construct. Although the U.S. has removed all combat 
forces from Iraq and the new strategic guidance reduces the steady 
state requirement for ground forces, we expect Air Force steady state 
rotational requirements to remain nearly constant, or perhaps increase, 
under the new strategy. This continuing rotational post-surge 
requirement is a key factor in determining the required mix between 
Active and Reserve Component forces due to differences in sustainable 
deployment rates and operations tempo. Where possible, we attempted to 
retire all aircraft of a specific type, allowing us to also divest the 
unique training and logistic support structure for that aircraft. Where 
that was not possible, we worked to retire the oldest aircraft first, 
and redistributed aircraft into effective and economical units, 
eliminating other units when that was most efficient. Where we retained 
older aircraft, we are taking steps to ensure they will remain viable 
into the future.
    Ms. Bordallo. One of the cut programs is the CONECT program. It 
provides much-needed digital communication and mission retasking 
capability for our warfighters, which is essential for B-52 missions, 
especially with the added emphasis on the Pacific theater. With this 
program successfully finishing flight test, why would the Air Force cut 
the production funding, and leave our crews with a temporary laptop 
solution that doesn't satisfy the CONECT operational requirements?
    Secretary Donley. Based on competing budget priorities, the Air 
Force restructured Combat Network Communications Technology (CONECT) to 
address the sustainability issues within the program and the 
replacement of legacy displays. The restructured program also funds 
conversion of the temporary Evolutionary Datalink (EDL) system into a 
permanent modification, which provides a viable (although less robust) 
communication capability for the B-52. This decision was made as part 
of a balanced investment strategy for the Air Force Nuclear Deterrence 
portfolio. At the time the decision was made, CONECT had not completed 
the flight test program, and the program faced significant cost, 
schedule, and performance issues. The completion of MS C certification 
later this year provides the Air Force an option to re-examine the 
CONECT program in future budget cycles.
    Ms. Bordallo. Another program proposed to be completely terminated 
is the replacement of the B-52 radar. The reliability of the current 
radar, which will continue to degrade, results in ever-increasing cost 
and unacceptable impact to the probability of success of long missions. 
With the nuclear and conventional importance of the B-52, how do we 
maintain a much-needed capability without a radar replacement program?
    Secretary Donley. To meet higher priorities, the Air Force has 
elected to maintain the current B-52 APQ-166 radar versus investing in 
a replacement radar with higher near-term costs. Analysis indicates 
that the current B-52 radar system is sustainable through the B-52's 
service life (2040). Warner Robins Air Logistics Center (WR-ALC) will 
pursue reverse engineering/sustainment initiatives to address radar 
reliability and availability to meet B-52 mission requirements.
    Ms. Bordallo. You prepared a statement that read ``The Air Force 
will meet its OSD-directed civilian end strength target for FY12.'' How 
do you reconcile that statement and direction with the requirements of 
sections 129 and 129a of title 10 that prohibit management to a 
civilian personnel constraint such as end-strength?
    Secretary Donley. The Air Force does not manage its civilian 
workforce by any constraint or limitation in terms of man-years, end-
strength, fulltime equivalent positions, or maximum number of 
employees. Based on fiscal constraints, OSD-directed civilian workforce 
targets for FY12; and these targets were achieved through strategic 
reviews to improve business operations, streamline administrative 
functions, and eliminate low-priority/overhead functions and expenses. 
As such, the Air Force has followed section 129 of title 10 with regard 
to execution of civilian personnel management.
    Ms. Bordallo. In your prepared statement, you addressed 
``congressionally mandated military end strength'' and ``OSD-directed 
civilian end strength''--what kind of limitations or levels have been 
placed, or have you imposed, on your contract support workforce?
    Secretary Donley. The Air Force's ``sourcing'' of functions and 
work between military, civilian, and contracted services must be 
consistent with workload requirements, funding availability, readiness 
and management needs, as well as applicable laws and statute. The Air 
Force remains committed to meeting its statutory obligations to 
annually review missions, functions, and workforce composition, 
including reliance on contracted services, and to ensure the workforce 
is appropriately balanced and aligned to our most critical priorities.
    Ms. Bordallo. In your prepared statement, the Air Force wrote that 
``We continue to put downward pressure on service support contract 
spending and are committing to an additional $200 million reduction in 
FY13 and $1 billion across the FYDP.'' Considering that in the fiscal 
year 2010 inventory of contracts for service the Air Force reported 
more than $24 billion in obligations--for a single year--on contracted 
services, this downward pressure is laughable. Why are the reductions 
so small?
    Secretary Donley. The inventory of contract services (ICS) is a 
much broader set of service contracts than what was referred to in 
testimony as ``service support contractors''. While the Air Force 
submitted $24.8 billion in our Fiscal Year 2010 ICS, that amount 
captured all Air Force-funded service contracts that perform critical 
missions across every functional domain across the Air Force. These 
include service and maintenance of our aircraft, base operations, and 
supply chain management.
    The ``service support contractors'' definition is stated in the 
Secretary of Defense's memo, ``Reducing Reliance on DOD Service Support 
Contracts,'' dated September 24, 2010, which directed a 30 percent 
reduction from the FY10 levels by FY13 (10 percent per year). The 
definition of support contracts/contractor is ``any contracted 
personnel who provide support as staff augmentation for Government 
employees; i.e., personnel who are subject to the direction of a 
Government official and function as a staff/action officer.''
    The additional $200 million savings in FY13 and a total of $1 
billion across the FYDP is over and above our past service support 
contractor reductions. Our intent in additional reductions was to 
target headquarters staff augmentation contract support to a more 
manageable level as this is an area that has grown tremendously since 
2001.
    Ms. Bordallo. How do these reductions of less than 1% over the FYDP 
compare to the fiscal and manpower reductions associated with the 
mandated civilian workforce levels?
    Secretary Donley. The true service support contractor reduction 
(staff augmentation dollars) is approximately 62 percent ($390M from a 
$634M baseline) which is drastically higher than our programmed 
civilian reduction of approximately 8 percent (16K positions from a 
199K baseline).
    Ms. Bordallo. You also stated that ``These efforts are consistent 
with . . . OMB guidance to reduce contract spending by 15 percent by 
the end of FY12 from an FY10 baseline.'' That would mean that you 
should reduce by $3.6B annually from the $24B in FY10, as opposed to 
the $200M you stated. This is an exponentially large discrepancy and I 
am requesting further explanation and justification of your statement, 
and the small reductions planned in the Air Force in contracted 
services.
    Secretary Donley. Again, there is a definitional issue that must be 
clarified in answering this question. The Office of Management and 
Budget (OMB) guidance has its prime focus to reduce contract spending 
on management support services which is quantified by 12 separate 
product service codes in such areas as automated information systems 
development and services; system engineering; intelligence services; 
personal services; and acquisition/contract support. The Federal 
Procurement Data System--Next Generation (FPDS-NG) captures 
approximately $5.6B management support services funded by the Air Force 
in FY10. The OMB mandated 15 percent reduction equates to approximately 
$843M. Currently, the Air Force is ahead of schedule based on a FPDS-NG 
current FY12 obligations of approximately $1.7B through the end of 
month February.
    Ms. Bordallo. You stated that you had a target of 16,000 civilian 
spaces to reduce. Can you please provide a list of those 16,000 based 
on the Air Force's FAIR Act inventory, including the location, 
functions performed, and manpower mix criteria associated with each? 
Can you estimate the cost savings associated with each? Can you assure 
the Committee that the workload associated with any one of these 16,000 
reductions was not absorbed by contract as you executed the AFMC 
reorganization and reduced overhead? Where did this target of 16,000 
civilian space reductions come from, and was that target based on a 
workforce analysis considering mission risk and cost, or did the Air 
Force essentially have to reverse engineer it and associated workload/
organizational structures to achieve that number?
    Secretary Donley. 1) The Air Force does not have a specific list of 
the civilian positions based on the Air Force's Federal Activities 
Inventory Reform (FAIR) Act inventory because a large portion of the 
reductions were tied to planned growth; thus, these ``positions'' were 
not captured by any previous or existing FAIR Act inventory.
    2) These changes in programmed growth resulted in an approximate 
total savings of $1.6 billion through Fiscal Year 2012.
    3) The workload associated with the reductions was not absorbed by 
contract because in addition to the civilian funding reductions, the 
Office of the Secretary of Defense also strove to achieve savings by 
reducing the number of service support contractors. The AFMC 
reorganization and other Air Force consolidation efforts were a means 
to achieve savings in both civilian and contractor funds; the AFMC 
reorganization resulted in a workforce reduction.
    4) The target reductions were based on workforce analysis 
considering mission risk, readiness and cost. The Secretary of Defense 
issued Department of Defense-wide efficiency measures to reduce 
overhead and eliminate redundancies while reducing the associated 
funding. To meet the guidance issued by Office of the Secretary of 
Defense, the Air Force conducted a comprehensive strategic review to 
streamline operations and consolidate overhead while preserving or 
growing the most critical mission areas. The Air Force maintained some 
growth in areas like acquisition, nuclear enterprise, and intelligence, 
surveillance, and reconnaissance, while streamlining headquarters and 
support functions.
    Ms. Bordallo. Given the civilian personnel constraints first 
reflected in last year's budget and continued in the FY13 submission, 
can you certify in full accordance with 10 USC sections 129 and section 
129a? Your certification was due on 1 February. When can the committee 
expect it?
    Secretary Donley. [The information was not available at the time of 
printing.]
    Ms. Bordallo. How does the Department of Air Force's budget request 
for FY13 reconcile with legislative language set forth in Division A, 
Section 8012 of Consolidated Appropriations Act of 2012 (P.L. 112-74) 
which states that `` . . . during fiscal year 2012, the civilian 
personnel of the Department of Defense may not be managed on the basis 
of any end-strength, and the management of such personnel during that 
fiscal year shall not be subject to any constraint or limitation (known 
as an end-strength)'', and more specifically, that the fiscal year 2013 
budget request be prepared and submitted to the Congress as if this 
provision were effective with regard to fiscal year 2013?
    Secretary Donley. The Air Force does not manage its civilian 
workforce by any constraint or limitation in terms of man-years, end-
strength, fulltime equivalent positions, or maximum number of 
employees. Based on fiscal constraints, the Office of the Secretary of 
Defense-directed civilian workforce budgetary targets for fiscal year 
2012 achieved through strategic reviews to improve business operations, 
streamline administrative functions, and eliminate low-priority/
overhead functions and expenses. For the fiscal year 2013 (FY13) budget 
request, the Air Force determined the best workforce mix based on the 
most-efficient and cost-effective means to perform the Air Force 
mission. The FY13 budget request also accounted for budget constraints 
while at the same time returning a flexible, agile, and ready 
workforce.
    Ms. Bordallo. President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the Air Force FY13 budget request reflect an 
appropriately balanced workforce across all major capabilities, 
functional areas, and requirements?
    Secretary Donley. The fiscal year 2013 (FY13) budget request 
reflects an appropriately balanced workforce that meets required budget 
reductions that preserves readiness while avoiding a hollow force. The 
Air Force's ``sourcing'' of functions and work between military, 
civilian, and contracted services must be consistent with workload 
requirements, funding availability, readiness and management needs, as 
well as applicable laws and statute. The FY13 budget request reflects 
our best judgment today and represents a carefully coordinated approach 
based on the Department of Defense's strategy and policy that balances 
operational needs and fiscal reality. The Air Force remains committed 
to meeting its statutory obligations to annually review missions, 
functions, and workforce composition, including reliance on contracted 
services, and to ensure the workforce is appropriately balanced and 
aligned to our most critical priorities.
    Ms. Bordallo. The Department's budget request overview included 
discussion of improved buying power and how acquisitions are managed. 
To what extent is the Department of Air Force using its Inventory of 
Contracts for Services to make such improvements and influence how it 
manages the Air Force Total Force?
    Secretary Donley. This is currently one of many tools available 
internal to the Air Force to help manage our total force. Although we 
have fully complied with Department of Defense Guidance each year, 
there is room to improve the Air Force's use of this inventory of 
contract services. To this end, we are working with the Office of the 
Secretary of Defense and the other Services in order to determine the 
best way to document and use our annual Inventory of Contracts for 
Services as required by Title 10, Section 2330a, Procurement of 
Services.
    Ms. Bordallo. Did the Department of Air Force seek relief from DOD-
mandated civilian personnel levels in order to insource contracted work 
more cost-effectively performed by civilians?
    Secretary Donley. As part of our fiscal year 2013 (FY13) 
President's Budget submission, the Air Force did not seek relief from 
Department of Defense (DOD) mandated civilian personnel levels. Our 
overall strategic review of all civilian resource allowed the Air Force 
to retain civilian end strength to satisfy our most critical insourcing 
initiatives. While the Air Force uses civilian end strength as a target 
for management, there are mechanisms in place to permit exceptions to 
the target, if justified, with the Office of the Secretary of Defense 
(OSD) approval. In order to pursue any further/new insourcing 
initiatives, the Air Force would plan on requesting OSD approve the 
corresponding civilian end strength increase as allowable growth given 
it drives efficiencies or is a result of converting inherently 
governmental workload to in-house DOD civilians. The Air Force is 
committed to ensuring no inherently governmental functions are 
outsourced or otherwise contracted.
    Ms. Bordallo. If relief was not sought, does that mean that the 
Department of Air Force is comfortable that all contracted services 
currently procured by the Department are the most cost-effective source 
of labor and minimize risk?
    Secretary Donley. The Air Force's ``sourcing'' of functions and 
work between military, civilian, and contracted services must be 
consistent with workload requirements, funding availability, readiness 
and management needs, as well as applicable laws and statute. The 
fiscal year 2013 budget request reflects our best judgment today and 
represents a carefully coordinated approach based on the Department of 
Defense's strategy and policy that balances operational needs and 
fiscal reality. The Air Force remains committed to meeting its 
statutory obligations to annually review missions, functions, and 
workforce composition, including reliance on contracted services, and 
to ensure the workforce is appropriately balanced and aligned to our 
most critical priorities.
    Ms. Bordallo. What assurances can you give me that as civilian 
reductions or hiring freezes are occurring across Air Force 
installations work is not shifting illegally to contract performance?
    Secretary Donley. We are tracking, on a monthly basis, our use of 
support contractors performing knowledge based services, service 
support contractors, management support services, and advisory studies 
to ensure that we achieve already planned/programmed reductions. These 
actions, coupled with the current monthly tracking of the financial 
obligations of contract usage, facilitate prevention of inappropriate 
migration of workload from organic to contract support. In addition, we 
worked closely with the Office of the Under Secretary of Defense for 
Personnel and Readiness (USD (P&R)) who developed a memo dated 1 Dec 
2011 Prohibition on Converting Certain Functions to Contract 
Performance. The basic intent of this memo was to inform leadership at 
all levels and to reiterate the need to be cognizant of not converting 
work performed by organic personnel to contract performance.
    Ms. Bordallo. What processes are in place within the Air Force to 
ensure the workload associated with reductions being made in the 
civilian workforce is in fact ceasing, as opposed to being absorbed by 
other labor sources such as contractors or military personnel?
    Secretary Donley. The main process is the Air Force's planning, 
programming, and budget execution process. The Air Force conducted a 
comprehensive strategic review to increase efficiency, reduce overhead, 
and eliminate redundancy while preserving or growing the most critical 
mission areas in our civilian workforce. This force mix determination 
will be reviewed annually as we submit our president's budget 
submission to ensure that we maintain the most-efficient and cost-
effective means to perform the Air Force mission, taking into account 
current budget realities.
    Ms. Bordallo. There was a lot of discussion last year about the 
``exceptions'' to the FY10 civilian levels Secretary Gates' mandated. 
Please provide a detailed list of all exceptions the Department of Air 
Force has had approved to date and the reason for those exceptions, as 
well as any exceptions across that were requested but not approved, and 
the justification for such.
    Secretary Donley. The Office of the Secretary of Defense allowed 
limited Service growth for certain requirements. The exceptions 
include: portions of Combat Commander requirements, joint basing 
requirements and acquisition workforce requirements. The warfighter 
requirements were linked to Joint Staff-approved changes at Combatant 
Commands where the Air Force is the executive agent. Allowances were 
provided for Joint basing growth to ensure equivalency across all 
Services as a result of the transfer of responsibilities, and the 
associated manpower, from other Services. Acquisition workforce growth 
was allowed due to the Department's focus on strengthening and growing 
our in-house acquisition workforce.
    Ms. Bordallo. To what extent have the existing data sets available 
to Air Force planners, specifically the annual inventory of inherently 
governmental and commercial activities, contributed to the functional 
streamlining, organizational realignments, workforce shaping decisions, 
and civilian personnel reductions reflected in last year's efficiencies 
initiative and continued in this year's budget?
    Secretary Donley. The efficiencies initiatives began under 
Secretary Gates, and continued in this year's budget, were implemented 
based on guidance to conduct organizational assessments and mission/
function prioritization. This guidance required the Air Force to: 
baseline our organizations; assess and prioritize missions; eliminate 
duplication; ensure workload distribution; and submit recommendations 
for organization restructuring and reallocation of manpower, including 
workforce reductions.
    While the guidance did not specifically require the Department of 
Defense components to use their annual inventory of inherently 
governmental and commercial activities, it is one of many data sets and 
workload quantification sources that the Air Force utilizes during the 
planning, programming, and budget execution process.
    Ms. Bordallo. In achieving the right mix for the Total Force, how 
does the Department of Air Force use the annual inventory of inherently 
governmental and commercial activities, and associated manpower mix 
determinations, to identify the civilian workforce reductions reflected 
in the past two budgets?
    Secretary Donley. The Air Force conducted a comprehensive strategic 
manpower review to size civilian workload contained in our past two 
budgets with the goal to increase efficiency, reduce overhead, and 
eliminate redundancy while preserving or growing the most critical 
mission areas--not necessarily the Inherently Governmental and 
Commercial Activities (IGCA) review. However, the Air Force continually 
refines our Total Force skill mix to include civil servants and 
contractors, to determine the most appropriate, efficient, and cost-
effective means of performing Air Force missions. As outlined in 
Department of Defense Instruction, 1100.22, ``Policy and Procedures for 
Determining Workforce Mix'', as well as Federal Acquisition Regulations 
7.5, Defense Federal Acquisition Regulation 207.5, and Air Force 
Instruction, 38-204, Programming United States Air Force USAF Manpower, 
the Air Force adheres to the overarching guidance regarding workforce 
mix determination. Also, the Air Force annually performs a 
comprehensive annual IGCA review to ensure it has the proper work force 
mix. This review categorizes all organically performed work as either 
an inherently governmental function (which must be performed by organic 
personnel) or a commercial activity (could be performed by organic or 
contractor support).
    Ms. Bordallo. As efficiencies are being executed across the 
Department of Air Force, is the workload and functions associated with 
those being tracked as eliminated or divested through the annual 
inventory of functions?
    Secretary Donley. The annual Inherently Governmental and Commercial 
Activity review is not currently utilized to track eliminated or 
divested functions, but rather, identifies current positions that are 
either inherently governmental or a commercial activity in nature. As 
efficiencies are realized, government positions identified with 
performing those functions are removed from unit manning documents. 
Contractor reductions associated with efficiencies are tracked via a 
combination of financial commitments and organization surveys.
    Ms. Bordallo. I'd like to ask you questions I posed to the service 
vice chiefs during an October hearing. Why would Congress consider any 
potential changes to recruiting and retention incentives such as 
military retirement and health care or reductions to essential training 
accounts when the military departments can't identify the cost of what 
they pay for contracted services? So what is your military department 
doing to reduce contracted services and work requirements instead of 
just reducing dollars? If you are only reducing dollars then you are 
likely setting up conditions to default to contractors in light of the 
current civilian personnel constraints.
    Secretary Donley. The Air Force knows the dollars obligated/
programmed for contracted services and continues toward implementing a 
contractor manpower data collection system, similar to the system the 
Army has developed, to manage the contractor full time equivalents 
providing these services. The Air Force is using the planning, 
programming, and budget execution process to ensure workload reductions 
remain consistent with the contract dollar reduction. This force mix 
determination is reviewed annually during the president's budget 
submission process to ensure the Air Force maintains the most efficient 
and cost-effective means to perform the Air Force mission taking into 
account the current budget realities.

    Ms. Bordallo. When the Air Force says they are going to divest the 
block 30 inventory, does that mean that they are going to cut their 
losses with just the block 30's that haven't hit the production or will 
you be mothballing all block 30's in the inventory? How will this 
affect Guam's strike/ISR capabilities?
    General Schwartz. Fourteen Global Hawk Block 30 aircraft have been 
delivered to the Air Force and an additional four are in production. 
Pending congressional direction and consistent with appropriate 
statutes and regulations, the Air Force will gauge interest for the 
transfer of these eighteen aircraft to qualified entities, both 
internal and external to the Department of Defense (DOD), who express 
an interest. The Air Force does not plan to spend fiscal year 2012 
funding for the remaining three Block 30 aircraft at this time.
    In September 2011, the DOD Joint Requirements Oversight Council 
reviewed recent adjustments in military strategy and determined that 
high-altitude intelligence, surveillance, and reconnaissance force 
structure could be reduced. The Air Force further determined the U-2, 
which remains viable until at least 2040, was sufficient to meet these 
reduced requirements. There will be no impact to warfighting 
capability, and peacetime support will be managed by the current Global 
Force Management Process.
    Ms. Bordallo. Have you worked with the Army to come up with a plan 
to compensate or fill the gap for the loss of the C-27J platform and if 
so, what is it?
    General Schwartz. The Air Force and Army signed a Direct Support 
Memorandum of Understanding on 27 January 2012. Divesting the C-27J 
fleet does not create a capability gap as the Air Force continues to 
maintain the more capable and cost effective C-130. The Air Force 
remains fully committed to support time-sensitive, mission-critical 
direct support airlift to the Army and will continue to provide direct 
airlift support to the U.S. Army with the fleet of 318 C-130s. 
Currently, C-130s are providing daily direct support airlift in the 
Central Command area of responsibility.
    Ms. Bordallo. Could either of you explain in more detail why you 
proposed a larger cut in Air Guard & Reserve forces, than you did in 
Active Duty forces? Will this impact the Air Forces deployment ops 
tempo and if so, how?
    General Schwartz. The new Department of Defense (DOD) Strategic 
Guidance ``Sustaining U.S. Global Leadership: Priorities For 21st 
Century Defense'' directs the services to build a force that will be 
smaller and leaner, flexible, ready and technologically advanced. To 
deliver the capabilities required by this strategy, and remain within 
funding constraints, the Air Force made difficult choices in all 
service core functions. While remaining consistent with the new 
strategy, the Air Force FY13 Budget submission achieves $8.7 billion in 
savings across the Active and Reserve Components by retiring over 200 
aircraft in FY13 and 286 aircraft over the Future Years Defense Plan. 
Our programmed force reductions are wide-ranging and affect over 60 
installations.
    This was an integrated, Total Force effort--Active Duty, Reserve 
and National Guard--working together to achieve our end state of a 
ready and sustainable force that can meet our surge and rotational 
requirements. My directive to the Air Force was to realign our forces 
to better meet this new strategic guidance using the following four 
principles: ensure the Total Force can fulfill surge requirements; 
maintain a balance between components that allows us to fulfill 
continuing rotational requirements at sustainable rates; retain the 
recruiting, training and operational seasoning base required to sustain 
the Total Force's needs into the future; and ensure the Reserve 
Component remains relevant and engaged in both enduring and evolving 
missions.
    To meet this end, the Air National Guard (ANG) developed five 
Capstone Principles to help guide this transition: allocate at least 
one flying Wing with ANG equipment to each state; recapitalize 
concurrently and in balance with the Regular Air Force; manage ANG 
resources with ANG people; adopt missions that fit the militia 
construct; and, build dual-use capabilities (Emergency Support 
Functions) relevant to the states. Similarly, our Reserve Component 
used the following four principles: ensure aircraft reductions do not 
negatively impact operational support to Combatant Commands; ensure 
force structure movements do not create any new Air Force bills; ensure 
risk is minimized by optimizing crew ratios to exploit expected 
increases in mission capability rates; and, consider locations that 
continue to have an Air Force mission due to the presence of another 
Air Force Component. This Total Force approach allowed us to maintain 
the right Active/Air Guard/Reserve mix, which will allow us to meet our 
operational demands with a leaner force while taking care of our 
Airmen.
    Ms. Bordallo. In reviewing the President's proposed FY13 budget it 
appears many critical B-52 programs were cut. As the backbone of the 
Air Force's nuclear and conventional bomber fleet, what is the Air 
Force's plan to maintain a reliable and viable B-52 with such drastic 
cuts?
    General Schwartz. The Air Force continues to ensure the B-52 stays 
relevant throughout its service life (2040) by focusing on bomber 
sustainment and addressing diminishing manufacturing source (DMS) 
issues in the fiscal year 2013 President's Budget. Efforts such as the 
development of replacement visual displays in the restructured Combat 
Network Communications Technology (CONECT) program and modernization of 
the anti-skid braking system address existing supportability issues. 
Multiple smaller efforts continue to add B-52 capability including 
Military Standard 1760 Internal Weapons Bay Upgrade (1760 IWBU) and 
Mode S/5 Identification Friend or Foe (IFF). Funding totals include 
$202M for research, development, test and evaluation and $250M for 
procurement across the Future Years Defense Plan. The B-52 remains the 
backbone of the USAF manned strategic bomber force; we are actively 
supporting the continued bomber presence in Guam and maintaining a high 
state of nuclear mission readiness.
    Ms. Bordallo. One of the cut programs is the CONECT program. It 
provides much-needed digital communication and mission retasking 
capability for our warfighters, which is essential for B-52 missions, 
especially with the added emphasis on the Pacific theater. With this 
program successfully finishing flight test, why would the Air Force cut 
the production funding, and leave our crews with a temporary laptop 
solution that doesn't satisfy the CONECT operational requirements?
    General Schwartz. Based on competing budget priorities, the Air 
Force restructured Combat Network Communications Technology (CONECT) to 
address the sustainability issues within the program and the 
replacement of legacy displays. The restructured program also funds 
conversion of the temporary Evolutionary Datalink (EDL) system into a 
permanent modification, which provides a viable (although less robust) 
communication capability for the B-52. This decision was made as part 
of a balanced investment strategy for the Air Force Nuclear Deterrence 
portfolio. At the time the decision was made, CONECT had not completed 
the flight test program, and the program faced significant cost, 
schedule, and performance issues. The completion of MS C certification 
later this year provides the Air Force an option to re-examine the 
CONECT program in future budget cycles.
    Ms. Bordallo. Another program proposed to be completely terminated 
is the replacement of the B-52 radar. The reliability of the current 
radar, which will continue to degrade, results in ever-increasing cost 
and unacceptable impact to the probability of success of long missions. 
With the nuclear and conventional importance of the B-52, how do we 
maintain a much-needed capability without a radar replacement program?
    General Schwartz. To meet higher priorities, the Air Force has 
elected to maintain the current B-52 APQ-166 radar versus investing in 
a replacement radar with higher near-term costs. Analysis indicates 
that the current B-52 radar system is sustainable through the B-52's 
service life (2040). Warner Robins Air Logistics Center (WR-ALC) will 
pursue reverse engineering/sustainment initiatives to address radar 
reliability and availability to meet B-52 mission requirements.
    Ms. Bordallo. In October when General Breedlove testified to this 
committee, I asked him about the statutorily required inventory of 
contracts for services. His response was that there the Air Force as in 
an ongoing review that was ``looking at everything we do 
contractually'' and particularly ``What is inherently governmental and 
what should we be retaining as a blue suit requirement versus those 
things that we contract for . . . '' and ``how does that relate to 
those jobs that typically our civilians also do, civilians who are a 
part of our Air Force.'' Can you please share the results of that 
review and what the end-result has been in terms of realignment of 
work? Please provide a list identifying services that have since been 
cut or reduced, and instances where contracted work has been reassigned 
to Airmen or Air Force civilians.
    General Schwartz. The review to which General Breedlove was 
referring was the inventory of contract services review requirements, 
defined in Title 10, Section 2330a, Procurement of Services. The end 
result is that we preliminarily identified approximately 400 contractor 
full-time equivalents who may be performing inherently governmental 
functions out of our full inventory of 143,184 contractor full-time 
equivalents. This work spans the 91 instances reflected in government 
Accountability Office (GAO) Report Number GAO-12-357, Defense 
Acquisitions--Further Actions Needed to Improve Accountability for the 
Department of Defense's Inventory of Contracted Services. This includes 
a variety of acquisition and professional services, primarily technical 
functions, such as accounting, quality control, management support 
services, engineering and technical, financial, program management, and 
other professional services. We are still working on our final 
assessment and disposition. For those functions determined to be 
inherently governmental, remedial actions may range from divestiture of 
the service, restructuring the contract, or insourcing the function.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. Please describe the anticipated mission and use of 
the MC-12 once transferred to the Air National Guard. Do you see this 
mission as a long-term, enduring mission for those units receiving this 
platform? Is the USAF committed to the MC-12 program through the FYDP, 
to include all necessary manpower and platform funding requirements?
    Secretary Donley. Once transferred to the Air National Guard (ANG), 
the MC-12W could provide Defense Support to Civil Authorities, homeland 
defense, and border patrol missions, as well as continue to support 
deployed ISR operations. Once they reach Full Operational Capability 
(FOC), the ANG will sustain two ``steady state'' Combat Air Patrols 
(CAP), with the ability to surge to six total CAPs. In addition, the 
Air Force will create an active duty associate unit to augment MC-12W 
operations which will maintain long-term active duty Air Force 
expertise/presence in MC-12W operations/capabilities. The active unit 
will augment the ANG's steady state CAPs and have the capability to 
surge to four CAPs if required for a total of ten Total Force MC-12W 
CAPs. The MC-12W is an enduring Air Force capability that will stay 
with us beyond the conclusion of the current engagements. The Air Force 
has programmed all necessary funds and manpower through the FYDP.

    Mr. Courtney. Please describe the anticipated mission and use of 
the MC-12 once transferred to the Air National Guard. Do you see this 
mission as a long-term, enduring mission for those units receiving this 
platform? Is the USAF committed to the MC-12 program through the FYDP, 
to include all necessary manpower and platform funding requirements?
    General Schwartz. Once transferred to the Air National Guard (ANG), 
the MC-12W could provide Defense Support to Civil Authorities, homeland 
defense, and border patrol missions, as well as continue to support 
deployed ISR operations. Once they reach Full Operational Capability 
(FOC), the ANG will sustain two ``steady state'' Combat Air Patrols 
(CAP), with the ability to surge to six total CAPs. In addition, the 
Air Force will create an active duty associate unit to augment MC-12W 
operations which will maintain long-term active duty Air Force 
expertise/presence in MC-12W operations/capabilities. The active unit 
will augment the ANG's steady state CAPs and have the capability to 
surge to four CAPs if required for a total of ten Total Force MC-12W 
CAPs. The MC-12W is an enduring Air Force capability that will stay 
with us beyond the conclusion of the current engagements. The Air Force 
has programmed all necessary funds and manpower through the FYDP.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. The Light Air Support (LAS) program is an important 
initiative intended to build capabilities and partnerships between the 
U.S. military and our allies where our shared interest in defeating 
insurgency and other threats are advanced through the operation of 
aircraft familiar to the U.S. military and well suited to the relevant 
missions. Is it the Air Force's intention that the LAS aircraft comply 
with U.S. weapons, communications, and design standards in order for 
U.S. military personnel and partners to work seamlessly?
    Secretary Donley. The Afghan LAS aircraft will comply with U.S. 
weapon, communications, and design standards in order for U.S. military 
personnel and partners to work seamlessly. That said, the LAS aircraft 
program will also adhere to U.S. export policy governing military 
equipment transfers to Afghanistan. Accordingly, the LAS aircraft 
communications and weapons capabilities will be configured to the 
envisioned future Afghan Air Force (AAF), but not necessarily state-of-
the-art U.S. Air Force capability. U.S. Air Force and NATO military 
personnel will train and advise the AAF on maintaining and employing 
the LAS aircraft. The aircraft will employ U.S. and NATO-standard 
weaponry, interface with friendly forces via common communications 
equipment and follow U.S. design standards to ensure safety and 
maintainability.

    Mr. Loebsack. The Light Air Support (LAS) program is an important 
initiative intended to build capabilities and partnerships between the 
U.S. military and our allies where our shared interest in defeating 
insurgency and other threats are advanced through the operation of 
aircraft familiar to the U.S. military and well suited to the relevant 
missions. Is it the Air Force's intention that the LAS aircraft comply 
with U.S. weapons, communications, and design standards in order for 
U.S. military personnel and partners to work seamlessly?
    General Schwartz. The Afghan LAS aircraft will comply with U.S. 
weapon, communications, and design standards in order for U.S. military 
personnel and partners to work seamlessly. That said, the LAS aircraft 
program will also adhere to U.S. export policy governing military 
equipment transfers to Afghanistan. Accordingly, the LAS aircraft 
communications and weapons capabilities will be configured to the 
envisioned future Afghan Air Force (AAF), but not necessarily state-of-
the-art U.S. Air Force capability. U.S. Air Force and NATO military 
personnel will train and advise the AAF on maintaining and employing 
the LAS aircraft. The aircraft will employ U.S. and NATO-standard 
weaponry, interface with friendly forces via common communications 
equipment and follow U.S. design standards to ensure safety and 
maintainability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. The current FMS LAS requirement is 20 aircraft for 
Afghanistan. Over the course of the next 10 to 15 years, do you 
anticipate the LAS program expanding to other countries beyond 
Afghanistan and if so, will the contract made with Afghanistan serve as 
any type of ``program of record'' for future foreign military sales? Is 
there a requirement within the FMS LAS program to Afghanistan that U.S. 
forces will partner with Afghanistan to train and mentor them on the 
system? If so, should the LAS platform be familiar to U.S. forces to 
facilitate this training?
    Secretary Donley. The Light Air Support (LAS) program is funded by 
Afghan Security Forces Funds and provides a light attack capability 
specifically for Afghanistan. This program is specifically for 
Afghanistan and no plan currently exists to extend the platform beyond 
Afghanistan. However, it could be used as a model for future light 
attack foreign military sales. There is a requirement within the Afghan 
LAS program for U.S. forces to partner with the Afghan Air Force to 
train and advise them on the system. Although there are advantages to 
U.S. forces being familiar with the LAS platform, this is not an 
absolute requirement. The USAF will leverage experienced USAF 
instructor pilots, maintainers and logisticians capable of quickly 
learning the LAS system and then training and advising their Afghan 
counterparts.
    Mr. Shuster. What is the Air Force justification for not acquiring 
the technical data rights to the F117 engine? Does the Air Force have a 
plan to acquire such data rights?
    Secretary Donley. Under the procurement and sustainment contracts, 
the Air Force has never purchased data rights for the F117 engine 
because: (1) under the C-17 contract, Boeing acquired the engines from 
Pratt & Whitney (P&W) as a commercial item; and (2) under the Air Force 
contract to acquire engines, the Air Force used a commercial contract. 
P&W paid for the development of these engines. Also, the C-17 
sustainment program included Contractor Logistics Support for life; 
therefore, there was no need to acquire data rights. Since then, the 
Air Force has decided to break out the engine technical overhaul, 
supply chain management and systems engineering from the C-17 support. 
As a result, the Air Force is currently working two separate contract 
actions to acquire licensed use of P&W's technical manual, and to 
acquire the data rights for the System Engineering and Supply Chain 
Management processes for the F117 engine. In December 2011, P&W agreed 
to a General Terms Agreement release of their technical manual for 
basic F117 repairs, and the Air Force will further pursue Government 
Purpose Rights on historical supply chain management and systems 
engineering to enhance future competition.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. During our review of the FY11 Omnibus reprogramming, 
it came to light that funds to support the operations in Libya would be 
funded internally. The total realignment from within Operation & 
Maintenance, Air Force was estimated at over $400 million. What was the 
final realignment in FY11, and with realignments of this magnitude, 
what mission requirements were not supported due to this internal 
support of the Libyan operation?
    Secretary Donley. The final FY11 Operation & Maintenance (O&M), Air 
Force costs in support of operations in Libya were $408 million (both 
flying hours and non-flying hours). In addition, O&M, Air Force had to 
reimburse the Air National Guard O&M $99 million for flying hours flown 
in support of Title 10 missions.
    The flying hours were sourced from the Air Force's baseline flying 
hour program. Instead of the hours being flown at home station, they 
were flown in support of Libya. The pilots still received some level of 
training therefore there was no loss to the flying hour training 
program. The remainder of the support funding supported transportation, 
travel, base support, communication and global lift and sustainment. To 
fully support Libyan operations, funding was sourced from the Airlift 
Readiness Account and lower priority base operating requirements.

    Mr. Conaway. The MCRS-16 study recommends using C-17s for 
intratheater airlift but several senior mobility leaders in the past 
have been concerned that we are overusing the 30-year/30,000-hour life 
expectancy of that airframe too quickly. Can you tell me what the 
average age and number of hours our C-17 fleet currently has on it?
    General Schwartz. As of 29 February 2012, the average age of the C-
17 fleet was 8.9 years and the average number of hours per aircraft was 
10,104.
    Mr. Conaway. During our review of the FY11 Omnibus reprogramming, 
it came to light that funds to support the operations in Libya would be 
funded internally. The total realignment from within Operation & 
Maintenance, Air Force was estimated at over $400 million. What was the 
final realignment in FY11, and with realignments of this magnitude, 
what mission requirements were not supported due to this internal 
support of the Libyan operation?
    General Schwartz. The final FY11 Operation & Maintenance (O&M), Air 
Force costs in support of operations in Libya were $408 million (both 
flying hours and non-flying hours). In addition, O&M, Air Force had to 
reimburse the Air National Guard O&M $99 million for flying hours flown 
in support of Title 10 missions.
    The flying hours were sourced from the Air Force's baseline flying 
hour program. Instead of the hours being flown at home station, they 
were flown in support of Libya. The pilots still received some level of 
training therefore there was no loss to the flying hour training 
program. The remainder of the support funding supported transportation, 
travel, base support, communication and global lift and sustainment. To 
fully support Libyan operations, funding was sourced from the Airlift 
Readiness Account and lower priority base operating requirements.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. WITTMAN
    Mr. Wittman. General Schwartz: With the reduction in strategic lift 
assets for the Air Force and the previous reduction in the 
prepositioned stocks of the Army and the Marine Corps, what missions 
will be eliminated to meet the equipment availability? How will the 
Administration be able to accomplish all combatant commander theater 
plans with reduced strategic lift capabilities?
    General Schwartz. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. I understand that only about 15% of Air Force's engine 
sustainment contracts are competed. What is your estimate of the 
savings that could be achieved from more effective use of competition 
in this area?
    Secretary Donley. The United States Air Force is committed to 
competition in the propulsion enterprise to achieve the best value for 
our warfighter while preserving system safety. Typically, life-cycle 
sustainment decisions regarding data rights made in the early phases of 
a propulsion system's acquisition significantly impact the pace and 
degree of competition for an engine during the sustainment phase.
    Today, the Air Force leverages competition at three different 
levels of an engine during sustainment:
    1. At the weapon system/whole engine level, the Air Force attempts 
to gain sufficient access (e.g., via licensing) to sustainment data in 
order to facilitate competition of engine overhaul and supply chain 
management. As an example, the Air Force secured the necessary 
sustainment data to compete the sustainment, to include overhaul and 
supply chain management, of the F103 engine (KC-10 aircraft).
    2. At the component repair/replace decision point, the Air Force 
leverages the use of component repairs to the maximum extent 
practicable. Components can often be repaired more economically than 
replaced with new components, and a repair capability provides the Air 
Force with an additional source of supply. For example, the Air Force 
introduced a repair for an air seal in the F100 engine (F-15/F-16 
aircraft) reducing the need for new air seal replacement by 90 percent.
    3. At the individual part level, the Air Force is engaged in 
several initiatives to create alternative sources. These initiatives 
include expanding the base of new manufacturers beyond the Original 
Equipment Manufacturers (OEMs) and evaluating potential sources for 
repaired and used parts. To expand to new manufacturers, the Air Force 
encourages industry to submit Source Approval Requests (SARs) to obtain 
certification to compete as alternative sources. The SAR process is 
designed to balance safety with competition and cost improvement 
objectives. Evaluating sources for repaired and used parts, the Air 
Force recently competed new, OEM parts against used parts with 
exceptional results. The Air Force achieved a $36M savings (projected 
cost of $43M, versus contract cost of $7M) by leveraging a source of 
used fan blades for the F108 (KC-135 engine). The Air Force continues 
to expand this type of individual part competition and the pool of 
alternative sources.
    Mr. Hunter. The Air Force awarded an $11.75 billion sole source 
maintenance contract for continuing the C-17 Contractor Logistics 
Support (CLS) using the justification and approval rationale from 2009 
without change.
    What actions do you intend to take with regard to this issue to 
ensure competition in sustainment of weapon systems?
    What are you doing to increase opportunities for competition, 
particularly at the subsystem and component level where broad 
commercial capabilities often exist?
    Secretary Donley. On November 29, 2009, the Air Force Service 
Acquisition Executive approved a justification and approval document 
that permitted the award of a sole source contract to the Boeing 
Company to provide Performance Based Logistics (PBL) for the C-17 
weapon system. The Air Force entered into this contract with the Boeing 
Company on October 1, 2011.
    The structure of the contract allows the program office to evaluate 
Boeing support on a monthly basis as well as develop alternative 
sustainment strategies should the contractor not produce desired 
outcomes at committed-to costs. While not a traditional form of 
competition, the option to move work from Boeing to the Government has 
proven to be a successful incentive and form of competition for the C-
17 program.
    The C-17 Program Office is pursuing further competition for 
sustainment of the F117 engine. The Program Office is planning a 
competitive award for Performance Based Service Arrangement (PBSA) for 
overhaul of F117-PW-100 (C-17) engines, to include F117 depot Supply 
Chain Management (SCM). This competitive acquisition strategy should 
yield F117 engine sustainment at reduced costs, while sustaining F117 
performance outcomes.
    To increase competition at the weapon system subsystem and 
component level, Air Force Instruction 63-101 (October 2011) mandates 
that all source of repair analysis (SORA) determinations be conducted 
at the System/Subsystem level. In the C-17 PBL program, all depot 
maintenance is placed on contract to Boeing, the product support 
integrator (PSI) responsible for performance outcomes. The PSI 
contracts with either Government depots or other product support 
providers, for repairs in support of the weapon system. Boeing and the 
technical repair centers negotiate repair quantities quarterly, based 
on the repair center capacity and best value to the Government. For 
example, two viable sources of C-17 airframe depot repair are 
maintained, fostering competition, supporting required C-17 maintenance 
and modification throughput, reducing program costs and depot schedule 
risk.

    Mr. Hunter. As the Air Force moves to transition engines such as 
the F119, F117, F135 into Tinker Air Logistics Center, what is being 
done to ensure competition and to reduce organizational conflict of 
interest in the supply chain relating to the servicing of systems, 
subsystems, and components?
    General Schwartz. The F119 has transitioned to organic depot 
maintenance under a partnership arrangement with Pratt & Whitney. 
However, the supply chain management (SCM) responsibilities for the 
F119 engine remains with the contractor. The Air Force made the 
decision to keep SCM responsibilities for the F-22 airframe and engine 
with their respective contractors for another five years based on the 
Jan 10 F-22 Product Support Strategy Business Case Analysis to reduce 
risk to the government by allowing the F-22 weapon system to fully 
mature. The F-22 Program Manager will revisit the BCA decision in five 
years to determine if SCM responsibilities should be transitioned to 
organic execution.
    The United States Air Force (USAF) approach to increasing 
competition for the F117 engine is to secure access to the overhaul and 
component repair manuals as well as other technical data. Access to 
these manuals and data will allow the Air Force to compete touch labor 
and supply chain management. In addition, because the F117 is a 
commercial derivative engine, the USAF is working to approve Non-
Original Equipment Manufacturer parts and repairs by using the Source 
Approval Process (SAR) detailed in AFMCI 23-113. The USAF will 
implement this strategy over a two year transition period to ensure all 
potential offerors are provided an opportunity to compete. This process 
injects competition at the engine and component levels for parts and 
repairs. The strategy is designed to balance operational risk and cost 
savings while providing support at the best competitive cost.
    The F135 engine is still in acquisition and details of the 
sustainment strategy are still being finalized.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. CRITZ
    Mr. Critz. The recent Air Force structure changes announced the 
closing of an Air Reserve station in Pittsburgh, Pennsylvania, outside 
of the BRAC process. This base serves 1,400 Active, Reserve and Guard 
units of both the Air Force and the Navy. The base just completed an 
$8.1 million housing project and is set to break ground on a $13.8 
million joint Reserve center. The Air Force leases a hundred acres at 
this base. It includes access to four runways, an FAA control tower, 
medical and crash fire response and zero-cost airfield maintenance, 
including snow removal and capital improvements for $20,000 a year. The 
Pittsburgh region has significant success with recruiting and that the 
911th Airlift Wing is one of the highest manned units in the Air Force 
Reserve Command. This being said, I can't understand why the Air Force 
would make the decision to close this Air Reserve station. If this is 
truly an issue with retiring C-130s, then let's bring in new C-130s to 
this very efficient and very effective wing so that this cost-effective 
base can continue to serve both the Air Force and the Pittsburgh 
community. Can you provide, for congressional review, the cost analysis 
of the 911th Airlift Wing compared to others throughout the Air Force 
that was used as the justification for closing this base?
    Secretary Donley. While cost savings are part of the decision-
making process, the most important factor is the Air Force's ability to 
provide the capabilities required by the new Defense Strategic 
Guidance, ``Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense.'' This new strategy directs the services to build a 
leaner, more flexible, and technologically advanced force. We made 
these decisions after careful analysis. As we assessed intra-theater 
airlift using scenarios consistent with the Defense Strategic Guidance, 
the Office of the Secretary of Defense and Air Force studies determined 
excess capacity exists in the Air Force fleet. The reduced intra-
theater airlift requirement permitted retirement of 65 C-130H aircraft. 
The C-130s proposed for retirement are among the oldest in the USAF 
fleet and would require costly modifications and modernization efforts 
to keep the aircraft viable. Twenty-seven bases worldwide have C-130s 
assigned; of the 27 bases, either force structure reductions or 
aircraft transfers affected 18 of them. Pittsburgh Air Reserve Station 
has seven C-130H2 aircraft assigned to the 911th Airlift Wing. The FY13 
President Budget submission retires all seven C-130H2s in FY13, 
resulting in a savings of $41 million across the Future Years Defense 
Plan and avoidance of approximately $77 million in modernization costs.
    With the reduction of the C-130H2s, Pittsburgh Air Reserve Station 
becomes excess to Air Force needs. Since the number of full time 
civilians assigned to the installations below the BRAC threshold 
defined by 10 USC Sec. 2687(a)(1), I have recommended the base for 
closure. It is currently the only Air Force Reserve installation that 
meets these criteria, and as such, presents an opportunity to preserve 
national resources. After installation shutdown actions are complete, 
we expect an annual installation savings of approximately $25 million 
for the Air Force. In addition, manpower savings associated with the C-
130 divestment will result in approximately $16 million savings the 
first year, and $32 million annual savings after that. Other factors we 
considered in the decision are that Air Force Reserve bases at 
Youngstown and Niagara are both within reasonable commuting distance 
from Pittsburgh. As a result, those bases may be able to support 
continued military service for those members of the 911th Airlift Wing 
who wish to remain serving but are unable to relocate to more distant 
Air Force Reserve
    Mr. Critz. Regarding the reduction of 65 C-130 tactical airlifters 
getting us to a total fleet projection of 318: The Air Force planned in 
the fiscal year 2012 budget to eventually modernize and upgrade 383 C-
130's and procure 38 C-27J's to support intratheater, homeland defense, 
stead-state rotational, building partnership capacity, and Army time-
sensitive/mission-critical airlift requirements. The Air Force's 
minimum C-130 force structure, as concluded in the Mobility Capability 
and Requirements Study 2016 (MCRS-16), was to go no lower than 335 C-
130s under the QDR 2010 defense strategy. The budget request for fiscal 
year 2013 plans to divest intertheater (strategic) and intratheater 
(tactical) force structure in support of the new defense strategy. Air 
Force officials have stated that ``Case 3'' of the MCRS-16 was the 
analytical underpinning for new mobility force structure associated 
with the new 2012 defense strategy. As stated above, Air Force minimum 
C-130 force structure as concluded in MCRS-16 was to go no lower than 
335 C-130s. However, MCRS-16 did not take into account United States 
Code Title 32 Air National Guard or Army Guard airlift missions that 
would be required to support State Governor mobilization missions nor 
did it account for the Army's time-sensitive/mission-critical mission 
and noted that additional C-130s beyond the planned program of record 
of 335 aircraft and 38 C-27J aircraft may be required. Additionally, 
pre-9/11 the Army was around 480,000 strong with 530 C-130s, and now we 
are drawing down to similar force levels, 490,000, with only 318 C-130s 
planned. How will 318 C-130s support a force of 490,000 when pre-9/11 
historical lift capacity indicates otherwise, and MCRS-16 Case 3 states 
that 335 C-130s PLUS 38 C-27Js is also not enough to execute Title 32 
and Army time-sensitive missions? Is the Air Force's plan to reduce or 
restrict Title 32 and other Army requirements?
    Secretary Donley. The 2013 Presidential Budget Request reduced the 
C-130 fleet size to 318 aircraft to meet the requirement that was 
outlined in the new strategy presented by the President and the 
Secretary of Defense. The fleet is sized to fulfill intra-theater (270 
aircraft) and Direct Support Mission (48 aircraft). The new strategy 
reduces the requirements as forces are no longer sized to meet two 
near-simultaneous large scale campaigns. The MCRS-16 had previously 
influenced sizing with Case 1 (335 C-130s) and Case 3 (270 C-130s). 
However, Case 1 was based on two near-simultaneous large-scale 
campaigns and, per the Office of the Secretary of Defense, is no longer 
a valid force-sizing scenario under the new strategy. Case 3, on the 
other hand, is consistent with the new strategy. Although the MCRS 
scenarios did not examine the Direct Support Mission, Case 3 did 
include airlift to support two domestic missions, a major regional 
disaster, and a Homeland Defense event to inform its 270 intra-theater 
aircraft requirements.
    Mr. Critz. Part of my concern is that we are actually adding duties 
to the Air Force's C-130s, because they are going to be doing the C-27J 
lift as well. Just as a sort of general idea, I look at the C-27J, it 
was going to be sort of the pick-up truck and the C-130 might be more 
like a tractor trailer truck. I'm just curious if the C-130 is going to 
be able to get into the same airports as the C-27, and is it really a 
cost savings or are we going to start saying well we can't get into 
these places so we're going to up the tempo for the Chinooks to do what 
the C-130s can't do. My question is, long-term--this is a short-term 
savings--is it also a long-term savings? Have we looked at the 20-30 
year life cycle of these aircraft?
    Secretary Donley. According to the RAND USAF Intra-Theater Airlift 
Fleet Mix Analysis, Oct 2010; during sea-level/standard day conditions, 
the C-27J and C-130J require 2000 ft/2200 ft runway respectively. 
However, under high pressure altitude/high temperature conditions which 
are representative of the majority of current operations in 
Afghanistan, the C-130J only requires 2600 feet while the C-27J 
requires 2700 feet with approximately 43% less payload. Further 
analysis of take off capability for the C-27J, C-130J, and C-130H 
reveals very similar short-field take off characteristics, with 
relatively miniscule differences in take off capability. The C-27J is a 
niche capability providing access to airfields that are 1700 feet or 
less in length. While this capability is not without value, current 
operations in deployed locations show that there are no airfields being 
used by the C-27J that cannot be accessed by the C-130J.
    In regard to long-term savings, there are substantial long-term 
savings associated with the divestiture of the C-27J. The 25-year life-
cycle cost of the aircraft is $308M based on the May, 2011 Service Cost 
Position. Overall long-term cost avoidance for divesting the previously 
programmed fleet of 38 aircraft is $11.7B.
    Mr. Critz. What are the Air Force's plans for the 21 C-27s already 
procured?
    Secretary Donley. The final disposition determination of the C-27J 
fleet will not be made until the 2013 National Defense Authorization 
Act is signed into law. The full range of disposition options is being 
considered.
    Mr. Critz. The Air Force's decision to delay orders for 179 F-35s 
over the next five years will likely have an impact on overall program 
cost, and the cost-per-aircraft. This will affect our international 
partners as well as our own bottom line. In your budget analysis, what 
cost increases were assumed for the purchase delays?
    Secretary Donley. The Department of Defense made a decision 
reflected in the President's Budget 2013 (PB13) budget request to delay 
the order of 179 F-35s (all three variants). The Air Force share of 
this delay includes a reduced procurement of 98 conventional take-off 
and landing (CTOL) aircraft from fiscal year 2013 to fiscal year 2017. 
When a decision is made to delay procurement of aircraft, there are two 
primary effects on unit recurring flyaway cost. First, the contractor 
will not be as far down the learning curve in procurement and so 
average costs of the smaller quantity procured will be higher. Second, 
fixed contractor costs will be spread over fewer quantities. The 
increase in CTOL (F-35A) Unit Recurring Flyaway cost between PB12 and 
PB13 are shown below.

                                CTOL URF

------------------------------------------------------------------------
     Buy Year         2013       2014       2015       2016       2017
------------------------------------------------------------------------
    FY12 (SAR 10)  $112.1     $96.7      $91.2      $80.6      $84.8
------------------------------------------------------------------------
    FY13 (SAR 11)  $123.2     $122.0     $107.7     $93.4      $91.4
------------------------------------------------------------------------
    URF Increase   $11.1      $25.3      $16.5      $12.8      $6.6
 ($)
------------------------------------------------------------------------
    URF Increase   9.9%       26.2%      18.1%      15.9%      7.8%
 (%)
------------------------------------------------------------------------


    Despite this projected increase in unit cost, the Air Force felt it 
a prudent choice to delay these quantities so as to reduce the risk of 
concurrent development and procurement. Since flight testing is not 
scheduled to be complete until fiscal year 2017, there is risk that 
planes procured now may require expensive retrofits later. The Air 
Force felt reducing this risk of concurrency outweighs any short-term 
increases in unit cost driven by the delay in procurement quantities 
within the Future Years Defense Plan. In addition, these delays allow 
the aircraft prime contractor time to stabilize production, decrease 
scrap and rework, and work through final finishes/flight line issues.
    Mr. Critz. In an interview with Defense News 27 February, DOD 
Comptroller Robert Hale, in response to a question regarding the 
cancelling of the C-27J program, stated that ``In the case of the C-27, 
we have enough C-130s to do most of that mission.'' What percentage of 
the mission will C-130s not be able to cover, and what asset(s) will 
cover the remainder of that mission?
    Secretary Donley. The Air Force is postured to fully meet the 
Direct Support airlift mission requirements. C-27J was developed and 
procured to provide direct support airlift to Army urgent needs in 
difficult environments such as Afghanistan where we thought the C-130 
might not be able to operate effectively. However, in practice, we did 
not experience the anticipated airfield constraints for C-130 
operations in Afghanistan; furthermore, we expect these constraints to 
be marginal in future scenarios. The Air Force has analyzed scenarios 
consistent with the new strategy and determined a range of 22-50 
aircraft would meet direct support airlift requirements. The 2013 
Presidential Budget Request reduced the C-130 fleet size to 318 
aircraft to meet the requirements of the new strategy. The fleet is 
sized to fulfill intra-theater airlift (270 aircraft) and the Direct 
Support airlift mission (48 aircraft).
                                 ______
                                 
                QUESTIONS SUBMITTED BY MR. RUPPERSBERGER
    Mr. Ruppersberger. What contracting structure will the Air Force 
pursue regarding its EELV procurement? Has Air Force determined a 
quantity or duration for the next EELV acquisition, starting in FY13? 
If so, what types of ``off-ramps'' are you considering to the block 
buy, if/when a New Entrant is qualified?
    Secretary Donley. The contracting structure is two-fold: release a 
Request for Proposal (RFP) that will properly inform a government 
decision on the quantity and length of the first block buy; and then 
award a contract based on analysis of the most advantageous approach to 
the government. The Air Force has not determined a final quantity or 
duration for the contract starting in fiscal year 2013. The Air Force 
believes it is essential to have more fidelity in the Evolved 
Expendable Launch Vehicle (EELV) pricing strategy before making a long 
term contractual agreement. In order to validate the most advantageous 
production rate and commitment period, and to use maximum leverage in 
negotiations, the Government will require the contractor to propose a 
range of fixed prices for various rate and commitment options. The 
Government decision on the specific contractual commitment will be 
balanced among price, operational requirements, budget realities 
(including all fiscal law constraints), and potential for competition. 
Requirements above the commitment will be met through a full-and-open 
competition among all certified providers. While United Launch Alliance 
(ULA) is currently the only responsible source certified to launch EELV 
class payloads, research indicates there are potential New Entrants; 
however, the earliest timeframe to meet all EELV-class launch 
requirements appears to be fiscal year 2016-2017.
    To facilitate the certification of potential New Entrants, the Air 
Force has identified two opportunities that providers may bid on--the 
Deep Space Climate Observatory (DSCOVR) mission, targeted for launch in 
late fiscal year 2014, and the Space Test Program (STP) mission, 
targeted for launch in late fiscal year 2015. These EELV-class missions 
have a higher risk tolerance and will provide an opportunity for 
potential New Entrants to prove their capability for certification. 
When the Phase I Block Buy expires, assuming New Entrants are 
certified, we will have a full and open competition for launch services 
for the second Block Buy.
    Mr. Ruppersberger. Currently the Air Force has 39 rocket booster 
cores purchased from ULA for 35 missions that have not yet launched, 
some purchased back in 1998. Given this substantial backlog of orders, 
why haven't prices come down already? Indeed, why have they continued 
to increase by more than 50 percent?
    Secretary Donley. The Air Force currently has 16 rocket booster 
cores on order to support 16 mission launches. For all National 
Security Space partners (National Reconnaissance Office, Navy, Air 
Force, and Australia) combined there are 32 rocket booster cores for 28 
mission launches on order; 17 of these are currently in the production 
flow to be launched in fiscal year 2012 and 2013. Another 9 cores are 
projected to be launched in fiscal year 2014, while the remaining five 
are projected to fly out by fiscal year 2016, exhausting the backlog. 
The backlog does not affect the current vehicle pricing as the 
program's initial inventory of components and smaller follow-on lot 
quantity buys are being depleted. Additionally, production breaks, 
production rework, subsequent recertification, annual inflation and a 
reduced supplier business base have driven higher unit costs, 
particularly from propulsion system suppliers. As a result of these 
factors, United Launch Alliance's costs to build the launch vehicle 
have increased.
    Mr. Ruppersberger. When my staff looks at the Air Force Total 
Ownership Cost data for U-2 and Global Hawk, we see that in 2011 the 
cost per operational hour (that is, the cost per hour executing 
missions) for Global Hawk is lower than U-2. This seems to be a much 
more relevant number than cost per flying hour. How does this square 
with your claim that Global Hawk operating costs are higher?
    Secretary Donley. The Global Hawk Block 30 has not matured to the 
point where a true apples-to-apples cost comparison of operational 
costs is possible. Nevertheless, the Department conducted an analysis 
during the FY13 budget review using the Air Force Total Ownership Cost 
(AFTOC) database where Global Hawk and U-2 operating and support costs 
were compared using the operational cost per flying hour (CPFH) metric. 
This metric reflects costs associated with the sum total of a 
platform's flying hours including training hours and the flying hours 
associated with mission execution. The AFTOC figures for FY11 show the 
U-2 had $32K per hour and the RQ-4 also had $32K per hour. The Air 
Force did not begin flying the RQ-4 Block 30 until March 2011, so there 
is only six months of representative flying hour information in the 
database. Also, the Air Force did not fly the RQ-4 Block 30 with the 
SIGINT sensor in 2011. The Air Force will begin flying this payload in 
April 2012 and once operational, we expect the Global Hawk CPFH to 
increase relative to those of the U-2. Given these flying hour cost 
considerations, and the large investment required for the RQ-4, the Air 
Force chose to divest the Block 30 program and save a net of $2.5B.
    Mr. Ruppersberger. The Department based its Global Hawk Block 30 
divestment decision on it being more expensive to operate than the U-2. 
Can you explain how the Department determined these costs?
    Secretary Donley. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Secretary Donley: How long will the A-10 aircraft 
remaining in service under your budget proposal stay in the fleet?
    Secretary Donley. Under our current plans, the A-10 will remain in 
the Air Force inventory through 2035. At that time, the average age of 
remaining A-10s in the fleet will be approximately 53 years old.

    Mr. Johnson. General Schwartz: Even after the B-2 is not adequately 
survivable in the least permissive air defense environments, the U.S. 
Armed Forces will have the F-35, the F-22, cruise missiles, prompt 
global strike capability, and long-range stealthy unmanned strike 
aircraft. To complement this set of impressive strike systems, what 
unique capabilities will a manned ``next-generation'' bomber provide? 
Please specify those unique capabilities the bomber would provide such 
that its role is not redundant given the other systems at the disposal 
of the Armed Forces.
    General Schwartz. The Long Range Strike Bomber's unique 
capabilities include long range, significant payload capacity, 
operational flexibility, and survivability in anti-access environments.
    The Long Range Strike Bomber will provide the President with the 
option to hold any target at risk at any point on the globe. Its long 
range, large payload, and survivability will provide operational 
flexibility and necessary capacity to satisfy Joint commander needs 
across the range of military operations. Fighters provide great value 
in shorter range engagements, but offer limited capability and capacity 
to service targets deep within enemy territory, especially if theater 
basing is constrained or unavailable.
    The Long Range Strike Bomber will employ a broad mix of standoff 
and direct attack munitions to provide effects within hours across the 
spectrum of conflict, from deterrence to raids to campaigns. While 
standoff weapons provide an essential capability to prosecute targets 
in dense anti-access environments, their significant expense and 
limited quantity constrain their capacity to address an extensive 
target set. Further, standoff weapons are less effective against mobile 
targets due to the fleeting nature of the targets coupled with the 
finite speed of the weapons. A survivable bomber fleet is necessary to 
penetrate enemy air defenses and deliver the volume of munitions 
required to address the potential target set.
    In addition, bombers remain a key element of our nuclear deterrence 
capability and are the only systems that can be surged, relocated, and 
recalled. The Long Range Strike Bomber will be designed from the outset 
to be capable of nuclear weapons employment and certified for nuclear 
operations in time to meet United States Strategic Command's nuclear 
force structure requirements.
    Despite upgrades, our aging bomber inventories are increasingly at 
risk to modern air defenses and are becoming increasingly difficult and 
expensive to maintain and modernize. The Air Force plans to field 80-
100 Long Range Strike Bombers beginning in the mid-2020s to ensure they 
are available before the current aging bomber fleet begins to go out of 
service.
    Mr. Johnson. General: We're retiring A-10s, unmanned systems 
provide useful air-to-ground capabilities but are controlled from 
thousands of miles away, and the F-35 can't fully replicate the close 
air support capabilities of the A-10. In future land warfare scenarios, 
how are we going to provide close air support to troops in combat?
    General Schwartz. The remaining A-10, F-16, MQ-9, MQ-1, F-15E, B-1, 
& B-52 aircraft force structure will meet the requirements for air-to-
ground and Close Air Support capability. This aircraft force structure 
is based on conducting one large-scale combined-arms campaign in a 
single region while simultaneously denying the objectives of, or 
imposing unacceptable costs on, an opportunistic aggressor in a second 
region. Multi-role platforms were preferred over the A-10 due to 
providing greater utility across the range of potential missions for 
which the Air Force is directed to prepare.
    Mr. Johnson. General: Does the F-35 fully replicate the close air 
support capabilities of the A-10?
    General Schwartz. When test and development is complete and the 
USAF has sufficient capability and capacity of Joint Strike Fighters to 
begin replacing our legacy fleet, the F-35 will have the appropriate 
capabilities to safely and effectively conduct the close air support 
(CAS) mission, similar to our F-16 and F-15E fleets. While not 
optimized for CAS like the A-10, the F-35 will be able to conduct this 
mission and survive in the higher threat scenarios we expect to face in 
the future. Although the F-35 will eventually replace the A-10, the 
USAF is planning to keep A-10s in our fleet to provide CAS for ground 
forces until at least the 2030s. Replacement of the single-mission 
focused A-10 with the multi-role F-35 provides the USAF and the 
Department of Defense a more affordable solution to retire and replace 
our aging legacy fleet while ensuring our ability to meet National 
Military Strategy requirements.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY DR. HECK
    Dr. Heck. The F-35 provides a significant challenge to the Nevada 
Test and Training Range (NTTR). The F-35 has new unique capabilites in 
the way that it detects and engages ground threats (Surface to Air 
Missile Systems, Aquisition Radars, etc.) F-35 targets are not only 
detected via radio signals and infared signatures, but also proper 
visual signatures. At this time, the NTTR does not have ground target 
systems that can provide all three parameters to the F-35s being 
trained at the NTTR.
    1) Does the Air Force see this as a challenge in supporting current 
and future F-35 training within the existing NTTR infrastructure?
    2) How does the Air Force intend on employing the existing NTTR 
capability in support of that training?
    3) If there are identified shortfalls in support of F-35 training, 
what are they, what are the capabilities required to alleviate them, 
and what are the associated costs and priorities for each needed 
capability?
    4) If capabilites are needed, when do they need to be in place to 
support propper F-35 training?
    5) What are the current personnel authorization changes at Nellis 
AFB or the NTTR resulting from the current F-35 program in FY13 budget 
and are they quantified at this time?
    Secretary Donley. The unique capabilities of the F-35 do create 
challenges for the Air Force in providing support for future training 
at the Nevada Test and Training Range (NTTR). However, these challenges 
are being addressed and will be met through various avenues of 
approach. The Air Force is in the process of investigating and 
acquiring threat emitters that will be used to meet the requirements of 
the F-35. Additionally, many of the challenges posed by the F-35 will 
be met by creating a training environment that is not only composed of 
traditional threats and threat emitters, but will synthesize virtual 
threats creating a combined Live-Virtual-Constructive (LVC) training 
environment. This composition will allow the NTTR and other ranges 
supporting the F-35 to provide necessary training.
    The NTTR will employ its existing capabilities, along with those in 
the acquisition process, to provide the ``live'' portion of the LVC 
concept. To meet the unique sensor requirements of the F-35, the NTTR 
is developing a CONOPs for a dry ``sensor fusion'' range that will 
consist of realistic targets/decoys. Additionally, the NTTR is 
investigating the use of assets currently located at other ranges to 
increase its capabilities. The NTTR is working with Pacific Air Forces 
to examine the option of entering into a phased ``threat'' sharing 
agreement that will provide additional threat density and realistic 
threat emitters to meet the F-35 training requirements. The first phase 
will only include one threat emitter. While the NTTR currently provides 
the best training for F-22 and 5th gen aircraft and has the best target 
sets available, these target sets alone are not sufficient to provide 
realistic training when multiple sensors (EO, visual, Radar) are fused 
into a single picture. (These limitations also exist within current 4th 
generation training.) Current emitters are also insufficient to provide 
adequate density to fully replicate threat environments. To meet these 
shortfalls Air Combat Command (ACC) is procuring more threat emitters 
for NTTR; however it is impractical to procure enough emitters to fully 
represent threats anticipated in current operational plans. ACC intends 
to use LVC training to overcome these shortfalls by providing 
sufficient threat density and realistic training to `stress' pilots. 
New targets need to be in-place by 1 August 2014 when the first F-35s 
are scheduled to arrive at the Air Force Weapons School. There are no 
personnel authorization changes at the NTTR resulting from the current 
F-35 program in the FY13 budget.
    Dr. Heck. Submitted on behalf of Representative Rob Bishop:
    1) Secretary Donnelly, in FY2013, the Air Force has requested 
$135.4 million in RDT&E funds in the Intercontinental Ballistic 
Missile--Engineering and Manufacturing Development funding line (PE 
0604851F). Air Force budget justification documents cite a sub-element 
request of $8.0 million for a new start Solid Rocket Motor 
Modernization program. Specifically, related justification documents 
state that the Air Force plans to use these funds to:
    ``Accomplish studies to investigate the application of new 
technologies in the Minuteman III booster stack. Evaluate current 
Minuteman III solid rocket motor requirements and update as required 
based on legacy system issues and availability of mature technology 
that will reduce total ownership costs. Prepare for release of requests 
for proposals.''
    What ``new technologies'' do you foresee being investigated during 
these studies? Budget documents show no funds requested in the out-
years for this effort. With no follow-on funding requested, how will 
any of these technologies be fully developed?
    Secretary Donley. New technology candidates for insertion into a 
possible solid rocket motor program include components the Air Force 
has developed within the Intercontinental Ballistic Missile (ICBM) 
Demonstration/Validation (Dem/Val) Propulsion Applications Program 
(PAP). Included in these are advanced propellants, igniters, composite 
case materials, case insulation, thrust vector actuators, and nozzles. 
In fiscal year 2013, the Air Force will analyze the maturity level of 
available technologies and identify the most promising candidates.
    ICBM Dem/Val matures technology to a Technology Readiness Level 
(TRL) 6 and then makes it available for use within a program where it 
can be fully developed and integrated into a production effort. The 
candidates identified in fiscal year 2013 will be assessed for use in a 
future Minuteman III Solid Rocket Motor Modernization program as well 
as in any ICBM follow-on program considered in the Ground Based 
Strategic Deterrence (GBSD) Analysis of Alternatives, which is funded 
in fiscal year 2013 and fiscal year 2014.

    Dr. Heck. The F-35 provides a significant challenge to the Nevada 
Test and Training Range (NTTR). The F-35 has new unique capabilites in 
the way that it detects and engages ground threats (Surface to Air 
Missile Systems, Aquisition Radars, etc.) F-35 targets are not only 
detected via radio signals and infared signatures, but also proper 
visual signatures. At this time, the NTTR does not have ground target 
systems that can provide all three parameters to the F-35s being 
trained at the NTTR.
    1) Does the Air Force see this as a challenge in supporting current 
and future F-35 training within the existing NTTR infrastructure?
    2) How does the Air Force intend on employing the existing NTTR 
capability in support of that training?
    3) If there are identified shortfalls in support of F-35 training, 
what are they, what are the capabilities required to alleviate them, 
and what are the associated costs and priorities for each needed 
capability?
    4) If capabilites are needed, when do they need to be in place to 
support propper F-35 training?
    5) What are the current personnel authorization changes at Nellis 
AFB or the NTTR resulting from the current F-35 program in FY13 budget 
and are they quantified at this time?
    General Schwartz. The unique capabilities of the F-35 do create 
challenges for the Air Force in providing support for future training 
at the Nevada Test and Training Range (NTTR). However, these challenges 
are being addressed and will be met through various avenues of 
approach. The Air Force is in the process of investigating and 
acquiring threat emitters that will be used to meet the requirements of 
the F-35. Additionally, many of the challenges posed by the F-35 will 
be met by creating a training environment that is not only composed of 
traditional threats and threat emitters, but will synthesize virtual 
threats creating a combined Live-Virtual-Constructive (LVC) training 
environment. This composition will allow the NTTR and other ranges 
supporting the F-35 to provide necessary training.
    The NTTR will employ its existing capabilities, along with those in 
the acquisition process, to provide the ``live'' portion of the LVC 
concept. To meet the unique sensor requirements of the F-35, the NTTR 
is developing a CONOPs for a dry ``sensor fusion'' range that will 
consist of realistic targets/decoys. Additionally, the NTTR is 
investigating the use of assets currently located at other ranges to 
increase its capabilities. The NTTR is working with Pacific Air Forces 
to examine the option of entering into a phased ``threat'' sharing 
agreement that will provide additional threat density and realistic 
threat emitters to meet the F-35 training requirements. The first phase 
will only include one threat emitter. While the NTTR currently provides 
the best training for F-22 and 5th gen aircraft and has the best target 
sets available, these target sets alone are not sufficient to provide 
realistic training when multiple sensors (EO, visual, Radar) are fused 
into a single picture. (These limitations also exist within current 4th 
generation training.) Current emitters are also insufficient to provide 
adequate density to fully replicate threat environments. To meet these 
shortfalls Air Combat Command (ACC) is procuring more threat emitters 
for NTTR; however it is impractical to procure enough emitters to fully 
represent threats anticipated in current operational plans. ACC intends 
to use LVC training to overcome these shortfalls by providing 
sufficient threat density and realistic training to `stress' pilots. 
New targets need to be in-place by 1 August 2014 when the first F-35s 
are scheduled to arrive at the Air Force Weapons School. There are no 
personnel authorization changes at the NTTR resulting from the current 
F-35 program in the FY13 budget.
    Dr. Heck. The Air Force recently announced that it is setting aside 
the award for the Light Air Support (LAS) aircraft program. In 
subsequent press statements, Chief of Staff Norton Schwartz called the 
issue ``embarrassing'' and cited poor documentation processes as the 
reason for delaying this important capability to help transition U.S. 
force out of Afghanistan. Was the issue in fact a matter of 
documentation or rather of specific decision process substance? What is 
the Air Force's specific plan moving forward? Will the service continue 
to use the same solicitation or delay this time-sensitive program with 
another RFP? What is the new timeline for contract award?
    General Schwartz. After the Air Force announced that it is setting 
aside the award for the Light Air Support (LAS) aircraft program, on 
February 27, 2012, the Air Force Materiel Command Commander initiated a 
commander directed investigation (CDI). The CDI into the LAS 
procurement confirmed that inconsistencies in level of documentation, 
failure to fully adhere to Source Selection processes outline in the 
Federal Acquisition Regulation (FAR) and supplements and source 
selection team inexperience contributed to the need to restart the LAS 
source selection. As a result, a new source selection team was 
established and an amended RFP was released to both offerors on May 4, 
2012. The amended RFP did not include any changes to requirements but 
more clearly defined the evaluation criteria and decision-making 
process. Air Force officials met individually with both original 
offerors, SNC and HBDC, to review the amended RFP changes line-by-line 
on April 17, 2012. Both offerors submitted comments on the draft 
amended RFP, which were individually addressed prior to release of the 
amended RFP. While the decision process will be event-driven, the Air 
Force targets a source selection decision in early calendar year 2013. 
This would allow first aircraft delivery to Afghanistan in third 
quarter 2014.
    Dr. Heck. With respect to a recompetition of the LAS program, since 
the RFP was for a nondevelopmental solution, will new or readmitted 
competitors be allowed to introduce new information, such as product 
developments or improvements that were accomplished after the deadlines 
for original RFP submissions? Will the Air Force maintain the mission-
based performance requirements from the original competition, or lower 
the requirements to allow additional competitors? Will offerings that 
have not previously been produced in the United States be barred from 
the future competition? If so, please explain why. Additionally, please 
explain fully why Hawker Beechcraft was found technicially insufficient 
and therefore excluded from the competitive range during the original 
LAS competition.
    General Schwartz. Consistent with the corrective action accepted by 
the Court of Federal Claims, the Air Force decided to issue an 
amendment to the LAS request for proposal (RFP) to current offerors. 
The amended RFP did not include any changes to requirements but more 
clearly defined the evaluation criteria and decision-making process. 
Because offerors may submit entirely new proposals in response to this 
amended RFP, either offeror could conceivably submit new information.
    Offerings that have not previously been produced in the United 
States are not barred from the LAS competition. LAS offerors with 
proposals that meet the requirements and other terms and conditions of 
the request for proposal will be considered for award. Specifically, 
the RFP incorporates provisions required by the Buy American Act and 
the Balance of Payments Program. Each offeror will be required to 
certify whether it will provide domestic end products, qualifying 
country end products, or other foreign end products. The Buy American 
Act and Balance of Payments Program clause (DFARS 252.225-7001) 
incorporated in the solicitation defines a domestic end product, in 
part, as an end product manufactured in the United States ``if the cost 
of its qualifying country components and its components that are mined, 
produced, or manufactured in the United States exceeds 50 percent of 
the cost of all its components.'' The evaluated price would be 
adjusted, if and as required by DFARS 225, for an offeror who proposes 
a foreign end product. The Source Selection Authority will consider the 
adjusted evaluated price in the best-value award decision.
    The results of the evaluation of HBDC's proposal are considered to 
be source selection and proprietary information and only releasable by 
HBDC.
    Dr. Heck. Submitted on behalf of Representative Rob Bishop:
    The Senate version of the FY2012 National Defense Authorization Act 
included report language stating:
    ``. . . the Air Force may use up to $12.0 million of the funds 
available for the solid rocket motor warm line for consolidation 
purposes. The committee directs the Secretary of the Air Force to 
inform the committee no later than December 1, 2011, of its decision 
and the funding needed to carry out such decision.''
    What decision has been made concerning this ``consolidation''?
    General Schwartz. The Solid Rocket Motor Warm Line program will 
close out in fiscal year 2012 and will document, disassemble, clean and 
store the government furnished equipment used during the Warm Line 
program. Before the Air Force puts its equipment in long term storage, 
we will use up to $10M of fiscal year 2012 Solid Rocket Motor Warm Line 
closeout funds to perform a Solid Rocket Motor Smart Transition. The 
Solid Rocket Motor Warm Line Smart Transition activity will transfer 
and install Stage 1 equipment at the ATK Bacchus facility. After 
washing out and recasting a Stage 1 motor, we will static fire the 
motor, document the result, then disassemble, clean, and store all 
equipment. Through this testing and documentation, the Air Force will 
establish the procedures necessary to quickly install the equipment at 
a consolidated production facility in the future. This ensures the Air 
Force retains the capability to re-pour the current motors while 
helping to sustain the industrial base through consolidation of excess 
infrastructure. This consolidation also allows the contractor to 
manufacture a variety of solid rocket motors more efficiently, thereby 
reducing contractor overhead and providing an overall cost savings to 
the government. The Air Force's decision to implement this smart 
transition is consistent with the Office of the Secretary of Defense 
Solid Rocket Motor Interagency Task Force recommendation to right-size 
solid rocket motor contractor production facilities.
    Dr. Heck. Submitted on behalf on Representative Rob Bishop:
    In FY2013, the Air Force has requested $71.2 million in RDT&E funds 
in the Intercontinental Ballistic Missile--Demonstration/Validation 
funding line (PE 0603851F). Air Force budget justification documents 
cite a sub-element request of $45.0 million for the ICBM Propulsion 
Applications Program, a program otherwise known as ``PAP.'' Related 
justification documents state that the Air Force plans to use some PAP 
funds to ``continue LCS [Large Class Stage] motor development.'' In 
fact, I understand that as much as 25% of FY2012 funds are being used 
to integrate Minuteman LCS stages into a demonstration launch vehicle, 
a task in the past left for industry, even as there are no funds for 
LCS flight tests.'' Please tell me why these funds are not better spent 
on the continued development of MCS [Medium Class Stage] motors, where 
there appear to be sufficient funds for flight tests?
    General Schwartz. The Intercontinental Ballistic Missile (ICBM) 
Demonstration/Validation (Dem/Val) Propulsion Applications Program 
(PAP) is transitioning technology development efforts from Large Class 
Stage (LCS) to Medium Class Stage (MCS) in fiscal year 2013. 
Technologies demonstrated under LCS, (e.g.) domestic fiber case 
qualifications and thrust vector control development, as well as early 
integration work will help reduce MCS motor development risk. There is 
no plan to flight test the integrated LCS booster in the PAP program, 
but exercising the systems engineering expertise required to do the 
integration work has value for continued MCS development.
    Dr. Heck. Submitted on behalf of Representative Rob Bishop:
    This Administration has repeatedly stated that they wish to reduce 
negative environmental impacts made by Department of Defense programs 
and activities. At the same time, the Air Force continues to 
demilitarize its excess rocket motors, specifically Minuteman stages 1 
and 2, through open burning. I understand industry has developed an 
alternative method, where propellant is washed out, and then key 
ingredients--such as ammonium perchlorate--are recovered. While this 
process may be slightly more expensive, since it eliminates 
introduction of pollutants to the atmosphere, is the Air Force 
considering moving in this direction?
    General Schwartz. The Air Force's Rocket System Launch Program 
(RSLP) is responsible for storage, aging surveillance, and 
demilitarization of many excess and decommissioned motor assets, 
primarily Minuteman and Peacekeeper Intercontinental Ballistic Missile 
(ICBM) motors. The decision to dispose of excess solid rocket motors 
via burning or chemical wash-out is subject to many considerations, to 
include motor type, environmental regulations, existing Depot 50/50 
law, weather, facility capacity, contract availability, and costs. 
While the Air Force Comprehensive Assessment of Nuclear Sustainment 
(AFCANS) 2 Report resulted in the addition of $11 million over fiscal 
year 2011 and fiscal year 2012 for motor destruction (which is being 
used to dispose of approximately 150 motors, including at least 15 
Minuteman 1st Stage motors by the washout method) most years have no 
funding available for motor destruction. Without AFCANS funds, the 
near-total of RSLP funds are utilized to store excess motor assets and 
complete safety-of-storage aging surveillance. The Air Force will 
continue to apply its current decision-making processes for motor 
destruction, to include adherence to existing laws and environmental 
regulations, when demilitarization funding is available.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. SCHILLING
    Mr. Schilling. What is the Air Force doing to increase competition 
opportunities and therefore cut down on costs for DOD on all levels of 
the industrial base--from subsystem and component levels to major 
platforms?
    Secretary Donley. The Air Force continually looks to find places, 
both large and small, where we can leverage competition and reduce 
costs. The Air Force is working to understand the interrelated supply 
chains that support our programs at all levels of the industrial base. 
As we increase supply chain visibility we will be able to identify 
risk. It will also allow the Air Force to identify opportunities to 
evaluate for cost effective breakouts, as well as the potential to move 
competition to lower, more competitive tiers in the supply chain.
    The Air Force is also taking a comprehensive approach that looks at 
both our legacy platforms and our new platforms in terms of data rights 
and ownership. Where our legacy platforms did not include full 
ownership of data rights, thus limiting competition, the Air Force has 
initiated a business case analysis to determine which data rights are 
required to organically sustain our legacy major weapons systems. We 
then look at ways to pursue attaining the rights for that data and the 
trade off of attaining the rights versus the cost to do so. Where new 
platforms are established, the Air Force is taking a proactive planning 
approach by determining what type of data rights are required for both 
acquisition and sustainment. This approach will lend itself to greater 
competition and cost savings at various milestones through the 
acquisition and sustainment life cycles.
    Mr. Schilling. How does the Air Force intend to ensure that small 
and medium sized business are able to compete for contracts?
    Secretary Donley. The Air Force recently released the ``Small 
Business Improvement Plan'' which has several recommendations. The 
first four are adopted from the plan:
    a) More standardization of North American Industrial Classification 
System (NAICS) Code (dollar and size standards). Contracting officers 
too often assign two or more NAICS codes to the same or very similar 
types of acquisitions resulting in lost opportunities for small 
businesses that have grown out of the small business category when a 
larger more appropriate NAIC S size standard could have been applied. 
Where flexibility in application of NAICS codes exists, Air Force 
leadership will provide guidance for the uniform selection of NAICS 
codes that maximizes practicable opportunity for small business prime 
contract participation.
    b) Use of a Bundling and Consolidation ``early warning report'' to 
alert key stakeholders as early as possible and to ensure that the Air 
Force provides maximum practicable opportunity for small business 
participation
    c) Encourage teaming by small businesses with firms other than 
small (there is no such term as ``medium'' size in federal contracting) 
in order to compete for larger dollar contracts Solicitations should 
contain language that encourages teaming arrangements and/or joint 
ventures to counter the tendency to issue larger, sometimes bundled or 
consolidated contracts
    d) Improve the quality and availability of acquisition procurement 
forecasting information available to small businesses. This would allow 
small businesses more time to plan for responding to upcoming 
acquisitions, to more fully consider teaming arrangements and to 
produce a higher quality Request for Proposal
    e) Identify and standardize market research processes to maximize 
small business opportunities in Air Force services contracts. After 
processes are developed, provide training to our small business 
specialists who, in turn, can train the acquisition community
    f) Require that the small business specialist fully participate in 
all early acquisition planning meetings and review all documentation. 
These include review of ``requirement approval documents'' (RADs). This 
provides more planning time to fashion successful small business set-
aside strategies
    Mr. Schilling. How do the Air Force's views on best practices 
compare to the commercial sector's best practices?
    The above QFR was rephrased by the committee POC and/or Military 
Legislative Fellow Derek R. Noel, as of 04/09/2012: QFR: The commercial 
aircraft industry has embraced FAA-approved components and repairs for 
the PW2000 engine, but the Air Force has still not found these 
practices acceptable for F117 repair contracts. If the commercial 
industry is finding considerable success in using FAA-approved 
components and repairs, why is the Air Force not considering the same 
practice for the F117 engine?
    Secretary Donley. In December, Pratt and Whitney (P&W) agreed to 
share their repair and overhaul manuals, which was a major step to 
enable proper overhaul and supply chain competition. With access to the 
repair manuals, the Air Force proposes a F117 competitive contract 
which aligns F117 supply chain with industry best practice.
    The P&W manuals allowed the Air Force to enhance the competitive 
playing field by building on PW2000 commercial approaches, and allow 
the Air Force to more rapidly reduce the F117's reliance on the 
original equipment manufacturer (OEM) in parts repair and new parts 
source approval process. Because the Air Force flies its engines in six 
profiles for which the Federal Aviation Administration (FAA) will not 
certify the F117 engine, we cannot rely on FAA certified parts 
manufacturer approval (PMA) parts. Instead, we have elected to mimic 
the Delta Airline engine repair approach we learned of during further 
market research. More specifically, like Delta, we will rely on P&W as 
the OEM for as much as 95 percent of the new engine parts in the near 
term and rather than continually buying new parts, the commercial data 
P&W made available allows us to repair the parts rather than replace 
them. We expect this strategy to deliver significant savings over 
exclusive parts replacement, which we believe has been P&W's technique.
    Additionally, to seek new part cost savings through our Source 
Approval Request (SAR) process, similar to those we believe are 
achieved by United/Chromalloy (through the FAA's PMA process), the P&W 
data will allow the Air Force to procure and use non-OEM parts. This 
will separate us from an exclusive relationship with P&W for OEM parts. 
However, to immediately and unconditionally accept FAA certified PMA 
parts for the F117 engine puts our crews and aircraft at operational 
safety risk. Without validation that the parts can perform to our 
military mission, the Air Force cannot accept the risk. Once PMA parts 
are validated and found to be safe, suitable and cost effective they 
will be used for the military application.
    The competitive approach the Air Force has proposed puts us on an 
ownership track that keeps our crews safe, will deliver near-term and 
long-term savings in repaired part costs, and promises more savings to 
come via the source approval process for new non-OEM parts.

    Mr. Schilling. You have stated that cutting squadrons was painful, 
but necessary. What assessments were made when deciding that the Air 
Force should cut these squadrons? Would other efficiencies have been 
able to cover the costs of keeping some of these important squadrons?
    General Schwartz. The Air Force formed a General Officer-led team 
of Active Duty and Reserve Component experts that determined force 
structure changes at various locations. Each course of action was 
assessed using specified criteria to include manpower composition, 
location of the installation, Reserve Component presence in the state, 
and how well a replacement mission is suited for a given location 
(e.g., MILCON needed and range and airspace availability). The team's 
recommendations were reviewed by Air Force leadership and ultimately 
approved or disapproved by the Secretary of the Air Force and Chief of 
Staff of the Air Force. Before backfill missions were identified, 24 
squadron-level units were in jeopardy of being eliminated and eight 
installations would have been left without an operational Air Force 
mission. After backfill missions were identified, 14 squadron-level 
units were preserved and only one installation was left without an 
operational mission.
    The new Department of Defense (DOD) Strategic Guidance ``Sustaining 
U.S. Global Leadership: Priorities For 21st Century Defense'' directs 
the services to build a force that will be smaller and leaner, 
flexible, ready and technologically advanced. As such, the Air Force 
was able to make force structure reductions, with acceptable risk, to 
provide the capabilities required by the new DOD Strategic Guidance. 
The Air Force identified $33 billion in efficiencies in the FY12 
President's Budget (PB), which the Air Force was able to realign from 
tail to tooth, and an additional $6 billion in efficiencies in the FY13 
PB. Additional efficiencies would come at the expense of other programs 
and possibly prevent the Air Force from meeting the capability required 
in the new DOD Strategic Guidance.
    Mr. Schilling. You have stated the importance of the Air Force's 
work on cyberspace security issues for some time and have now 
reiterated that point and noted that it is vital for our networked 
force. You also mentioned that our adversaries are realizing the 
benefits of doing so as well. How do you see the Air Force's role in 
addressing this force structure change in current and future 
adversaries?
    General Schwartz. The Air Force Cyberspace Superiority Core 
Function Master Plan, submitted by the Air Force Core Function Lead 
Integrator for Cyberspace Superiority (AFSPC/CC), specifies nine 
capabilities that require programmatic actions to evolve the force from 
its current capability state: Passive Defense, Defensive Counter 
Cyberspace, Intelligence, Surveillance & Reconnaissance, Situational 
Awareness, Persistent Network Operations, Data Confidentiality & 
Integrity Systems, Cyberspace Air Operations Center, Offensive Counter 
Cyberspace for Global Reach and Access, Contingency Extension, and 
Influence Operations. The ability to integrate and leverage these 
capabilities will underpin force projection in all domains while 
serving to deny adversaries operational and informational advantages. 
The Air Force will meet this challenge by dedicating funding to ensure 
its ability to operate effectively and enhance the resiliency and 
effectiveness of critical cyber capabilities. Cyberspace capabilities 
will assure freedom of action to conduct operations at times of our 
choosing by safeguarding cyberspace systems and negating adversary 
cyberspace capabilities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. How much do you anticipate saving if you retire the C-
5s, C-130s, and the six fighter squadrons?
    General Schwartz. Based on the retirements of 27 C-5As, 65 C-130s, 
and 123 A-10s and F-16s, the Air Force projects to save approximately 
$458 million in FY13 and $4.1 billion over the Future Years Defense 
Program.
    Mr. Runyan. What would be the economic effect on the Air Force if 
you put all those aircraft (C-5s, C-130s, and the six fighter 
squadrons) you plan to retire into the Reserve and Guard instead of 
retiring them?
    General Schwartz. Retaining C-5A and C-130H aircraft retired in the 
FY13 President's Budget (PB) would provide excess strategic and theater 
airlift capacity at the expense of other programs vital to national 
defense. Replacing the aircraft in the Guard and Reserve would result 
in the requirement to restore over $2.97 billion in operations, 
maintenance, and personnel funds. This amount does not include 
additional costs associated with modification programs or the cost to 
address obsolescence and diminishing manufacturing source issues unique 
to the C-5A and C-130H fleets. Placing those aircraft back in the 
Reserve and Guard would require the Air Force to divert funds from 
other critical programs. The FY13 PB divested five Air Reserve 
Component (ARC) fighter squadrons and one Active component fighter 
squadron. The economic effect of restoring five ARC squadrons to the 
FY12 PB level is an unfunded cost of $207 million in FY14 and $1,414 
billion over the next five years in both manpower and operations & 
maintenance costs. Notionally moving the sixth combat coded squadron 
from the Active Component to the ARC generates an unfunded cost of $38M 
in FY14 and $265M over the next five years in both manpower and 
operations & maintenance costs.
    Mr. Runyan. Can you retire less aircraft if you put more of them in 
the National Guard and Reserve? Could you not have more aircraft 
available if you made the ratio of Active to Reserve Component flying 
squadrons 1:3?
    General Schwartz. The Air Force does not intend to change the 
planned active and reserve component mix. Force structure adjustments 
have been and will continue to be supported by Force Composition 
Analyses of weapon system and career field communities, which use 
models developed by SAF/FM's Center of Expertise (COE) to present cost 
and benefit information for several Active and Reserve Component mixes 
produced by combinations of stand-alone units and Total Force 
Integration Associations. The Air Force will continue to leverage the 
Total Force's Regular Air Force (RegAF), Air National Guard (ANG), and 
Air Force Reserve components to maintain the same high capabilities and 
standards across the components while meeting our many and varied 
commitments. Maintaining the appropriate mix of forces between the 
Active and Reserve Components is critical to sustaining Air Force 
capabilities for forward presence, rapid response, and high-rate 
rotational demands with a smaller overall force. In 1990, the Reserve 
Component represented 25 percent of Total Force end strength; today 
that percentage is 35 percent. The proper ratio between Components must 
be achieved to maintain acceptable operations tempo levels within each 
Component, and to preserve the ability of a smaller Air Force to meet 
continued overseas presence demands and the rapid deployment and 
rotational force requirements of the strategic guidance. After the 
proposed force reductions and mitigations of FY13, Reserve Component 
end strength will make up 33 percent of Total Force military personnel, 
a reduction of two percent from the FY12 numbers. Within the Combat Air 
Forces (CAF), the Reserve Component will have 38 percent of total 
aircraft which is only four percent lower than FY12. For the Mobility 
Air Forces (MAF), the Reserve Component shares shift from 51 percent to 
46 percent. In order to maintain and enhance combat capability, the Air 
Force intends to grow the number of Total Force Integration 
Associations from 100 to 115. This will enable the seasoning of our 
RegAF personnel while improving the combat capacity of our Reserve 
Component. The FY13 Active and Reserve Component mix is the appropriate 
mix to maintain the Air Force's combat capability.
    Mr. Runyan. Do you think that keeping a smaller Active force and 
greatly increasing the Reserve Component forces will decrease your 
combat capability? Why or why not?
    General Schwartz. The Air Force does not intend to change the 
planned active and reserve component mix. Force structure adjustments 
have been and will continue to be supported by Force Composition 
Analyses of weapon system and career field communities, which use 
models developed by SAF/FM's Center of Expertise (COE) to present cost 
and benefit information for several Active and Reserve Component mixes 
produced by combinations of stand-alone units and Total Force 
Integration Associations. The Air Force will continue to leverage the 
Total Force's Regular Air Force (RegAF), Air National Guard (ANG), and 
Air Force Reserve components to maintain the same high capabilities and 
standards across the components while meeting our many and varied 
commitments. Maintaining the appropriate mix of forces between the 
Active and Reserve Components is critical to sustaining Air Force 
capabilities for forward presence, rapid response, and high-rate 
rotational demands with a smaller overall force. In 1990, the Reserve 
Component represented 25 percent of Total Force end strength; today 
that percentage is 35 percent. The proper ratio between Components must 
be achieved to maintain acceptable operations tempo levels within each 
Component, and to preserve the ability of a smaller Air Force to meet 
continued overseas presence demands and the rapid deployment and 
rotational force requirements of the strategic guidance. After the 
proposed force reductions and mitigations of FY13, Reserve Component 
end strength will make up 33 percent of Total Force military personnel, 
a reduction of two percent from the FY12 numbers. Within the Combat Air 
Forces (CAF), the Reserve Component will have 38 percent of total 
aircraft which is only four percent lower than FY12. For the Mobility 
Air Forces (MAF), the Reserve Component shares shift from 51 percent to 
46 percent. In order to maintain and enhance combat capability, the Air 
Force intends to grow the number of Total Force Integration 
Associations from 100 to 115. This will enable the seasoning of our 
RegAF personnel while improving the combat capacity of our Reserve 
Component. The FY13 Active and Reserve Component mix is the appropriate 
mix to maintain the Air Force's combat capability.
    Mr. Runyan. What missions can you put into the Reserve Component 
forces where you can perform them at lower cost? ICBM? Pilot training?
    General Schwartz. The Air Force is rebalancing the Total Force to 
match capability and capacity requirements of the new Defense Strategy. 
The Air Force, in full collaboration with Reserve Component (RC) 
leadership, will make decisions placing mission capabilities in the 
Guard/Reserve to achieve an appropriate mix in order to sustain the Air 
Force's ability to provide forward presence, rapid crisis response, and 
high rotational demands. Examples of these missions include remotely 
piloted aircraft operations, MC-12W, and intelligence.
    Decisions on the placement of capabilities into RC forces were 
based upon mission requirements and included analysis of the costs 
involved. RC value is enhanced by a part-time model and the continuum-
of-service construct whereby their participation in all mission sets is 
valuable, but more cost effective in missions that do not require full-
time participation to meet daily requirements, such as pilot training.
    The RC is already a full partner in the Air Force Nuclear 
Enterprise and is fully integrated in six of the thirteen core nuclear 
career fields. The Air Force is currently evaluating several additional 
mission areas where greater RC participation would benefit the Air 
Force through increased continuity and retention of critical nuclear 
expertise. RC Security Forces currently support of the Intercontinental 
Ballistic Missille (ICBM) mission at Minot AFB and the Air Force 
continues to assess other areas of the ICBM mission that may be 
compatible with RC participation.
    The Air Force will continue to analyze the best mix of forces and 
capabilities between the Active and RC forces balancing costs and 
mission requirements.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SCOTT
    Mr. Scott. How would you describe the relationship between the U.S. 
Air Force and the Republic of China Air Force? What impact does the ban 
on U.S. general officers visiting Taiwan have on enhancing and building 
upon this relationship?
    General Schwartz. The United States Air Force (USAF) and Taiwan Air 
Force relationship is strong. Our current Air Force leadership has 
developed enduring relationships with their Taiwan Air Force 
counterparts through annual meetings here in Washington. The USAF works 
closely with our Taiwan counterparts to provide the services they need 
to transform their force into one that will continue to deter 
aggression from the People's Republic of China. Last September the 
Administration announced a $5.85B sale to Taiwan that included 
retrofitting their F-16 A/Bs. This retrofit will significantly increase 
the war-fighting capability of Taiwan's Air Force.
    What impact does the ban on U.S. general officers visiting Taiwan 
have on enhancing and building upon this relationship?
    The ban has had minimal impact to the USAF-Taiwan Air Force 
relationship, due to the strong relationships built through engagement 
here in Washington. In addition, consistent with our longstanding 
policy, we will continue the practice of sending USAF Senior Executive 
Service (SES) leaders and retired flag officers to Taiwan to assist in 
improving their defense capabilities. Most recently, Ms. Grant (SAF/IA) 
and Mr. Wert (ESC) visited Taiwan and provided security cooperation on 
F-16 A/B retrofit program and the Surveillance Radar Program (SRP). 
Retired flag officer visitors have included Admiral (ret) Blair, 
Admiral (ret) Natter, Lieutenant General (ret) Gregson, and Lieutenant 
General (ret) Leaf. They have all spent weeks in Taiwan sharing their 
decades of experience and mentoring senior Taiwan flag officers on how 
to improve Taiwan's defenses, culminating in the annual Han Kuang 
exercise. We will continue to send these highly-qualified Air Force 
leaders to preserve our strong ties and help ensure Taiwan maintains a 
robust self-defense capability.
    Mr. Scott. When do you expect to complete the JSTARS Analysis of 
Alternatives (AoA) study?
    General Schwartz. Air Combat Command (ACC) presented the results of 
the Airborne Synthetic Aperture Radar/Moving Target Indicator (SAR/MTI) 
and Joint Surveillance Target Attack Radar System Mission Area Analysis 
of Alternatives (AoA) to the Air Force Requirements Oversight Council 
(AFROC) for validation on 30 November 2011. Vice Chief of Staff of the 
Air Force approved the AoA's release on 25 Jan 12 to the Office of the 
Secretary of Defense (OSD) Cost Assessment and Program Evaluation 
(CAPE). OSD/CAPE is currently reviewing the final report for 
sufficiency.
    Mr. Scott. DOD's new strategic guidance calls for cooperative 
partnerships to bolster common interests around the world. What are 
some examples of the kinds of innovative partnerships that the U.S. Air 
Force can assist in developing?
    General Schwartz. Developing mutually beneficial partnerships with 
militaries around the world enables interoperability, integration and 
interdependence between Coalition forces while providing our partner 
nations the capability and capacity to resolve their own national 
security challenges. Through these relationships, we are able to 
develop innovative partnerships such as the Wideband Global SATCOM, C-
17 Heavy Airlift Wing at Papa Air Base Hungary, the deployment of UAE 
F-16s in support of operation ODYSSEY DAWN, the U.S. and U.K. RC-135V/W 
RIVET JOINT (RJ) weapon system, and the C-130J multi-national 
cooperative upgrade program.
    The Wideband Global SATCOM satellite system, with the first 
satellite launched in 2007, will reach full operational capability with 
5 operational satellites in FY13. WGS increased our communications 
capacity more than ten times over the existing legacy system. As a 
result of a partnership with Australia, a 6th satellite is in 
production, which will increase U.S. overall capabilities at zero 
additional U.S. cost, yet enable Australia to realize 100% of their 
global SATCOM requirements. In January of this year, the U.S. signed 
another cooperative agreement with 5 new partners for a 9th satellite, 
increasing capacity for the U.S. and our international partners.
    A Heavy Airlift Wing activated on 27 July 2009 at Papa Air Base 
Hungary, the result of a cooperative-agreement among 12 NATO and 
Partnership for Peace (PfP) nations. The wing's, mission is to provide 
strategic airlift to the consortium's members in support of national, 
NATO, European Union and United Nations humanitarian assistance/
disaster relief operations. Through a consortium, economies of scale 
provide a capability for numerous nations that did not have the 
resources to realize an airlift capability on their own. Additionally, 
missions this wing executes are sorties the USAF does not have to fly, 
potentially saving the USAF upwards of $200M/yr. In August, 2009, the 
wing began delivering supplies to the Swedish ISAF contingent in 
Afghanistan. A C-17 from the wing delivered construction material to 
Haiti, seven days after the devastating earthquake. Last fall, a 
multinational crew supported the U.S. Army's hundred and seventy-third 
airborne Brigade Combat Team jump-week with multiple airdrop training 
sorties.
    The United Arab Emirates demonstrated their capability to carry out 
integrated coalition combat air operations in support of a NATO-led 
humanitarian mission when they flew their Block 60 F-16s in Operations 
ODYSSEY DAWN and UNIFIED PROTECTOR. Their participation was made 
possible due to the strong relationship the USAF cultivated through 
multiple personnel exchanges, direct commercial sale of F-16s, foreign 
military sales cases for maintenance, equipment, parts, training and 
logistical support, pilot training from the Air National Guard's 162nd 
Fighter Wing, participation in RED FLAG and GREEN FLAG exercises, and 
training at the Gulf Air Warfare Center.
    The RC-135V/W RIVET JOINT (RJ) weapon system merges the respective 
U.S. and U.K. RIVET JOINT fleets into a single, cooperative program for 
upgrade and sustainment (RIVET JOINT Sustainment and Follow-on 
Development MOU) of RJ aircraft and mission systems, and provides 
cooperative training for the initial cadre of operations and support 
personnel. This initiative allows for the U.S./U.K. to jointly train, 
operate and base a combined RJ fleet, increasing ISR capability 20 
percent, saving the USAF $841M in follow-on and sustainment costs, and 
enabling economies of scale in training, maintenance, and personnel.
    The C-130J Memorandum of Understanding (MOU) was established 
between the U.S. and 6 member nations as a vehicle for cooperative C-
130J projects enabling common requirement studies, block upgrades, and 
capability updates for continued flight. Project Arrangements (PAs) 
pursuant to the MOU concluded under the MOU have totaled over $667M, 
and leveraged $376M in participant investment.
    Mr. Scott. How does JSTARS operations provide a test bed for the 
networked future of air warfare?
    General Schwartz. Through the use of a dedicated test aircraft, the 
Joint Surveillance Target Attack Radar System (JSTARS) program has 
delivered capability to inform the networked future of air warfare. 
JSTARS' robust onboard Line of Sight (LOS)/Beyond Line of Sight (BLOS) 
data links and Battle Management Command & Control (BMC2) mission 
aircrew employed on JSTARS provide ample network capability to develop 
improved network capabilities. JSTARS are able to digitally commit 
fighters to targets in air to ground engagements within an 
electronically contested environment without ever speaking on the 
radio. Moreover the majority of all Command/Control taskings now occur 
in chat room environments vice traditional radio voice methods. In 2010 
JSTARS demonstrated the ability of an Intelligence, Surveillance and 
Reconnaissance platform to provide terminal guidance of net enabled 
weapons (NEWs) such as the Joint Surface Warfare (JSuW) to an intended 
target from increased stand-off ranges. In 2011 JSTARS tested and 
fielded a Quick Reaction Capability (QRC) to improve the Beyond Line of 
Sight (BLOS) reach back. Near-real-time aircraft collection data was 
provided via Satellite to any Secret Internet protocol Router network 
(SIPRnet) subscriber to an expanded audience including the Air and 
Space Operations Center. The capability reduced Air Operations Center 
leadership decision making timelines tremendously informing Rules of 
Engagement (ROE).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GRIFFIN
    Mr. Griffin. C-130 Avionics Modernization Program (AMP): According 
to the President's budget proposal for fiscal year 2013, the 
Administration plans to cancel the AMP and replace the AMP with a less 
ambitious, less costly program, commonly referred to as ``AMP Lite,'' 
for modernization of the C-130 fleet, including 184 C-130 aircraft. 
According to General Schwartz, these upgrades would likely be similar 
to those used on the KC-10 refueling aircraft and would keep the 
navigators in our C-130s.
    When determining the cost of AMP Lite, did the Air Force consider 
the cost of retaining the navigator position over the life cycle of the 
legacy C-130 fleet? If so, what is the cost? What were other criteria 
for considering the cost of AMP Lite?
    Secretary Donley. The Air Force did consider the cost of retaining 
the navigator. As reported in the December 2010 Selected Acquisition 
Report (SAR), eliminating the navigator position results in a mission 
personnel cost savings of $482 million (Base-Year 2010 dollars) over 15 
years for the 221 C-130 Avionics Modernization Program (AMP) aircraft 
fleet. This equates to a cost savings of $694 million in Then-Year 
dollars (i.e., dollars that are reflected in the budget).
    Other criteria weighed when considering the cost of the C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM) program vice C-130 AMP, were that the C-130 CNS/ATM program has 40 
percent fewer requirements, to include retaining the navigator (which 
drove less avionics integration), and not driving commonality across 
the legacy C-130H fleet.
    Although the fiscal year 2013 President's Budget reflects funding 
for 176 aircraft, the Air Force plans to modernize all 184 aircraft 
legacy C-130H combat delivery fleet in the most economically efficient 
way possible. A review of similar CNS/ATM solutions on other Air Force 
mobility aircraft (KC-10, KC-135), and an awareness of CNS/ATM 
modifications to foreign nations' C-130 aircraft, indicate that less 
expensive CNS/ATM solutions are currently available.
    Mr. Griffin. The President's FY13 budget proposed to terminate the 
C-130 AMP and claims this will save $2.2 billion. However, it is my 
understanding that the $2.2 billion in savings does not include the 
cost of a new program start, current contract termination costs or the 
life-cycle savings that AMP will provide.
    How much will the new start effort truly save after considering the 
termination liability, and other life-cycle cost savings are removed 
from the solution?
    Secretary Donley. The Future Year Defense Plan (FYDP), fiscal year 
2013-2017, investment cost savings from terminating C-130 Avionics 
Modernization Program (AMP) and initiating the ``Optimize Legacy C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM)'' program is $2.3 billion. Additionally, when adding the ``To 
Complete'' cost of AMP in the fiscal year 2012 President's Budget (PB) 
and comparing to what the Air Force has funded in the fiscal year 2013 
PB for CNS/ATM including its ``To Complete'' cost, the Air Force 
identified a total investment cost savings of $3.5 billion.
    By going with the new Optimize Legacy C-130 CNS/ATM, which retains 
the navigator position, the Air Force took into consideration that we 
would lose the mission personnel ``cost savings'' of $482 million in 
base year dollars (reference 31, Dec 2010 C-130 AMP Selected 
Acquisition Report (SAR) to Congress) vice AMP. This additional cost of 
retaining the navigator reduces the program savings referenced in the 
above paragraph.
    Furthermore, the 2010 Selected Acquisition Report (SAR) identified 
that there were no other life-cycle costs savings by continuing with 
AMP. AMP was a program intended as a force enhancement, not an 
efficiency.
    The termination liability for C-130 AMP is $5.1 million, and has 
been factored into the cost savings referenced above.
    Mr. Griffin. The 2005 Base Realignment and Closure Commission's 
final report to the President cited airspace, low level routes, and 
auxiliary airfields and nearby Fort Chaffee as reasons why ``Fort Smith 
is an ideal location for the A-10.'' Since the report was released, the 
unit has significantly modernized its facilities, greatly expanded its 
existing world-class airspace, become a leader in data link operations, 
and solidified training relationships with attack controllers special 
forces.
    What did the current Basing Commission find to contradict the BRAC 
commission's findings and suggest the transition from the A-10 to a 
remotely piloted aircraft mission at Fort Smith? Is the Air Force 
moving the A-10s at Fort Smith to other guard units to replace aging A-
10s?
    Secretary Donley. The reduction of A-10 aircraft is driven by the 
need to reduce excess force structure as identified in the new Defense 
Strategy and was not driven by a basing study. In conjunction with 
National Guard Bureau leadership, the Air Force considered the Air 
National Guard (ANG) Capstone Principle (previously approved by (the 
Adjutant Generals (TAGs)) of maintaining at least one Air Force flying 
unit in each state. As such, the Air Force chose the 188th Fighter 
Wing, Fort Smith, AR, as one of three (ANG) A-10 unit closures because 
the base, along with those in Michigan, have other manned ANG flying 
units in addition to the A-10 units selected for divestment. Final 
disposition of the individual tail numbers is determined during fleet 
management reviews and some aircraft may be realigned to other units to 
replace older A-10 aircraft. Our intent is to keep the remaining A-10 
fleet in the best possible health.
    Additionally, the Arkansas Future Missions Database identifies 
Remotely Piloted Aircraft as a preferred mission for Arkansas. The 
proximity of Arkansas' Razorback Range (less than 10 miles from Fort 
Smith) and Hog Military Operation Area (MOA), coupled with joint 
training opportunities, make Fort Smith a very attractive location for 
Remotely Piloted Aircraft (RPA) joint training. The divestiture of the 
A-10s afford an opportunity for the Air Force to assign Fort Smith a 
RPA mission and take advantage of range capabilities to facilitate 
joint training.
    Mr. Griffin. I am concerned that the Air Force's acquisition 
strategy for the LAS was flawed, for example, for LAS, the Air Force 
lowered modern pilot safety standards for accommodating women pilots in 
ejection seat aircraft. The choice for the LAS contract, the Brazilian 
Super Tucano doesn't even meet these lowered safety standards.
    Why did the Air Force roll back the clock on LAS aircraft safety 
requirements that accommodated women in ejection seat aircraft, instead 
of using the modern, and congressionally mandated pilot size 
accommodation requirements used for your T-6, F-35, and T-38 
modernization programs?
    Secretary Donley. The Air Force did not lower pilot safety 
standards for the light air support (LAS) ejection seat. Since LAS is a 
security assistance effort for Afghanistan, NATO Air Training Command--
Afghanistan (NATC-A) defined the ejection seat and pilot accommodation 
requirements based on expected seating height range for potential 
Afghanistan Air Force (AAF) and NATO pilots. The aircraft selected for 
the LAS competition will meet all required safety and accommodation 
standards.
    Mr. Griffin. In the National Defense Authorization Act for FY-12, 
the Senate Armed Services Committee commends the Air Force for ``its 
commitment to developing and maintaining a transparent, repeatable, and 
effective strategic basing process.'' They went on to say the Air Force 
has developed a process that consists, in part, of establishing basing 
criteria, developing a preliminary list of candidate bases based upon 
those criteria, and selecting final bases following a detailed 
evaluation of a smaller group of installations (Senate Bill 1253). 
Removal of aircraft is a basing decision and will affect future basing 
actions. Is there an A-10 basing study? If not, what criteria did you 
use to determine basing? Can I see the scores? If there was not a 
study, then explain how you compared options?
    Secretary Donley. The reduction of A-10 aircraft is driven by the 
need to reduce excess force structure as identified in the new Defense 
Strategy and was not driven by a basing study. The new Defense 
Strategic Guidance states that U.S. Forces will no longer be sized to 
conduct large-scale, prolonged stability operations. Analysis based on 
scenarios consistent with the Strategic Guidance resulted in a reduced 
requirement for tactical combat aircraft and a preference for multi-
role fighters to provide the most flexible capability within each 
scenario. As a result, A-10 retirements were selected in lieu of other 
combat aircraft and the Air Force made the difficult choice to retire 
five A-10 squadrons comprised of 102 A-10 aircraft. Previous reductions 
in fighter force structure shifted the Total Force ratio toward Reserve 
component forces, and Air Force decisions in the FY13 President's 
Budget request rebalanced that ratio to create a more sustainable force 
structure over the long term. In conjunction with National Guard Bureau 
leadership, the Air Force considered the Air National Guard (ANG) 
Capstone Principle (previously approved by TAGs) of maintaining at 
least one Air Force flying unit in each state. As such, the Air Force 
chose the 188th Fighter Wing, Fort Smith, AR, as one of three ANG A-10 
unit closures because the State, along with those in Michigan, has 
other manned ANG flying units in addition to the A-10 units selected 
for divestment. Additionally, the proximity of Arkansas' Razorback 
Range (less than 10 miles from Fort Smith) and Hog Military Operation 
Area (MOA), coupled with joint training opportunities, make Fort Smith 
a very attractive location for Remotely Piloted Aircraft (RPA) joint 
training. The divestiture of the A-10s afford an opportunity for the 
Air Force to assign Fort Smith a RPA mission and take advantage of 
range capabilities to facilitate joint training.
    Mr. Griffin. Background: In the fall of 2008, Secretary of the Air 
Force Michael Donley and the Air Force Chief of Staff Norton Schwartz 
sought to redefine how the Air Force expects to make basing decisions. 
The Deputy Assistant Secretary of the Air Force for Installations 
Kathleen Ferguson said ``We created a process that was deliberate, 
repeatable and transparent with defined roles and responsibilities.'' 
(Official Air Force Web site) Did the Air Force follow their 
established procedures for A-10 basing decisions, and was the process 
deliberate, repeatable and transparent with defined roles and 
responsibilities?
    Secretary Donley. The Air Force basing process is a great tool to 
determine the optimal location for assigning assets; however, the Air 
Force's goal was to reduce force structure based on the new Defense 
Strategy. The Air Force formed a General Officer led team of Active 
Duty and Reserve Component experts that determined force structure 
changes at various locations. Each course of action was assessed using 
specified criteria to include manpower composition, location of the 
installation, Reserve Component presence in the state, and how well a 
replacement mission is suited for a given location (e.g., MILCON needed 
and range and airspace availability). The team's recommendations were 
reviewed by Air Force leadership and ultimately approved or disapproved 
by the Secretary of the Air Force and Chief of Staff of the Air Force. 
Before backfill missions were identified, 24 squadron-level units were 
in jeopardy of being eliminated and eight installations would have been 
left without an operational Air Force mission. After backfill missions 
were identified, 14 squadron-level units were preserved and only one 
installation was left without an operational mission.
    Mr. Griffin. Background: In the National Defense Authorization Act 
for FY-12, the Senate Armed Services Committee stated: ``Given the high 
cost of operating aircraft and the fact that these flying operation 
costs are recurring, the committee believes these costs warrant 
examination in the strategic basing process. These flying operation 
costs include, at a minimum, the costs associated with the additional 
flying time resulting from a candidate base's relative distance to (1) 
operational training areas for fighters and training aircraft, (2) 
operational refueling tracks for tankers, and (3) critical logistic 
centers for strategic and tactical airlift aircraft. The 188th Fighter 
Wing's distance to their operational training areas is the closest in 
the Air National Guard which significantly minimizes its operations 
costs. The committee directed, ``no later than 180 days after the 
enactment of this Act, the Secretary of the Air Force to review and 
report on the role that the efficiency of flying operation costs should 
play in the strategic basing process and any steps that it plans to 
take to capture these costs in evaluating candidate bases in that 
process.'' Was the Armed Services Committee's guidance to consider 
distance to the operational training areas followed in the A-10 basing 
process? If so, what weight was given to the significant taxpayer 
savings due to reduced transit time to the 188th's training areas?
    Secretary Donley. When determining A-10 divestitures, Air Force 
assessed various criteria to include manpower composition, location of 
the installation, Reserve Component presence in the state, and how well 
a replacement mission is suited for a given location (e.g., MILCON 
needed and range and airspace availability). The team's recommendations 
were reviewed by Air Force leadership, and ultimately approved or 
disapproved by the Secretary and Chief of Staff of the Air Force. 
Arkansas' Razorback Range and Hog Military Operation Area (MOA) make 
Fort Smith a very attractive location for Remotely Piloted Aircraft 
joint training, providing an enduring mission capability to Fort Smith 
while facilitating training with our joint warfighters.
    Mr. Griffin. Background: The Commander of United States Special 
Operations Command Admiral Eric Olson testified to Congress in March 
2011: ``The shortage of readily available, local ranges currently 
hampers special operations forces' ability to meet deployment training 
timelines and causes our operators to `travel to train,' further 
increasing their already excessive time away from home.'' Additionally 
Vice Admiral William McRaven (current Special Operations Commander) 
testified in his confirmation hearing June 28, 2011, that ``high 
operational tempo has impacted readiness.'' He went on to say among the 
areas effecting the high operations tempo was the ``lack of fixed wing 
aircraft for live ordnance drops needed to train Joint Tactical Air 
Controllers.'' (SOF Background and Issues for Congress) The 188th 
Fighter Wing is a leader in Special Forces integration with an 
extensive history of SOF integration (All Services), the unique ability 
to conduct face-to-face briefs/debriefs, and an on-site Special Forces 
unit (SEALs). Without tactical fighters at Fort Smith, SOF training 
quality would significantly decrease. In addition, SOF operations tempo 
would increase since forces would have more ``travel to train'' 
requirements. Were the Special Operations Forces training needs and 
their operations tempo considered in the A-10 basing plan? If so, what 
weight was given to the significant joint force multiplier capabilities 
of the 188th Fighter Wing?
    Secretary Donley. Working with our Guard and Reserve leaders, we 
used a balanced approach to adjust our Total Force end strength while 
maintaining the ability to execute strategic guidance. Analysis based 
on scenarios consistent with the Strategic Guidance resulted in a 
reduced requirement for tactical combat aircraft and a preference for 
multi-role fighters to provide the most flexible capability to 
successfully prosecute each scenario. The Air Force provides full 
spectrum support to all joint warfighters. Special operations forces 
training involves a variety of weapon systems, and the Air Force will 
continue to provide required support while accounting for the 
divestiture of A-10s from Fort Smith. The Air Force will continue to 
provide the necessary training capability required by special 
operations forces. United States Special Operations Command (USSOCOM) 
is aware of the divestiture of A-10s at Fort Smith and has not 
expressed any concerns with operational training impacts.
    Mr. Griffin. Background: In the 2010 QDR and the National Defense 
Authorization Act for FY-12, the Senate Armed Services Committee 
recommended the services produce formal Memoranda of Agreements (MOA) 
between general purpose forces and special operations forces. A recent 
report required by the National Defense Authorization Act of 2010 
stated the requirement to ``codify support through formal agreements, 
and eventually get SOF units and their general purpose forces 
counterparts training together throughout the deployment cycle.'' The 
188FW has numerous formal MOA's in coordination with SOF and 
effectively trains with special operations throughout their deployment 
cycle. Does closing the 188FW and losing their unique SOF training 
relationship, support the special operations forces in accordance with 
the Senate Armed Services direction?
    Secretary Donley. Working with our Guard and Reserve leaders, we 
used a balanced approach to adjust our Total Force end strength while 
maintaining the ability to execute strategic guidance. The Air Force 
provides full spectrum support to all joint warfighters. Special 
operations forces training involves a variety of weapon systems, and 
the Air Force will continue to provide required support while 
accounting for the divestiture of A-10s from Fort Smith.
    Mr. Griffin. Background: On October 5, 2009, the President signed 
Executive Order (EO) 13514, which set sustainability goals for federal 
agencies to make improvements in their environmental, energy, and 
economic performance. He went on to say ``The Defense Department must 
take a hard look at every aspect of how it is organized, staffed, and 
operated--indeed, every aspect of how it does business.'' The 188th 
Fighter Wing is a leader in renewable energy, energy conversation, and 
has among the lowest energy costs in the Air National Guard. When 
making basing decisions did the Air Force consider energy costs and 
sustainability? If so, what weight was given to the significant energy 
cost savings of the 188th Fighter Wing?
    Secretary Donley. The impact of energy on basing decisions can be 
important. However, the changes for the 188th Fighter Wing is not a 
basing decision but a force structure realignment decision. This force 
structure realignment decision was made in conjunction with National 
Guard Bureau leadership, the Air Force considered the Air National 
Guard's (ANG) first Capstone Principle, ``allocate at least one flying 
unit with ANG equipment to each state,'' when deciding which A-10 bases 
would be affected. Of the five states with ANG A-10 units, two have no 
other flying unit and so reductions came from the three states, 
including Arkansas, that have other flying units.
    Mr. Griffin. Background: On May 8, 2010, the Secretary of Defense 
gave a speech at the Eisenhower Library, in which he announced his 
intention of reforming the business operations of the Pentagon in an 
effort to root out duplication, waste, and excess spending. The 
Secretary stated: ``The Defense Department must take a hard look at 
every aspect of how it is organized, staffed, and operated--indeed, 
every aspect of how it does business. In each instance we must ask: 
First, is this respectful of the American taxpayer at a time of 
economic and fiscal duress? And second, is this activity or arrangement 
the best use of limited dollars, given the pressing needs to take care 
of our people, win the wars we are in, and invest in the capabilities 
necessary to deal with the most likely and lethal future threats?'' 
Additionally, in January 2012 Defense Secretary Panetta released the 
Defense Budget Priorities and Choices. In it he said that in developing 
the budget, the DOD first turned to where DOD could reduce among other 
things operations expenses across the defense enterprise. Flight hour 
costs represent a significant proportion of fighter training expenses. 
Flight time spent transiting to/from the training areas is waste of 
taxpayer resources. The 188th Fighter Wing has the closest airspace 
therefore, it also has the lowest flight hour cost per training event. 
Were operational costs considered in the A-10 basing plan? If so, what 
weight was given to the significant cost savings provided by the 188th 
Fighter Wing?
    Secretary Donley. The Air Force formed a General Officer led team 
of Active Duty and Reserve Component experts that considered a variety 
of criteria to include manpower composition, location of the 
installation, Reserve Component presence in the state, and how well a 
replacement mission is suited for a given location (e.g., MILCON needed 
and range and airspace availability). Since these were force structure 
reductions and not part of the strategic basing process, the specific 
criteria was not weighted. The team's recommendations were reviewed by 
Air Force leadership and ultimately approved or disapproved by the 
Secretary of the Air Force and Chief of Staff of the Air Force.
    Mr. Griffin. Background: In January 2012 Defense Secretary Panetta 
released the Defense Budget Priorities and Choices. In it he said that 
in developing the budget the DOD first turned to where DOD could reduce 
among other things personnel costs across the defense enterprise. Fort 
Smith, (compared to all current A-10 bases and all air-to-ground Air 
National Guard fighter units) has the lowest combined health, housing 
and utility costs. Were personnel costs included when A-10 basing 
decisions were made? If so, what weight was given to the significant 
personnel cost savings at the 188th Fighter Wing?
    Secretary Donley. The Air Force formed a General Officer led team 
of Active Duty and Reserve Component experts that considered a variety 
of criteria to include manpower composition, location of the 
installation, Reserve Component presence in the state, and how well a 
replacement mission is suited for a given location (e.g., MILCON needed 
and range and airspace availability). Since these were force structure 
reductions and not part of the Air Force's formal strategic basing 
process, the specific personnel cost criteria was not weighted. The 
advantages of the relatively low cost of living found near Fort Smith, 
AR will continue to benefit the members of the unit who will perform 
the new MQ-1/9 Remote Split Operations mission. The team's 
recommendations were reviewed by Air Force leadership and ultimately 
approved.
    Mr. Griffin. Background: On Oct. 25, 2010, Chairman of the Joint 
Chiefs of Staff Admiral Michael Mullen responding to a letter on JTAC 
training said ``I share his concern regarding the increased demand 
signal for JTAC's and the stress it exerts on the current production 
capacities.'' On November 16, 2010, General Raymond Odierno, the 
Commander of United States Joint Forces Command, wrote Admiral Mullen 
to express concerns he had over JTAC tasking and training. He said 
``The increased demand has resulted in a more than 100 percent increase 
in schoolhouse throughput with a corresponding increase in the number 
of required support sorties.'' Since the 188th's primary mission is 
Close Air Support almost every training sortie is in support of ground 
forces. With unmatched airspace proximity, volume, and availability, 
the 188th produces the most JTAC training per flight hour in the entire 
Air Force. When making fighter basing decisions, did the Air Force 
consider JTAC training requirements? If so, what weight was given to 
the significant JTAC training production of the 188th Fighter Wing?
    Secretary Donley. The new Department of Defense Strategic Guidance, 
``Sustaining U.S. Global Leadership: Priorities For 21st Century 
Defense,'' directs the Services to build a force that will be smaller, 
leaner, flexible, ready, and technologically advanced. As a result, the 
Air Force is reducing its size to support one large-scale combined arms 
campaign with sufficient combat power to deny a second adversary. With 
the divestiture of Fort Smith's A-10s, the Air Force will maintain 
sufficient capacity to produce and train Joint terminal Attack 
Controller to support the new Defense Strategy.
    The Air Force formed a General Officer led team of Active Duty and 
Reserve Component experts that considered a variety of criteria to 
include manpower composition, location of the installation, Reserve 
Component presence in the state, and how well a replacement mission is 
suited for a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria was not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved.
    Mr. Griffin. Background: Quality attack controller training has 
long been a problem for the DOD. A Due to airspace and asset 
limitations at other locations throughout the country the quality of 
attack controller sometimes suffers. The 188th Fighter Wing with it's 
unique capability to face-to-face brief/debrief, diverse training 
environment, regional training partners, and incorporation of leading 
edge technology provides the best training for the services JTAC's, 
When making fighter basing decisions did the Air Force consider the 
quality of JTAC training? If so, what weight was given to the second-
to-none JTAC training VALUE at the 188th Fighter Wing?
    Secretary Donley. The new Department of Defense Strategic Guidance, 
``Sustaining U.S. Global Leadership: Priorities For 21st Century 
Defense,'' directs the Services to build a force that will be smaller, 
leaner, flexible, ready, and technologically advanced. As a result, the 
Air Force is reducing its size to support one large-scale combined arms 
campaign with sufficient combat power to deny a second adversary. With 
the divestiture of Fort Smith's A-10s, the Air Force will maintain 
sufficient capacity to produce and train JTACs to support the new 
Defense Strategy.
    The Air Force formed a General Officer led team of Active Duty and 
Reserve Component experts that considered a variety of criteria to 
include manpower composition, location of the installation, Reserve 
Component presence in the state, and how well a replacement mission is 
suited for a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria was not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved or disapproved by the Secretary of 
the Air Force and Chief of Staff of the Air Force.
    Mr. Griffin. Did the Air Force consider innovation and joint 
network capabilities when developing the A-10 basing plan? If so, what 
weight was given to the leading edge initiatives of the 188th Fighter 
Wing?
    Secretary Donley. The proposed changes for the 188th Fighter Wing 
are not a basing decision but a force structure realignment decision. 
This force structure realignment decision was made in conjunction with 
National Guard Bureau leadership, the Air Force considered the Air 
National Guard's (ANG) first Capstone Principle, ``allocate at least 
one flying unit with ANG equipment to each state,'' when deciding which 
A-10 bases would be affected. Of the five states with ANG A-10 units, 
two have no other flying unit and so reductions came from the three 
states, including Arkansas, that have other flying units. Additionally, 
our General Officer led review considered a variety of criteria to 
include manpower composition, location of the installation, Reserve 
Component presence in the state, and how well a replacement mission is 
suited for a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria were not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved.
    The proposed changes for the 188th Fighter Wing is not a basing 
decision but a force structure realignment decision. This force 
structure realignment decision was made in conjunction with National 
Guard Bureau leadership, the Air Force considered the Air National 
Guard's (ANG) first Capstone Principle, ``allocate at least one flying 
unit with ANG equipment to each state,'' when deciding which A-10 bases 
would be affected. Of the five states with ANG A-10 units, two have no 
other flying unit and so reductions came from the three states, 
including Arkansas, that have other flying units. Additionally, our 
General Officer led review considered a variety of criteria to include 
manpower composition, location of the installation, Reserve Component 
presence in the state, and how well a replacement mission is suited for 
a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria was not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved.
    Mr. Griffin. Was F-35 basing considered in the A-10 basing study? 
If so, how did bases that scored lower in the study keep their manned 
fighter aircraft?
    Secretary Donley. F-35 basing was not considered when making force 
structure reduction or backfill mission decisions that take effect in 
FY13 and FY14. Given current F-35 production estimates, the next set of 
F-35 basing decisions will include domestic and overseas bases and will 
not be required prior to FY17. The Air Force formed a General Officer 
led team of Active Duty and Reserve Component experts that determined 
force structure changes at various locations. Each course of action was 
assessed using specified criteria to include manpower composition, 
location of the installation, Reserve Component presence in the state, 
and how well a replacement mission is suited for a given location 
(e.g., MILCON needed and range and airspace availability). The team's 
recommendations were reviewed by Air Force leadership and ultimately 
approved or disapproved by the Secretary of the Air Force and Chief of 
Staff of the Air Force. Before backfill missions were identified, 24 
squadron-level units were in jeopardy of being eliminated and eight 
installations would have been left without an operational Air Force 
mission. After backfill missions were identified, 14 squadron-level 
units were preserved and only one installation was left without an 
operational mission.
    Mr. Griffin. Was the capability to support Total Force Initiatives 
considered in the A-10 basing decisions? If so what weight was given to 
Fort Smith's efficiencies and unique strengths?
    Secretary Donley. The new Defense Strategic Guidance drove a 
holistic inter-state approach to Air National Guard and Air Force 
Reserve force structure. The Air Force's proposed efforts will correct 
several manpower disconnects, rebalance forces, and improve sortie 
generation and aircraft utilization rates across the Total Force. This 
combination is intended to improve the Total Force's readiness and 
responsiveness across the spectrum of operations. From both an 
operational effectiveness and fiscal responsibility perspective, this 
strategy was preferred over a more piecemeal state-by-state approach.
    In conjunction with National Guard Bureau leadership, the Air Force 
considered the Air National Guard (ANG) Capstone Principle (previously 
approved by TAGs) of maintaining at least one Air Force flying unit in 
each state. As such, the Air Force chose the 188th Fighter Wing, Fort 
Smith, AR, as one of three ANG A-10 unit closures because the base, 
along with those in Michigan, have other manned ANG flying units in 
addition to the A-10 units selected for divestment. Additionally, the 
Arkansas Future Missions Database identifies Remotely Piloted Aircraft 
(RPA) as a preferred mission for Arkansas. The proximity of Arkansas' 
Razorback Range (less than 10 miles from Fort Smith) and Hog Military 
Operation Area (MOA), coupled with joint training opportunities, make 
Fort Smith a very attractive location for RPA joint training. The 
divestiture of the A-10s affords an opportunity for the Air Force to 
assign Fort Smith a RPA mission and take advantage of range 
capabilities to facilitate joint training.
    Mr. Griffin. Questions regarding AMP
    Why are you now choosing to end a program that is over 98% complete 
with development activities and with very little risk going forward?
    With a reasonable learning curve, what is a cost of the current AMP 
system fully installed? What would the cost be for the alternative 
system?
    Could you explain the numbers that have been floating around in the 
press on the cost of the current program? My understanding is we've 
invested about $2.1B and should have around $2.5B to go. However, it 
appears the USAF is using a $6.2B total program cost, leaving over 
$4.1B yet to be spent. With less than 200 aircraft to be modified and 
using $8M a copy, we should be able to finish the program for around 
$2B.
    Has there been any analysis of the long-term cost savings the 
current AMP solution provides versus the new start for just a CNS/ATM 
capability that is proposed for FY 13?
    So that the taxpayer's money invested in the program and research 
is not lost, have you considered restructuring the current program to 
work within your new funding profile and avoid the cost and inherent 
risks of a new start effort?
    Can the current program be scaled down and still retain its 
certification? If so, have you thought about doing that instead of 
starting all over again?
    Secretary Donley. Due to budget constraints, the fiscal year 2013 
President's Budget (PB) terminated the C-130 Avionics Modernization 
Program (AMP).
    As reflected in the December 2010 Selected Acquisition Report 
(SAR), the C-130 AMP per aircraft estimate is $19 million. The fiscal 
year 2012 PB per aircraft cost of ``Optimize Legacy C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM)'' program is $3.7 million.
    A total of $1.8 billion has been spent to date on C-130 AMP. A 
breakdown by phase follows: RDT&E: $1.7 billion Procurement: $0.1 
billion
    Total cost of the 221 C-130 AMP aircraft fleet is $6.3 billion: The 
latest cost estimate is from the Office of the Secretary of Defense 
(OSD) Cost Assessment and Program Evaluation's (CAPE) Independent Cost 
Estimate (ICE) dated 23 March 2010; it reflects total cost of $6.3 
billion (Then-Year dollars): RDT&E: $1.8 billion Procurement: $4.5 
billion
    A specific comparative analysis of the long-term cost savings the 
current C-130 AMP solution provides versus the new C-130 CNS/ATM 
program was not accomplished. Compliance with looming CNS/ATM mandates 
was the primary reason behind the C-130 AMP program, and remains the 
primary reason for the planned C-130 CNS/ATM program. The Air Force 
plans to modernize the 184 aircraft legacy C-130 combat delivery fleet 
in the most economically efficient way possible. A review of similar 
CNS/ATM solutions on other Air Force mobility aircraft (KC-10, KC-135), 
and an awareness of CNS/ATM modifications to foreign nations' C-130 
aircraft, indicate that less expensive CNS/ATM solutions are currently 
available.
    The C-130 CNS/ATM program will provide the capabilities related to 
global access and global engagement that the Joint Requirements 
Oversight Council (JROC) determined are essential to national security.
    The primary differences between the C-130 AMP and the C-130 CNS/ATM 
program are: The new program retains the navigator position, thereby 
requiring much less avionics integration than C-130 AMP, the new 
program does not standardize the aircraft cockpit across the C-130H 
fleet, and there is more than a 40 percent reduction in requirements 
when compared to C-130 AMP. These changes were too large to restructure 
the C-130 AMP program or to simply scale it down. The goal is for an 
open and transparent defense industry competition, with C-130 CNS/ATM 
program contract award in fiscal year 2014. This is required to ensure 
the legacy C-130H combat delivery fleet meets the Federal Aviation 
Administration's air traffic management 1 January 2020 mandate.
    Mr. Griffin. Today, the Air Force advised the Department of Justice 
that it will take corrective action on the Afghanistan Light Air 
Support Contract and will set aside the contract award to Sierra Nevada 
effective March 2, 2012.
    What does this announcement mean for the LAS contract award and is 
the AF planning on reopening the competition for the LAS contract?
    Secretary Donley. On February 28, 2012, the Air Force initiated 
review of appropriate corrective action in response to litigation and 
dissatisfaction with source selection documentation. At a minimum, the 
Air Force corrective action would:
    1) Set aside (terminate) the award to Sierra Nevada Corporation 
(``SNC''), 2) Reinstate Hawker Beechcraft Defense Company, LLC 
(``HBDC'') to the competitive range under the procurement, 3) Accept 
new proposals from the parties, based upon the existing solicitation in 
its original form, or as amended, 4) Conduct meaningful discussions 
with the parties, and 5) Reevaluate proposals in accordance with the 
terms of the solicitation; or 6) Reserve the right to conduct a whole 
new competition
    Concurrently, the Air Force Materiel Command initiated a Commander 
Directed Investigation (CDI) into the Light Air Support (LAS) 
procurement. After studying the circumstances prompting the corrective 
action and facts from the subsequent CDI, the Air Force decided to 
issue an amendment to the LAS Request for Proposal (RFP) to both 
offerors. Air Force officials met with both original offerors, SNC and 
HBDC, individually to review the amended RFP changes line-by-line on 
April 17, 2012. Both will have time to submit comments on the draft RFP 
amendment, after which the Air Force expects to release the final 
amended RFP on approximately April 30, 2012. While the decision process 
will be event-driven, the Air Force targets a source selection decision 
in early calendar year 2013. This would allow first aircraft delivery 
to Afghanistan in third quarter 2014.
    Mr. Griffin. Why did the USAF roll back the clock on LAS aircraft 
safety requirements that accommodated women in ejection seat aircraft 
instead of using the modern, and congressionally mandated pilot size 
accommodation requirements used for your T-6, F-35, and T-38 
modernization programs?
    Secretary Donley. The Air Force did not lower pilot safety 
standards for the light air support (LAS) ejection seat. Since LAS is a 
security assistance effort for Afghanistan, NATO Air Training Command--
Afghanistan (NATC-A) defined the ejection seat and pilot accommodation 
requirements based on expected seating height range for potential 
Afghanistan Air Force (AAF) and NATO pilots. The aircraft selected for 
the LAS competition will meet all required safety and accommodation 
standards.
    Mr. Griffin. Why did the USAF ignore inputs from industry that 
pointed out that the LAS solicitation was using outdated pilot size 
accommodation requirements and instead should be using the state of the 
art safety standards established for the JPATS, JSF, and T-38 
modernization programs?
    Secretary Donley. Since light air support (LAS) is a security 
assistance effort for Afghanistan, NATO Air Training Command--
Afghanistan (NATC-A) defined the ejection seat and pilot accommodation 
requirements based on expected seating height range for potential 
Afghanistan Air Force (AAF) and NATO pilots. The aircraft selected for 
the LAS competition will meet all required safety and accommodation 
standards.

    Mr. Griffin. C-130 Avionics Modernization Program (AMP): According 
to the President's budget proposal for fiscal year 2013, the 
Administration plans to cancel the AMP and replace the AMP with a less 
ambitious, less costly program, commonly referred to as ``AMP Lite,'' 
for modernization of the C-130 fleet, including 184 C-130 aircraft. 
According to General Schwartz, these upgrades would likely be similar 
to those used on the KC-10 refueling aircraft and would keep the 
navigators in our C-130s.
    When determining the cost of AMP Lite, did the Air Force consider 
the cost of retaining the navigator position over the life cycle of the 
legacy C-130 fleet? If so, what is the cost? What were other criteria 
for considering the cost of AMP Lite?
    General Schwartz. The Air Force did consider the cost of retaining 
the navigator. As reported in the December 2010 Selected Acquisition 
Report (SAR), eliminating the navigator position results in a mission 
personnel cost savings of $482 million (Base-Year 2010 dollars) over 15 
years for the 221 C-130 Avionics Modernization Program (AMP) aircraft 
fleet. This equates to a cost savings of $694 million in Then-Year 
dollars (i.e., dollars that are reflected in the budget).
    Other criteria weighed when considering the cost of the C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM) program vice C-130 AMP, were that the C-130 CNS/ATM program has 40 
percent fewer requirements, to include retaining the navigator (which 
drove less avionics integration), and not driving commonality across 
the legacy C-130H fleet.
    Although the fiscal year 2013 President's Budget reflects funding 
for 176 aircraft, the Air Force plans to modernize all 184 aircraft 
legacy C-130H combat delivery fleet in the most economically efficient 
way possible. A review of similar CNS/ATM solutions on other Air Force 
mobility aircraft (KC-10, KC-135), and an awareness of CNS/ATM 
modifications to foreign nations' C-130 aircraft, indicate that less 
expensive CNS/ATM solutions are currently available.
    Mr. Griffin. The President's FY13 budget proposed to terminate the 
C-130 AMP and claims this will save $2.2 billion. However, it is my 
understanding that the $2.2 billion in savings does not include the 
cost of a new program start, current contract termination costs or the 
life-cycle savings that AMP will provide.
    How much will the new start effort truly save after considering the 
termination liability, and other life-cycle cost savings are removed 
from the solution?
    General Schwartz. The Future Year Defense Plan (FYDP), fiscal year 
2013-2017, investment cost savings from terminating C-130 Avionics 
Modernization Program (AMP) and initiating the ``Optimize Legacy C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM)'' program is $2.3 billion. Additionally, when adding the ``To 
Complete'' cost of AMP in the fiscal year 2012 President's Budget (PB) 
and comparing to what the Air Force has funded in the fiscal year 2013 
PB for CNS/ATM including its ``To Complete'' cost, the Air Force 
identified a total investment cost savings of $3.5 billion.
    By going with the new Optimize Legacy C-130 CNS/ATM, which retains 
the navigator position, the Air Force took into consideration that we 
would lose the mission personnel ``cost savings'' of $482 million in 
base year dollars (reference 31, Dec 2010 C-130 AMP Selected 
Acquisition Report (SAR) to Congress) vice AMP. This additional cost of 
retaining the navigator reduces the program savings referenced in the 
above paragraph.
    Furthermore, the 2010 Selected Acquisition Report (SAR) identified 
that there were no other life-cycle costs savings by continuing with 
AMP. AMP was a program intended as a force enhancement, not an 
efficiency.
    The termination liability for C-130 AMP is $5.1 million, and has 
been factored into the cost savings referenced above.
    Mr. Griffin. The 2005 Base Realignment and Closure Commission's 
final report to the President cited airspace, low level routes, and 
auxiliary airfields and nearby Fort Chaffee as reasons why ``Fort Smith 
is an ideal location for the A-10.'' Since the report was released, the 
unit has significantly modernized its facilities, greatly expanded its 
existing world-class airspace, become a leader in data link operations, 
and solidified training relationships with attack controllers special 
forces.
    What did the current Basing Commission find to contradict the BRAC 
commission's findings and suggest the transition from the A-10 to a 
remotely piloted aircraft mission at Fort Smith? Is the Air Force 
moving the A-10s at Fort Smith to other guard units to replace aging A-
10s?
    General Schwartz. The reduction of A-10 aircraft is driven by the 
need to reduce excess force structure as identified in the new Defense 
Strategy and was not driven by a basing study. In conjunction with 
National Guard Bureau leadership, the Air Force considered the Air 
National Guard (ANG) Capstone Principle (previously approved by (the 
Adjutant Generals (TAGs)) of maintaining at least one Air Force flying 
unit in each state. As such, the Air Force chose the 188th Fighter 
Wing, Fort Smith, AR, as one of three (ANG) A-10 unit closures because 
the base, along with those in Michigan, have other manned ANG flying 
units in addition to the A-10 units selected for divestment. Final 
disposition of the individual tail numbers is determined during fleet 
management reviews and some aircraft may be realigned to other units to 
replace older A-10 aircraft. Our intent is to keep the remaining A-10 
fleet in the best possible health.
    Additionally, the Arkansas Future Missions Database identifies 
Remotely Piloted Aircraft as a preferred mission for Arkansas. The 
proximity of Arkansas' Razorback Range (less than 10 miles from Fort 
Smith) and Hog Military Operation Area (MOA), coupled with joint 
training opportunities, make Fort Smith a very attractive location for 
Remotely Piloted Aircraft (RPA) joint training. The divestiture of the 
A-10s afford an opportunity for the Air Force to assign Fort Smith a 
RPA mission and take advantage of range capabilities to facilitate 
joint training.
    Mr. Griffin. I am concerned that the Air Force's acquisition 
strategy for the LAS was flawed, for example, for LAS, the Air Force 
lowered modern pilot safety standards for accommodating women pilots in 
ejection seat aircraft. The choice for the LAS contract, the Brazilian 
Super Tucano doesn't even meet these lowered safety standards.
    Why did the Air Force roll back the clock on LAS aircraft safety 
requirements that accommodated women in ejection seat aircraft, instead 
of using the modern, and congressionally mandated pilot size 
accommodation requirements used for your T-6, F-35, and T-38 
modernization programs?
    General Schwartz. The Air Force did not lower pilot safety 
standards for the light air support (LAS) ejection seat. Since LAS is a 
security assistance effort for Afghanistan, NATO Air Training Command--
Afghanistan (NATC-A) defined the ejection seat and pilot accommodation 
requirements based on expected seating height range for potential 
Afghanistan Air Force (AAF) and NATO pilots. The aircraft selected for 
the LAS competition will meet all required safety and accommodation 
standards.
    Mr. Griffin. In the National Defense Authorization Act for FY-12, 
the Senate Armed Services Committee commends the Air Force for ``its 
commitment to developing and maintaining a transparent, repeatable, and 
effective strategic basing process''. They went on to say the Air Force 
has developed a process that consists, in part, of establishing basing 
criteria, developing a preliminary list of candidate bases based upon 
those criteria, and selecting final bases following a detailed 
evaluation of a smaller group of installations'' (Senate Bill 1253) 
Removal of aircraft is a basing decision and will affect future basing 
actions. Is there an A-10 basing study? If not, what criteria did you 
use to determine basing? Can I see the scores? If there was not a 
study, then explain how you compared options?
    General Schwartz. The reduction of A-10 aircraft is driven by the 
need to reduce excess force structure as identified in the new Defense 
Strategy and was not driven by a basing study. The new Defense 
Strategic Guidance states that U.S. Forces will no longer be sized to 
conduct large-scale, prolonged stability operations. Analysis based on 
scenarios consistent with the Strategic Guidance resulted in a reduced 
requirement for tactical combat aircraft and a preference for multi-
role fighters to provide the most flexible capability within each 
scenario. As a result, A-10 retirements were selected in lieu of other 
combat aircraft and the Air Force made the difficult choice to retire 
five A-10 squadrons comprised of 102 A-10 aircraft. Previous reductions 
in fighter force structure shifted the Total Force ratio toward Reserve 
component forces, and Air Force decisions in the FY13 President's 
Budget request rebalanced that ratio to create a more sustainable force 
structure over the long term. In conjunction with National Guard Bureau 
leadership, the Air Force considered the Air National Guard (ANG) 
Capstone Principle (previously approved by TAGs) of maintaining at 
least one Air Force flying unit in each state. As such, the Air Force 
chose the 188th Fighter Wing, Fort Smith, AR, as one of three ANG A-10 
unit closures because the State, along with those in Michigan, has 
other manned ANG flying units in addition to the A-10 units selected 
for divestment. Additionally, the proximity of Arkansas' Razorback 
Range (less than 10 miles from Fort Smith) and Hog Military Operation 
Area (MOA), coupled with joint training opportunities, make Fort Smith 
a very attractive location for Remotely Piloted Aircraft (RPA) joint 
training. The divestiture of the A-10s afford an opportunity for the 
Air Force to assign Fort Smith a RPA mission and take advantage of 
range capabilities to facilitate joint training.
    Mr. Griffin. Background: In the fall of 2008, Secretary of the Air 
Force Michael Donley and the Air Force Chief of Staff Norton Schwartz 
sought to redefine how the Air Force expects to make basing decisions. 
The Deputy Assistant Secretary of the Air Force for Installations 
Kathleen Ferguson said ``We created a process that was deliberate, 
repeatable and transparent with defined roles and responsibilities.'' 
(Official Air Force Web site) Did the Air Force follow their 
established procedures for A-10 basing decisions, and was the process 
deliberate, repeatable and transparent with defined roles and 
responsibilities?
    General Schwartz. The Air Force basing process is a great tool to 
determine the optimal location for assigning assets; however, the Air 
Force's goal was to reduce force structure based on the new Defense 
Strategy. The Air Force formed a General Officer led team of Active 
Duty and Reserve Component experts that determined force structure 
changes at various locations. Each course of action was assessed using 
specified criteria to include manpower composition, location of the 
installation, Reserve Component presence in the state, and how well a 
replacement mission is suited for a given location (e.g., MILCON needed 
and range and airspace availability). The team's recommendations were 
reviewed by Air Force leadership and ultimately approved or disapproved 
by the Secretary of the Air Force and Chief of Staff of the Air Force. 
Before backfill missions were identified, 24 squadron-level units were 
in jeopardy of being eliminated and eight installations would have been 
left without an operational Air Force mission. After backfill missions 
were identified, 14 squadron-level units were preserved and only one 
installation was left without an operational mission.
    Mr. Griffin. Background: In the National Defense Authorization Act 
for FY-12, the Senate Armed Services Committee stated: ``Given the high 
cost of operating aircraft and the fact that these flying operation 
costs are recurring, the committee believes these costs warrant 
examination in the strategic basing process. These flying operation 
costs include, at a minimum, the costs associated with the additional 
flying time resulting from a candidate base's relative distance to (1) 
operational training areas for fighters and training aircraft, (2) 
operational refueling tracks for tankers, and (3) critical logistic 
centers for strategic and tactical airlift aircraft. The 188th Fighter 
Wing's distance to their operational training areas is the closest in 
the Air National Guard which significantly minimizes its operations 
costs. The committee directed, ``no later than 180 days after the 
enactment of this Act, the Secretary of the Air Force to review and 
report on the role that the efficiency of flying operation costs should 
play in the strategic basing process and any steps that it plans to 
take to capture these costs in evaluating candidate bases in that 
process.'' Was the Armed Services Committee's guidance to consider 
distance to the operational training areas followed in the A-10 basing 
process? If so, what weight was given to the significant taxpayer 
savings due to reduced transit time to the 188th's training areas?
    General Schwartz. When determining A-10 divestitures, Air Force 
assessed various criteria to include manpower composition, location of 
the installation, Reserve Component presence in the state, and how well 
a replacement mission is suited for a given location (e.g., MILCON 
needed and range and airspace availability). The team's recommendations 
were reviewed by Air Force leadership, and ultimately approved or 
disapproved by the Secretary and Chief of Staff of the Air Force. 
Arkansas' Razorback Range and Hog Military Operation Area (MOA) make 
Fort Smith a very attractive location for Remotely Piloted Aircraft 
joint training, providing an enduring mission capability to Fort Smith 
while facilitating training with our joint warfighters.
    Mr. Griffin. Background: The Commander of United States Special 
Operations Command Admiral Eric Olson testified to Congress in March 
2011: ``The shortage of readily available, local ranges currently 
hampers special operations forces' ability to meet deployment training 
timelines and causes our operators to `travel to train,' further 
increasing their already excessive time away from home.'' Additionally 
Vice Admiral William McRaven (current Special Operations Commander) 
testified in his confirmation hearing June 28, 2011 that ``high 
operational tempo has impacted readiness.'' He went on to say among the 
areas effecting the high operations tempo was the ``lack of fixed wing 
aircraft for live ordnance drops needed to train Joint Tactical Air 
Controllers.'' (SOF Background and Issues for Congress) The 188th 
Fighter Wing is a leader in Special Forces integration with an 
extensive history of SOF integration (All Services), the unique ability 
to conduct face-to-face briefs/debriefs, and an on-site Special Forces 
unit (SEALs). Without tactical fighters at Fort Smith, SOF training 
quality would significantly decrease. In addition, SOF operations tempo 
would increase since forces would have more ``travel to train'' 
requirements. Were the Special Operations Forces training needs and 
their operations tempo considered in the A-10 basing plan? If so, what 
weight was given to the significant joint force multiplier capabilities 
of the 188th Fighter Wing?
    General Schwartz. Working with our Guard and Reserve leaders, we 
used a balanced approach to adjust our Total Force end strength while 
maintaining the ability to execute strategic guidance. Analysis based 
on scenarios consistent with the Strategic Guidance resulted in a 
reduced requirement for tactical combat aircraft and a preference for 
multi-role fighters to provide the most flexible capability to 
successfully prosecute each scenario. The Air Force provides full 
spectrum support to all joint warfighters. Special operations forces 
training involves a variety of weapon systems, and the Air Force will 
continue to provide required support while accounting for the 
divestiture of A-10s from Fort Smith. The Air Force will continue to 
provide the necessary training capability required by special 
operations forces. United States Special Operations Command (USSOCOM) 
is aware of the divestiture of A-10s at Fort Smith and has not 
expressed any concerns with operational training impacts.
    Mr. Griffin. Background: In the 2010 QDR and the National Defense 
Authorization Act for FY-12, the Senate Armed Services Committee 
recommended the services produce formal Memoranda of Agreements (MOA) 
between general purpose forces and special operations forces. A recent 
report required by the National Defense Authorization Act of 2010 
stated the requirement to ``codify support through formal agreements, 
and eventually get SOF units and their general purpose forces 
counterparts training together throughout the deployment cycle.'' The 
188FW has numerous formal MOA's in coordination with SOF and 
effectively trains with special operations throughout their deployment 
cycle. Does closing the 188FW and losing their unique SOF training 
relationship, support the special operations forces in accordance with 
the Senate Armed Services direction?
    General Schwartz. Working with our Guard and Reserve leaders, we 
used a balanced approach to adjust our Total Force end strength while 
maintaining the ability to execute strategic guidance. The Air Force 
provides full spectrum support to all joint warfighters. Special 
operations forces training involves a variety of weapon systems, and 
the Air Force will continue to provide required support while 
accounting for the divestiture of A-10s from Fort Smith.
    Mr. Griffin. Background: On October 5, 2009, the President signed 
Executive Order (EO) 13514, which set sustainability goals for federal 
agencies to make improvements in their environmental, energy, and 
economic performance. He went on to say ``The Defense Department must 
take a hard look at every aspect of how it is organized, staffed, and 
operated--indeed, every aspect of how it does business.'' The 188th 
Fighter Wing is a leader in renewable energy, energy conversation, and 
has among the lowest energy costs in the Air National Guard. When 
making basing decisions did the Air Force consider energy costs and 
sustainability? If so, what weight was given to the significant energy 
cost savings of the 188th Fighter Wing?
    General Schwartz. The impact of energy on basing decisions can be 
important. However, the changes for the 188th Fighter Wing is not a 
basing decision but a force structure realignment decision. This force 
structure realignment decision was made in conjunction with National 
Guard Bureau leadership, the Air Force considered the Air National 
Guard's (ANG) first Capstone Principle, ``allocate at least one flying 
unit with ANG equipment to each state,'' when deciding which A-10 bases 
would be affected. Of the five states with ANG A-10 units, two have no 
other flying unit and so reductions came from the three states, 
including Arkansas, that have other flying units.
    Mr. Griffin. Background: On May 8, 2010, the Secretary of Defense 
gave a speech at the Eisenhower Library, in which he announced his 
intention of reforming the business operations of the Pentagon in an 
effort to root out duplication, waste, and excess spending. The 
Secretary stated: ``The Defense Department must take a hard look at 
every aspect of how it is organized, staffed, and operated--indeed, 
every aspect of how it does business. In each instance we must ask: 
First, is this respectful of the American taxpayer at a time of 
economic and fiscal duress? And second, is this activity or arrangement 
the best use of limited dollars, given the pressing needs to take care 
of our people, win the wars we are in, and invest in the capabilities 
necessary to deal with the most likely and lethal future threats?'' 
Additionally, in January 2012 Defense Secretary Panetta released the 
Defense Budget Priorities and Choices. In it he said that in developing 
the budget, the DOD first turned to where DOD could reduce among other 
things operations expenses across the defense enterprise. Flight hour 
costs represent a significant proportion of fighter training expenses. 
Flight time spent transiting to/from the training areas is waste of 
taxpayer resources. The 188th Fighter Wing has the closest airspace 
therefore, it also has the lowest flight hour cost per training event. 
Were operational costs considered in the A-10 basing plan? If so, what 
weight was given to the significant cost savings provided by the 188th 
Fighter Wing?
    General Schwartz. The Air Force formed a General Officer led team 
of Active Duty and Reserve Component experts that considered a variety 
of criteria to include manpower composition, location of the 
installation, Reserve Component presence in the state, and how well a 
replacement mission is suited for a given location (e.g., MILCON needed 
and range and airspace availability). Since these were force structure 
reductions and not part of the strategic basing process, the specific 
criteria was not weighted. The team's recommendations were reviewed by 
Air Force leadership and ultimately approved or disapproved by the 
Secretary of the Air Force and Chief of Staff of the Air Force.
    Mr. Griffin. Background: In January 2012 Defense Secretary Panetta 
released the Defense Budget Priorities and Choices. In it he said that 
in developing the budget the DOD first turned to where DOD could reduce 
among other things personnel costs across the defense enterprise. Fort 
Smith, (compared to all current A-10 bases and all air-to-ground Air 
National Guard fighter units) has the lowest combined health, housing 
and utility costs. Were personnel costs included when A-10 basing 
decisions were made? If so, what weight was given to the significant 
personnel cost savings at the 188th Fighter Wing?
    General Schwartz. The Air Force formed a General Officer led team 
of Active Duty and Reserve Component experts that considered a variety 
of criteria to include manpower composition, location of the 
installation, Reserve Component presence in the state, and how well a 
replacement mission is suited for a given location (e.g., MILCON needed 
and range and airspace availability). Since these were force structure 
reductions and not part of the Air Force's formal strategic basing 
process, the specific personnel cost criteria was not weighted. The 
advantages of the relatively low cost of living found near Fort Smith, 
AR will continue to benefit the members of the unit who will perform 
the new MQ-1/9 Remote Split Operations mission. The team's 
recommendations were reviewed by Air Force leadership and ultimately 
approved.
    Mr. Griffin. Background: On Oct. 25, 2010, Chairman of the Joint 
Chiefs of Staff Admiral Michael Mullen responding to a letter on JTAC 
training said ``I share his concern regarding the increased demand 
signal for JTAC's and the stress it exerts on the current production 
capacities'' On November 16, 2010, General Raymond Odierno the 
Commander of United States Joint Forces Command wrote Admiral Mullen to 
express concerns he had over JTAC tasking and training. He said ``The 
increased demand has resulted in a more than 100 percent increase in 
schoolhouse throughput with a corresponding increase in the number of 
required support sorties.'' Since the 188th's primary mission is Close 
Air Support almost every training sortie is in support of ground 
forces. With unmatched airspace proximity, volume, and availability, 
the 188th produces the most JTAC training per flight hour in the entire 
Air Force. When making fighter basing decisions, did the Air Force 
consider JTAC training requirements? If so, what weight was given to 
the significant JTAC training production of the 188th Fighter Wing?
    General Schwartz. The new Department of Defense Strategic Guidance, 
``Sustaining U.S. Global Leadership: Priorities For 21st Century 
Defense,'' directs the Services to build a force that will be smaller, 
leaner, flexible, ready, and technologically advanced. As a result, the 
Air Force is reducing its size to support one large-scale combined arms 
campaign with sufficient combat power to deny a second adversary. With 
the divestiture of Fort Smith's A-10s, the Air Force will maintain 
sufficient capacity to produce and train Joint terminal Attack 
Controller to support the new Defense Strategy.
    The Air Force formed a General Officer led team of Active Duty and 
Reserve Component experts that considered a variety of criteria to 
include manpower composition, location of the installation, Reserve 
Component presence in the state, and how well a replacement mission is 
suited for a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria was not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved.
    Mr. Griffin. Background: Quality attack controller training has 
long been a problem for the DOD. A Due to airspace and asset 
limitations at other locations throughout the country the quality of 
attack controller sometimes suffers. The 188th Fighter Wing with it's 
unique capability to face-to-face brief/debrief, diverse training 
environment, regional training partners, and incorporation of leading 
edge technology provides the best training for the services JTAC's, 
When making fighter basing decisions did the Air Force consider the 
quality of JTAC training? If so, what weight was given to the second-
to-none JTAC training VALUE at the 188th Fighter Wing?
    General Schwartz. The new Department of Defense Strategic Guidance, 
``Sustaining U.S. Global Leadership: Priorities For 21st Century 
Defense,'' directs the Services to build a force that will be smaller, 
leaner, flexible, ready, and technologically advanced. As a result, the 
Air Force is reducing its size to support one large-scale combined arms 
campaign with sufficient combat power to deny a second adversary. With 
the divestiture of Fort Smith's A-10s, the Air Force will maintain 
sufficient capacity to produce and train JTACs to support the new 
Defense Strategy.
    The Air Force formed a General Officer led team of Active Duty and 
Reserve Component experts that considered a variety of criteria to 
include manpower composition, location of the installation, Reserve 
Component presence in the state, and how well a replacement mission is 
suited for a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria was not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved or disapproved by the Secretary of 
the Air Force and Chief of Staff of the Air Force.
    Mr. Griffin. Did the Air Force consider innovation and joint 
network capabilities when developing the A-10 basing plan? If so, what 
weight was given to the leading edge initiatives of the 188th Fighter 
Wing?
    General Schwartz. The proposed changes for the 188th Fighter Wing 
are not a basing decision but a force structure realignment decision. 
This force structure realignment decision was made in conjunction with 
National Guard Bureau leadership, the Air Force considered the Air 
National Guard's (ANG) first Capstone Principle, ``allocate at least 
one flying unit with ANG equipment to each state,'' when deciding which 
A-10 bases would be affected. Of the five states with ANG A-10 units, 
two have no other flying unit and so reductions came from the three 
states, including Arkansas, that have other flying units. Additionally, 
our General Officer led review considered a variety of criteria to 
include manpower composition, location of the installation, Reserve 
Component presence in the state, and how well a replacement mission is 
suited for a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria were not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved.
    The proposed changes for the 188th Fighter Wing is not a basing 
decision but a force structure realignment decision. This force 
structure realignment decision was made in conjunction with National 
Guard Bureau leadership, the Air Force considered the Air National 
Guard's (ANG) first Capstone Principle, ``allocate at least one flying 
unit with ANG equipment to each state,'' when deciding which A-10 bases 
would be affected. Of the five states with ANG A-10 units, two have no 
other flying unit and so reductions came from the three states, 
including Arkansas, that have other flying units. Additionally, our 
General Officer led review considered a variety of criteria to include 
manpower composition, location of the installation, Reserve Component 
presence in the state, and how well a replacement mission is suited for 
a given location (e.g., MILCON needed and range and airspace 
availability). Since these were force structure reductions and not part 
of the strategic basing process, the specific criteria was not 
weighted. The team's recommendations were reviewed by Air Force 
leadership and ultimately approved.
    Mr. Griffin. Was F-35 basing considered in the A-10 basing study? 
If so, how did bases that scored lower in the study keep their manned 
fighter aircraft?
    General Schwartz. F-35 basing was not considered when making force 
structure reduction or backfill mission decisions that take effect in 
FY13 and FY14. Given current F-35 production estimates, the next set of 
F-35 basing decisions will include domestic and overseas bases and will 
not be required prior to FY17. The Air Force formed a General Officer 
led team of Active Duty and Reserve Component experts that determined 
force structure changes at various locations. Each course of action was 
assessed using specified criteria to include manpower composition, 
location of the installation, Reserve Component presence in the state, 
and how well a replacement mission is suited for a given location 
(e.g., MILCON needed and range and airspace availability). The team's 
recommendations were reviewed by Air Force leadership and ultimately 
approved or disapproved by the Secretary of the Air Force and Chief of 
Staff of the Air Force. Before backfill missions were identified, 24 
squadron-level units were in jeopardy of being eliminated and eight 
installations would have been left without an operational Air Force 
mission. After backfill missions were identified, 14 squadron-level 
units were preserved and only one installation was left without an 
operational mission.
    Mr. Griffin. Was the capability to support Total Force Initiatives 
considered in the A-10 basing decisions? If so what weight was given to 
Fort Smith's efficiencies and unique strengths?
    General Schwartz. The new Defense Strategic Guidance drove a 
holistic inter-state approach to Air National Guard and Air Force 
Reserve force structure. The Air Force's proposed efforts will correct 
several manpower disconnects, rebalance forces, and improve sortie 
generation and aircraft utilization rates across the Total Force. This 
combination is intended to improve the Total Force's readiness and 
responsiveness across the spectrum of operations. From both an 
operational effectiveness and fiscal responsibility perspective, this 
strategy was preferred over a more piecemeal state-by-state approach.
    In conjunction with National Guard Bureau leadership, the Air Force 
considered the Air National Guard (ANG) Capstone Principle (previously 
approved by TAGs) of maintaining at least one Air Force flying unit in 
each state. As such, the Air Force chose the 188th Fighter Wing, Fort 
Smith, AR, as one of three ANG A-10 unit closures because the base, 
along with those in Michigan, have other manned ANG flying units in 
addition to the A-10 units selected for divestment. Additionally, the 
Arkansas Future Missions Database identifies Remotely Piloted Aircraft 
(RPA) as a preferred mission for Arkansas. The proximity of Arkansas' 
Razorback Range (less than 10 miles from Fort Smith) and Hog Military 
Operation Area (MOA), coupled with joint training opportunities, make 
Fort Smith a very attractive location for RPA joint training. The 
divestiture of the A-10s affords an opportunity for the Air Force to 
assign Fort Smith a RPA mission and take advantage of range 
capabilities to facilitate joint training.
    Mr. Griffin. Why are you now choosing to end a program that is over 
98% complete with development activities and with very little risk 
going forward?
    With a reasonable learning curve, what is a cost of the current AMP 
system fully installed? What would the cost be for the alternative 
system?
    Could you explain the numbers that have been floating around in the 
press on the cost of the current program? My understanding is we've 
invested about $2.1B and should have around $2.5B to go. However, it 
appears the USAF is using a $6.2B total program cost, leaving over 
$4.1B yet to be spent. With less than 200 aircraft to be modified and 
using $8M a copy, we should be able to finish the program for around 
$2B.
    Has there been any analysis of the long-term cost savings the 
current AMP solution provides versus the new start for just a CNS/ATM 
capability that is proposed for FY 13?
    So that the taxpayer's money invested in the program and research 
is not lost, have you considered restructuring the current program to 
work within your new funding profile and avoid the cost and inherent 
risks of a new start effort?
    Can the current program be scaled down and still retain its 
certification? If so, have you thought about doing that instead of 
starting all over again?
    General Schwartz. Due to budget constraints, the fiscal year 2013 
President's Budget (PB) terminated the C-130 Avionics Modernization 
Program (AMP).
    As reflected in the December 2010 Selected Acquisition Report 
(SAR), the C-130 AMP per aircraft estimate is $19 million. The fiscal 
year 2012 PB per aircraft cost of ``Optimize Legacy C-130 
Communication, Navigation, Surveillance/Air Traffic Management (CNS/
ATM)'' program is $3.7 million.
    A total of $1.8 billion has been spent to date on C-130 AMP. A 
breakdown by phase follows: RDT&E: $1.7 billion Procurement: $0.1 
billion
    Total cost of the 221 C-130 AMP aircraft fleet is $6.3 billion: The 
latest cost estimate is from the Office of the Secretary of Defense 
(OSD) Cost Assessment and Program Evaluation's (CAPE) Independent Cost 
Estimate (ICE) dated 23 March 2010; it reflects total cost of $6.3 
billion (Then-Year dollars): RDT&E: $1.8 billion Procurement: $4.5 
billion
    A specific comparative analysis of the long-term cost savings the 
current C-130 AMP solution provides versus the new C-130 CNS/ATM 
program was not accomplished. Compliance with looming CNS/ATM mandates 
was the primary reason behind the C-130 AMP program, and remains the 
primary reason for the planned C-130 CNS/ATM program. The Air Force 
plans to modernize the 184 aircraft legacy C-130 combat delivery fleet 
in the most economically efficient way possible. A review of similar 
CNS/ATM solutions on other Air Force mobility aircraft (KC-10, KC-135), 
and an awareness of CNS/ATM modifications to foreign nations' C-130 
aircraft, indicate that less expensive CNS/ATM solutions are currently 
available.
    The C-130 CNS/ATM program will provide the capabilities related to 
global access and global engagement that the Joint Requirements 
Oversight Council (JROC) determined are essential to national security.
    The primary differences between the C-130 AMP and the C-130 CNS/ATM 
program are: The new program retains the navigator position, thereby 
requiring much less avionics integration than C-130 AMP, the new 
program does not standardize the aircraft cockpit across the C-130H 
fleet, and there is more than a 40 percent reduction in requirements 
when compared to C-130 AMP. These changes were too large to restructure 
the C-130 AMP program or to simply scale it down. The goal is for an 
open and transparent defense industry competition, with C-130 CNS/ATM 
program contract award in fiscal year 2014. This is required to ensure 
the legacy C-130H combat delivery fleet meets the Federal Aviation 
Administration's air traffic management 1 January 2020 mandate.
    Mr. Griffin. The Air Force has stated that you were a full partner 
in the decisions to cut force structure and manpower from the Air 
National Guard in the budget process. Does this mean that you had a 
vote in the decisions? How did you vote on the decision to cut three 
(3) A-10 squadrons from the Air National Guard? 65 x C-130s? F-16s? Did 
you offer alternate solutions?
    General Schwartz. The Air National Guard (ANG) was a participant in 
the budget discussions during the decision-making process. Neither ANG, 
Air Force Reserve Command (AFRC) or Active Duty Major Command (MAJCOM) 
leadership took part in a ``vote'' on the final force structure 
decisions. The Secretary of the Air Force, with the Chief of Staff's 
best military input, made the call on determining which planes would be 
cut from the Guard component. ANG leadership did provide inputs on 
which squadrons to stand down based on the five ANG Captsone 
Principles: allocate at least one flying Wing with ANG equipment to 
each state; recapitalize concurrently and in balance with the Regular 
Air Force; manage ANG resources with ANG people; adopt missions that 
fit the militia construct; and, build dual-use capabilities (Emergency 
Support Functions) relevant to the states.
    Following release of the President's fiscal year 2012 (FY13) budget 
proposal, the Council of Governors (CoG) asked Secretary Panetta for an 
opportunity to suggest changes to those proposals affecting the Air 
National Guard. The CoG empowered two state Adjutants General to 
develop an alternative which was recently provided to the Air Force and 
the Department of Defense (DOD) through the Chief of the National Guard 
Bureau. This alternative is currently under review and the results of 
the DOD's assessment and any recommended changes to the proposed FY13 
budget will be provided to Congress within the next few weeks.
    Mr. Griffin. Do you think we can leverage the cost savings in the 
ANG to balance the Air Force in a more fiscally sensible way for FY13 
compared to what was released earlier this week in the President's 
Budget Request? Can your staff prepare some alternate options for the 
Congress to consider that the Air Force may not have been willing to 
look at?
    General Schwartz. Following release of the President's FY13 budget 
proposal, the Council of Governors (CoG) asked Secretary Panetta for an 
opportunity to suggest changes to those proposals affecting the Air 
National Guard. The CoG empowered two state Adjutants General to 
develop an alternative which was recently provided to the Air Force and 
the Department of Defense through the Chief of the National Guard 
Bureau. This alternative is currently under review and the results of 
the Department of Defense's assessment and any recommended changes to 
the proposed FY13 budget will be provided to Congress within the next 
few weeks.
    Mr. Griffin. The Air Force's justification for reducing the Air 
National Guard is that the Active Air Force has made cuts in the past 
when the Air National Guard has grown? Is this true? Do you believe 
that it was the right decision to reduce the Active Air Force rather 
than gutting the ANG in the past? Has anything changed that would 
change our way of doing business since those reductions were made?
    General Schwartz. It's not correct to say the Air Force is reducing 
the Air National Guard because of previous cuts made to the Active Duty 
force. To meet the requirements outlined by the U.S. defense strategy 
and remain within funding constraints, the Air Force made difficult 
choices in all core functions, including the decision to divest 
portions of combat and combat enabler forces. The guiding principle was 
balance. To retain critical core capabilities and maintain our ability 
to rapidly respond with a sustainable agile force to meet mission 
demands, the Air Force balanced risk to force structure and 
modernization.
    Mr. Griffin. Did the AF consider Homeland Security capacity in 
their reductions? Do you think the AF places the same interest or 
emphasis on homeland missions as it does overseas missions? What 
happened with the C-27J? Was it a good aircraft for the Homeland 
Security mission? How is it doing in Afghanistan?
    General Schwartz. The Air Force conducted detailed analysis of 
wartime and disaster response (Homeland Defense) scenarios consistent 
with the new the Department of Defense strategic guidance and validated 
a reduced airlift requirement, leaving the Air Force with excess 
airlift capacity. As a result the Air Force was able to reduce the C-
130 fleet by 65 aircraft and divest the C-27J fleet. The Air Force is 
exploring options on the disposition of the C-27J fleet. While the C-
27J can perform the Homeland Security mission, the C-130 is a more cost 
effective and capable aircraft. In support the Homeland Security 
mission, the Air Force meets mission requirements/taskings through the 
Global Force Management process that prioritizes all combatant 
commanders' (NORTHCOM, CENTCOM, PACOM, etc) requirements. Feedback from 
CENTCOM indicates the C-130 has generally outperformed the C-27J 
providing intra-theater airlift support in Afghanistan.
    Mr. Griffin. It appears the AF is changing the force mix out of its 
concern for readiness and to avoid asking too much of the air reserve 
components (ARC). How is your retention? Are you maxed out in the ANG 
and need the AF to reduce your operational load? Or do you have the 
capacity to do more in some of your missions? Where are you near 
capacity?
    General Schwartz. Retention in the Air Force is at a 17 year record 
high. Although we've had to implement Force Management programs to 
ensure we remain within authorized end strength, we also continue to 
invest in retention programs for certain critical career fields to 
guarantee we maintain the right balance of skills and experience.
    The FY13 Presidents Budget proposal outlined a total force mix to 
meet the requirements outlined by the U.S. defense strategy. The Air 
Force retains critical core capabilities and maintains its ability to 
meet the operational load. Balancing the right mix of Active Duty, 
Guard and Reserve components allows us to rapidly respond with a 
sustainable agile force to meet mission demands, while balancing risk 
to force structure and modernization.
    Mr. Griffin. The experience levels in the ANG are well known, and 
are a major factor in how you can fly older aircraft less often and 
thus extend their service life and save money. Will the same hold true 
for RPA and MC-12? What can we expect regarding these missions? Are 
they good ANG missions, and can we count on having them longer than the 
plan to retire the A-10s? Did the MC-12s and RPA missions come to you 
at your request? Were these missions part of a long term strategy to 
equip the ANG?
    General Schwartz. Yes, the ability of the Air National Guard (ANG) 
to establish and maintain superior experience levels, regardless of the 
particular platform, is well known. History tells us that there is no 
reason to believe that would be any different in the Remotely Piloted 
Aircraft (RPA) and MC-12 and in fact, the ANG currently has the highest 
experience levels in RPAs.
    As part of the plan to meet the increased RPA taskings to the Air 
Force from the SecDef, Air Combat Command (ACC) has asked the ANG to 
operate 11 steady state Combat Air Patrols (CAP) indefinitely. The 
fiscal year (FY13) budget proposal takes this into account and converts 
an additional four units from former missions to RPAs in order for the 
ANG to meet this requirement. As an end state, there will be a total of 
11 ANG RPA units operating 11 steady state CAPs with the ability to 
mobilize more.
    The RPA mission is excellent for the ANG for several reasons. 
First, ANG Airmen are able to augment active duty forces in a wartime 
tasking while ``deployed in place.'' This means these Guard Airmen are 
able to maintain relevancy in the fight, but are able to be with their 
families at the end of the duty day; traditional guardsmen are able to 
maintain their important roles in business and community life. Second, 
ANG RPA units are part of that traditional rheostat of reserve forces 
that continue to be called upon when demand increases and then can go 
back to civilian life when not needed. Case in point, the ANG has been 
asked and is continuing to fly five surge CAPs while ACC reconstitutes 
its active duty RPA force. Finally, RPAs could be an invaluable asset 
to State Governors and Department of Homeland Security in both the 
DomOps and Defense Support to Civil Authorities role for events such as 
natural disasters or Incident Awareness and Assessment.
    The transition of RPAs and the MC-12s to the ANG may extend the 
service life of the aircraft based on predicted reduced operational use 
after the Afghanistan drawdown. The MC-12 provides a replacement for 
the retiring RC-26, preserving ANG aviation capabilities and 
experience. The addition of the MC-12 mission also mitigates some 
mission losses sustained by the ANG in the FY13 President's budget. The 
reliance on the Guard for these important missions is, indeed, an 
important part of our long term strategy to equip the ANG to continue 
its important national role into the foreseeable future.
    Mr. Griffin. If approved, this new plan will once again require 
many units to convert to new missions and require retraining of 
hundreds of airmen. How much do these conversions cost? Were there 
options to save this expense on our people and to avoid losing all the 
experience the ANG possesses?
    General Schwartz. The conversion costs will vary between units and 
missions. Where, possible, options were examined to reduce conversion 
costs. When exploring options we were guided by the Air National Guard 
(ANG)-developed five Capstone Principles: allocate at least one flying 
Wing with ANG equipment to each state; recapitalize concurrently and in 
balance with the Regular Air Force; manage ANG resources with ANG 
people; adopt missions that fit the militia construct; and, build dual-
use capabilities (Emergency Support Functions) relevant to the states.
    Following release of the President's fiscal year (FY13) budget 
proposal, the Council of Governors (CoG) asked Secretary Panetta for an 
opportunity to suggest changes to those proposals affecting the Air 
National Guard. The CoG empowered two state Adjutants General to 
develop an alternative which was recently provided to the Air Force and 
the Department of Defense (DOD) through the Chief of the National Guard 
Bureau. This alternative is currently under review and the results of 
the DOD's assessment and any recommended changes to the proposed FY13 
budget will be provided to Congress within the next few weeks.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. I understand that the Air Force decision to cut the C-
130s was based on removing the older aircraft from the fleet that 
require costly modification and modernization efforts to remain viable. 
However, some of these older aircrafts have not put on as many flight 
hours than others and are only portionally through their life cycle. 
Was this at all considered than just arbitrarily retiring the older 
aircrafts?
    Secretary Donley. Yes, this was one of multiple factors considered 
when deciding which aircraft to retire. While the relative age of each 
model was the primary factor for consideration, existing and required 
modifications and creating fleet commonality were also considered.
    Mrs. Roby. In regard to the C-130s being retired, how was the 
decision made in which squadrons to retire rather than any 
consideration made to the actual performance and role of the squadrons 
than just that the older C-130s were at those locations?
    Secretary Donley. The Air Force found very little variance in 
squadron performance and roles when it looked at C-130 force structure 
reductions. The Air Force used two primary means to determine the 
optimum way to reduce intra-theater force structure while retaining 
needed capacity and capability. Using scenarios consistent with Defense 
Strategic Guidance, the Air Force determined that excess capacity 
exists in the Air Force intra-theater airlift fleet. A reduced intra-
theater airlift requirement enabled the retirement of 65 C-130H 
aircraft. To not only meet surge requirements, but also to meet a 62-
aircraft post-surge and steady-state requirement with a reduced total 
fleet size, adjustments to the Active Duty (AD)/Air Reserve Component 
(ARC) mix were necessary. The previous AD/ARC mix of 33%/67% was 
problematic during post-surge and steady-state operations with 
excessive AD deploy-to-dwell rates. Therefore, 65 aircraft were removed 
from the Air National Guard and Air Force Reserve changing the AD/ARC 
mix to 41%/59% which more closely aligns with other Air Force force 
structure.
    Mrs. Roby. Was there a consideration given to moving the C-130s to 
any of these squadrons due to their mission and location rather than 
retiring those units with the oldest aircraft?
    Secretary Donley. Yes, besides retiring 65 older C-130H aircraft, 
the Air Force realigned a substantial portion of its C-130 fleet to 
ensure fleet commonality at individual units, effectively streamlining 
operations and maintenance. In some cases, units gained newer C-130H 
models or C-130J aircraft. Besides realignment, the Air Force in 
coordination with the National Guard Bureau, considered State-by-State 
capability and in multiple cases employed mission mitigating options to 
avoid divesting entire units.
    Mrs. Roby. Do you believe that we can leverage the cost savings in 
the Air National Guard to balance the Air Force in a more fiscally 
sensible way for Fiscal Year 2013 compared to what was released earlier 
this week in the President's Budget Request?
    Secretary Donley. The proposed FY13 President's Budget provides the 
most cost effective force structure to meet the new U.S. defense 
strategy. Out of this assessment, the Department of Defense developed a 
strategy that transitions our defense enterprise from an emphasis on 
today's wars to preparing for future challenges, protects the broad 
range of U.S. national security interests, advances the Department's 
efforts to rebalance and reform, and supports the national security 
imperative of deficit reduction by reducing defense spending. The 
resulting strategic guidance provided a set of precepts to guide 
decisions regarding the size and shape of the force over subsequent 
budget cycles.
    Mrs. Roby. The Air Force's justification for reducing the Air 
National Guard is that the Active Air Force has made cuts in the past 
when the Air National Guard has grown. Is this true and has anything 
changed that would change our way of doing business since those 
reductions were made?
    Secretary Donley. It's not correct to say the Air Force is reducing 
the Air National Guard because of previous cuts made to the Active Duty 
force. To meet the requirements outlined by the U.S. defense strategy 
and remain within funding constraints, the Air Force made difficult 
choices in all core functions, including the decision to divest 
portions of combat and combat enabler forces. The guiding principle was 
balance. The Air Force retains critical core capabilities and maintains 
its ability to rapidly respond with a sustainable agile force to meet 
mission demands, while balancing risk to force structure and 
modernization.
    Mrs. Roby. Does the Air Force places the same interest or emphasis 
on homeland missions as it does overseas missions when it comes to the 
Air National Guard and was homeland security capacity consider with 
reductions?
    Secretary Donley. The Air Force recognizes that the first 
responsibility of U.S. forces is to defend U.S. territory from direct 
attack by state and non-state actors. When directed by the President or 
approved by the Secretary of Defense, the Air Force conducts defense 
support of civil authorities and assists at all levels in preventing, 
protecting against, mitigating the effects of, and responding to man-
made or natural disasters. To fully analyze the effects of impending 
reductions, the Air Force conducted detailed analysis of wartime and 
disaster response scenarios consistent with the new Department of 
Defense strategic guidance. In support of the Homeland Security 
mission, the Air Force continues to meet mission requirements/taskings 
through the Global Force Management process that prioritizes all 
combatant commanders (NORTHCOM, CENTCOM, PACOM, etc) requirements.
    Mrs. Roby. If approved, this new plan will once again require many 
units to convert to new missions. Were there options to save this 
expense on our people and to avoid losing all the experience the Air 
National Guard possesses?
    Secretary Donley. The conversion costs will vary between units and 
missions. Where, possible, options were examined to reduce conversion 
costs. When exploring options we were guided by the Air National Guard 
(ANG)-developed five Capstone Principles: allocate at least one flying 
Wing with ANG equipment to each state; recapitalize concurrently and in 
balance with the Regular Air Force; manage ANG resources with ANG 
people; adopt missions that fit the militia construct; and, build dual-
use capabilities (Emergency Support Functions) relevant to the states.
    Following release of the President's fiscal year 2012 (FY13) budget 
proposal, the Council of Governors (CoG) asked Secretary Panetta for an 
opportunity to suggest changes to those proposals affecting the Air 
National Guard. The CoG empowered two state Adjutants General to 
develop an alternative which was recently provided to the Air Force and 
the Department of Defense (DOD) through the Chief of the National Guard 
Bureau. This alternative is currently under review and the results of 
the DOD's assessment and any recommended changes to the proposed FY13 
budget will be provided to Congress within the next few weeks.

    Mrs. Roby. I understand that the Air Force decision to cut the C-
130s was based on removing the older aircraft from the fleet that 
require costly modification and modernization efforts to remain viable. 
However, some of these older aircrafts have not put on as many flight 
hours than others and are only portionally through their life cycle. 
Was this at all considered than just arbitrarily retiring the older 
aircrafts?
    General Schwartz. Yes, this was one of multiple factors considered 
when deciding which aircraft to retire. While the relative age of each 
model was the primary factor for consideration, existing and required 
modifications and creating fleet commonality were also considered.
    Mrs. Roby. In regard to the C-130s being retired, how was the 
decision made in which squadrons to retire rather than any 
consideration made to the actual performance and role of the squadrons 
than just that the older C-130s were at those locations?
    General Schwartz. The Air Force found very little variance in 
squadron performance and roles when it looked at C-130 force structure 
reductions. The Air Force used two primary means to determine the 
optimum way to reduce intra-theater force structure while retaining 
needed capacity and capability. Using scenarios consistent with Defense 
Strategic Guidance, the Air Force determined that excess capacity 
exists in the Air Force intra-theater airlift fleet. A reduced intra-
theater airlift requirement enabled the retirement of 65 C-130H 
aircraft. To not only meet surge requirements, but also to meet a 62-
aircraft post-surge and steady-state requirement with a reduced total 
fleet size, adjustments to the Active Duty (AD)/Air Reserve Component 
(ARC) mix were necessary. The previous AD/ARC mix of 33%/67% was 
problematic during post-surge and steady-state operations with 
excessive AD deploy-to-dwell rates. Therefore, 65 aircraft were removed 
from the Air National Guard and Air Force Reserve changing the AD/ARC 
mix to 41%/59% which more closely aligns with other Air Force force 
structure.
    Mrs. Roby. Was there a consideration given to moving the C-130s to 
any of these squadrons due to their mission and location rather than 
retiring those units with the oldest aircraft?
    General Schwartz. Yes, besides retiring 65 older C-130H aircraft, 
the Air Force realigned a substantial portion of its C-130 fleet to 
ensure fleet commonality at individual units, effectively streamlining 
operations and maintenance. In some cases, units gained newer C-130H 
models or C-130J aircraft. Besides realignment, the Air Force in 
coordination with the National Guard Bureau, considered State-by-State 
capability and in multiple cases employed mission mitigating options to 
avoid divesting entire units.
    Mrs. Roby. Do you believe that we can leverage the cost savings in 
the Air National Guard to balance the Air Force in a more fiscally 
sensible way for Fiscal Year 2013 compared to what was released earlier 
this week in the President's Budget Request?
    General Schwartz. The proposed FY13 President's Budget provides the 
most cost effective force structure to meet the new U.S. defense 
strategy. Out of this assessment, the Department of Defense developed a 
strategy that transitions our defense enterprise from an emphasis on 
today's wars to preparing for future challenges, protects the broad 
range of U.S. national security interests, advances the Department's 
efforts to rebalance and reform, and supports the national security 
imperative of deficit reduction by reducing defense spending. The 
resulting strategic guidance provided a set of precepts to guide 
decisions regarding the size and shape of the force over subsequent 
budget cycles.
    Mrs. Roby. The Air Force's justification for reducing the Air 
National Guard is that the Active Air Force has made cuts in the past 
when the Air National Guard has grown. Is this true and has anything 
changed that would change our way of doing business since those 
reductions were made?
    General Schwartz. It's not correct to say the Air Force is reducing 
the Air National Guard because of previous cuts made to the Active Duty 
force. To meet the requirements outlined by the U.S. defense strategy 
and remain within funding constraints, the Air Force made difficult 
choices in all core functions, including the decision to divest 
portions of combat and combat enabler forces. The guiding principle was 
balance. The Air Force retains critical core capabilities and maintains 
its ability to rapidly respond with a sustainable agile force to meet 
mission demands, while balancing risk to force structure and 
modernization.
    Mrs. Roby. Does the Air Force places the same interest or emphasis 
on homeland missions as it does overseas missions when it comes to the 
Air National Guard and was homeland security capacity consider with 
reductions?
    General Schwartz. The Air Force recognizes that the first 
responsibility of U.S. forces is to defend U.S. territory from direct 
attack by state and non-state actors. When directed by the President or 
approved by the Secretary of Defense, the Air Force conducts defense 
support of civil authorities and assists at all levels in preventing, 
protecting against, mitigating the effects of, and responding to man-
made or natural disasters. To fully analyze the effects of impending 
reductions, the Air Force conducted detailed analysis of wartime and 
disaster response scenarios consistent with the new Department of 
Defense strategic guidance. In support of the Homeland Security 
mission, the Air Force continues to meet mission requirements/taskings 
through the Global Force Management process that prioritizes all 
combatant commanders (NORTHCOM, CENTCOM, PACOM, etc) requirements.
    Mrs. Roby. If approved, this new plan will once again require many 
units to convert to new missions. Were there options to save this 
expense on our people and to avoid losing all the experience the Air 
National Guard possesses?
    General Schwartz. The conversion costs will vary between units and 
missions. Where, possible, options were examined to reduce conversion 
costs. When exploring options we were guided by the Air National Guard 
(ANG)-developed five Capstone Principles: allocate at least one flying 
Wing with ANG equipment to each state; recapitalize concurrently and in 
balance with the Regular Air Force; manage ANG resources with ANG 
people; adopt missions that fit the militia construct; and, build dual-
use capabilities (Emergency Support Functions) relevant to the states.
    Following release of the President's fiscal year 2012 (FY13) budget 
proposal, the Council of Governors (CoG) asked Secretary Panetta for an 
opportunity to suggest changes to those proposals affecting the Air 
National Guard. The CoG empowered two state Adjutants General to 
develop an alternative which was recently provided to the Air Force and 
the Department of Defense (DOD) through the Chief of the National Guard 
Bureau. This alternative is currently under review and the results of 
the DOD's assessment and any recommended changes to the proposed FY13 
budget will be provided to Congress within the next few weeks.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
